<html>
<title> - REMOTE SENSING DATA: APPLICATIONS AND BENEFITS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                          REMOTE SENSING DATA:
                       APPLICATIONS AND BENEFITS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 7, 2008

                               __________

                           Serial No. 110-91

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
41-573 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL T. MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant
                            C O N T E N T S

                             April 7, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................     6
    Written Statement............................................     8

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

                                Panel 1:

Mr. Jack G. Byers, Deputy Director and Deputy State Engineer, 
  Colorado Division of Water Resources
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Dr. A. Simon Montagu, Director, Customer Resource and Support, 
  Denver Regional Council of Governments
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    22

Mr. Manuel Navarro, Fire Chief, City of Colorado Springs Fire 
  Department
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    30

Mr. Frank J. Sapio, Director, Forest Health Technology Enterprise 
  Team (FHTET), U.S. Department of Agriculture
    Oral Statement...............................................    30
    Written Statement............................................    32

Discussion.......................................................    37

                                Panel 2:

Mr. Kevin Little, Director of Business Development, Intermap 
  Technologies, Inc.
    Oral Statement...............................................    47
    Written Statement............................................    48
    Biography....................................................    51

Mr. Matthew M. O'Connell, President and Chief Executive Officer, 
  GeoEye, Inc.
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    78

Ms. Jill Smith, President and Chief Executive Officer, 
  DigitalGlobe, Inc.
    Oral Statement...............................................    78
    Written Statement............................................    80
    Biography....................................................    81

Discussion.......................................................    82

              Appendix: Answers to Post-Hearing Questions

Mr. Jack G. Byers, Deputy Director and Deputy State Engineer, 
  Colorado Division of Water Resources...........................    92

Dr. A. Simon Montagu, Director, Customer Resource and Support, 
  Denver Regional Council of Governments.........................    93

Mr. Manuel Navarro, Fire Chief, City of Colorado Springs Fire 
  Department.....................................................    94

Mr. Frank J. Sapio, Director, Forest Health Technology Enterprise 
  Team (FHTET), U.S. Department of Agriculture...................    95

Mr. Kevin Little, Director of Business Development, Intermap 
  Technologies, Inc..............................................    96

Mr. Matthew M. O'Connell, President and Chief Executive Officer, 
  GeoEye, Inc....................................................    97

Ms. Jill Smith, President and Chief Executive Officer, 
  DigitalGlobe, Inc..............................................    98


             REMOTE SENSING DATA: APPLICATIONS AND BENEFITS

                              ----------                              


                         MONDAY, APRIL 7, 2008

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., at 
Centennial Hall, 200 South Cascade Avenue, Colorado Springs, 
Colorado, Hon. Mark Udall [Chairman of the Subcommittee] 
presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         FIELD HEARING CHARTER

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                          Remote Sensing Data:

                       Applications and Benefits

                         MONDAY, APRIL 7, 2008
                         10:00 A.M.-12:00 P.M.
                            CENTENNIAL HALL
                         200 S. CASCADE AVENUE
                       COLORADO SPRINGS, COLORADO

Purpose

    On Monday, April 7, 2008 at Centennial Hall, Colorado Springs, 
Colorado at 10:00 a.m.-12:00 p.m., the House Committee on Science and 
Technology, Subcommittee on Space and Aeronautics will hold a hearing 
to examine the opportunities and challenges of using remote sensing 
data to benefit public and private sector activities including urban 
planning, natural resource management, national defense, and homeland 
security among other application areas.

Witnesses:

    Witnesses scheduled to testify at the field hearing include the 
following:
Panel 1: Remote Sensing Data Users
Jack Byers, Deputy Director and Deputy State Engineer, Colorado 
Division of Water Resources

Simon Montagu, Customer Resource and Support Director, Denver Regional 
Council of Governments

Manuel Navarro, Fire Chief, City of Colorado Springs

Frank Sapio, Director, Forest Health Technology Enterprise Team, U.S. 
Department of Agriculture Forest Service

Panel 2: Commercial Remote Sensing Data Providers
Kevin Little, Director, Business Development, Intermap Technologies, 
Inc.

Matthew O'Connell, President and Chief Executive Officer, GeoEye, Inc.

Jill Smith, President and Chief Executive Officer, DigitalGlobe, Inc.

    Data and images collected from aircraft and satellites provide 
information that can facilitate public and private operations and 
decision-making to benefit society. In the aftermath of the terrorist 
attacks on September 11, 2001, remote sensing images acquired from 
aircraft and from commercial and government remote sensing satellites 
aided in the emergency response and recovery operations at Ground Zero. 
Commercial remote sensing imagery has also been used by the U.S. 
military for the Afghanistan and Iraq wars. In August of 2007, a 
National Aeronautics and Space Administration (NASA) unmanned aerial 
vehicle used an infrared scanner to map wildfires in the western U.S. 
Data from Earth-observing satellites are being combined with sources of 
information on the ground to manage natural resources and monitor 
changes in land and Earth systems. Aerial photography and images 
acquired from satellites are used by State and local governments to map 
flood plains and natural resources, among other applications.
    The field hearing will address the opportunities and challenges of 
using remote sensing data to address public and private sector needs. 
Witnesses will testify on the ways that remote sensing data can assist 
public and private sector users in Colorado, for instance, in 
identifying forests vulnerable to fire and insect infestation, managing 
water resources, planning urban development and road construction, and 
mapping flood plains. Commercial providers of remote sensing data will 
testify on the benefits of remote sensing data to State and local 
governments and on the role that commercial data can play in addressing 
these civil applications as well as those related to homeland security 
and national defense.

BACKGROUND

    The ability to collect information and images of the Earth's land, 
atmosphere, and oceans from aircraft and satellites has been available 
for decades. The use of aerial photography grew during the 1930s and 
1940s as a means of military reconnaissance. The first U.S. 
meteorological satellite was launched in 1960 and the first U.S. civil 
satellite to observe and monitor the land surface, Landsat, was 
launched in 1972. Over the last forty years, the U.S. Government has 
helped advance the state of civil space-based remote sensing. Through 
NASA and the National Oceanic and Atmospheric Administration (NOAA), 
the U.S. Government has launched an ongoing series of increasingly more 
capable Earth-observing satellites to support an operational weather 
monitoring service and to conduct research to better understand the 
Earth's land, ocean, atmosphere, and biosphere, their relationships, 
and how the Earth system changes over time. In addition, the U.S. 
Geological Survey has been responsible for archiving and managing civil 
land remote sensing data. The Land Remote Sensing Policy Act of 1992 
set commercial land remote sensing as a U.S. policy goal and included a 
process to license private remote sensing satellite operators. In the 
early 1990s the first licenses were issued to private remote sensing 
operators and by 1999 the first commercial remote sensing satellite was 
launched.
    The advantages of remote sensing include the ability to collect 
information over large spatial areas; to characterize natural features 
or physical objects on the ground; to observe surface areas and objects 
on a systematic basis and monitor their changes over time; and the 
ability to integrate this data with other information to aid decision-
making. Remote sensing from airplanes or satellites can be collected at 
various spatial resolutions [spatial resolution refers to the smallest 
feature that can be resolved in an image]. High resolution remote 
sensing images can resolve smaller features--often less than a meter in 
size--whereas moderate or lower resolution images can detect features 
in a size range of tens to hundreds of meters or larger. Remote sensing 
instruments may also acquire data in different spectral bands of the 
electromagnetic spectrum (e.g., infrared, near-infrared), which 
provides information, for example, to help classify and categorize 
vegetation. Data collected in the thermal infrared bands are especially 
useful for water management. Light detection and ranging (lidar) 
instruments provide topographic data that can form the basis of digital 
elevation models.
    The needs of local government often require high resolution data, 
which has long been provided through aerial imagery. The advent of 
commercial high resolution remote sensing imagery in the late 1990s 
created another source of data that can serve local and regional 
governments. In addition, States have taken advantage of moderate 
resolution U.S. Government-provided Landsat data to monitor natural 
resources, such as forests and wetlands that span large areas, to 
analyze the ecological systems of land and watershed areas, and to help 
protect wildlife habitats.
    State and local governments can also benefit from remote sensing 
information to better monitor land use, assist in transportation 
planning, and deal with other infrastructure and public safety issues. 
In addition, commercial enterprises use the data to help support their 
businesses. For example, real estate companies use imagery to enhance 
the information provided on real estate property listings, and 
transportation companies may use remote sensing data to help route 
trucks.

Providers of remote sensing data

    Remote sensing data for State and local applications is provided by 
both U.S. Government agencies and by commercial providers. Landsat 
satellites, which have been developed and launched by NASA since 1972, 
are operated by the Department of Interior's U.S. Geological Survey 
(USGS) and the data are archived and managed by the USGS Center for 
Earth Resources Observation and Science (EROS) Data Center. The USGS 
manages and archives publicly available aerial photographs and lidar 
data, among other data sets. The USGS has responsibility for providing 
future space-based land observation data after NASA's launch of the 
Landsat Data Continuity Mission, which is planned for 2011.
    NASA operates fourteen Earth-observing research satellites from 
space to further our knowledge of the Earth system, including its 
atmosphere, oceans, land surface, and biosphere. Some of these 
spacecraft support applied uses by public and private organizations. 
The Terra and Aqua satellites, for example, collect data that support 
fire monitoring and the Quick Scatterometer (QuickSCAT) and Tropical 
Rainfall Measuring Mission provide data to help improve tropical 
cyclone and hurricane forecasting. In addition, within NASA's Earth 
Science Division, the Applied Sciences Program works with federal 
agency partners and other organizations to apply NASA's Earth remote 
sensing data to decision support tools in the areas of agricultural 
efficiency, air quality, aviation, carbon management, coastal 
management, disaster management, ecological forecasting, energy 
management, homeland security, invasive species, public health and 
water management. Many of the agencies and organizations that use these 
tools provide services that extend to the State, local, and regional 
levels.
    The Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA) operates the Nation's fleet of civil operational 
weather monitoring satellites, which provide data to inform the 
National Weather Service's forecasts. Future satellite systems in which 
NOAA is involved, including the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS), will also collect global data 
on the Earth's weather, oceans, land and space environments. NOAA also 
operates data centers that archive geophysical, climate, ocean, and 
coastal data and provide information products to support scientific 
research and other purposes.
    Multiple independent firms across the country provide services to 
collect aerial photography. Federal agencies also collect aerial 
imagery to support their services. United States commercial space 
remote sensing companies operate satellites and sell imagery and 
applications to customers in the public, private, and non-government 
sectors. The market for commercial remote sensing data has largely been 
in high resolution imagery. The Department of Defense has been a major 
user of commercial remote sensing imagery. Commercial remote sensing 
companies support applications including mapping, national security, 
environmental monitoring, urban planning, natural resource management, 
homeland defense, and emergency preparedness and disaster relief, among 
many other areas. Several non-U.S. companies also collect and sell 
space remote sensing data.

Digital information and communications technologies

    The increasing capabilities of computers and communication 
technology have facilitated the development of remote sensing 
applications. Digital remote sensing data can be acquired from and 
disseminated over the Internet, and manipulated on desktop computers. 
Geographic information systems enable multiple sources of geographic 
information (such as locations of power plants and hospitals) to be 
integrated with remote sensing images. Global positioning data can be 
combined with remote sensing data sources to enable applications that 
rely on accurate locational information. In addition, software tools 
allow multiple sources of remote sensing data to be blended together to 
maximize the information content for remote sensing applications.
    The availability of civil remote sensing data has led to the 
establishment of companies dedicated to processing and transforming 
remote sensing data into information products and applications for 
users. These companies create mapping products, such as topographical 
line maps and digital elevation models, three-dimensional visualization 
tools, among other remote sensing applications.
    Chairman Udall. This hearing will come to order. Good 
morning to all of you. I want to welcome the panel witnesses 
that we have, a very esteemed and erudite group that we're 
going to hear from in a few minutes. In particular, I'm pleased 
that my colleague and Ranking Member on the Space and 
Aeronautics Subcommittee, Representative Tom Feeney from the 
great State of Florida has been able to join me here in our 
great State of Colorado.
    I have to tell you as an aside that Congressman Feeney is a 
very committed aerobic athlete. He got up this morning and ran 
five or six miles here in Colorado, which is really impressive 
given that he's a flatlander and came from Florida just 
yesterday.
    I'd also like to mention that Congressman Lamborn, who 
represents Colorado in the United States House of 
Representatives, he does send his regrets. He would have liked 
to have joined us here today, but he unfortunately had a 
previous commitment that made that impossible.
    Before we begin, I'd like to also take the opportunity to 
recognize some of the local officials who are here and thank El 
Paso County officials for their help with today's hearing. I'm 
looking forward to today's hearing because it touches on an 
area that has great relevance for the lives of citizens here in 
Colorado, as well as for the lives of folks all across America. 
It's an area that hasn't gotten as much public attention as it 
deserves, especially relative to the impact it has had on the 
operations of our State and local governments, as well as on 
other public and private-sector activities in Colorado and 
elsewhere. I am speaking, of course, of the way that remote 
sensing data collected from commercial and government 
spacecraft and aircraft have been used to provide societal 
benefits, help strengthen our national defense, and protect our 
homeland.
    And we are in an appropriate place to discuss these issues 
as Colorado is leading the way in remote sensing technology. 
Not only is our State the center of gravity for commercial 
remote sensing activity, but our State and local government 
officials are also on the cutting edge of using this technology 
to help Colorado citizens. But I don't want to give too much 
away from our witnesses' testimony today.
    I would like to note that we've come a long way since some 
of the first aerial photographs were taken of Boston in 1860 
from a tethered balloon and even from the first civil remote 
sensing satellite, TIROS 1, which was launched a century later 
in 1960 to take images to be used in weather forecasts. Today, 
remote sensing data is becoming nearly ubiquitous through the 
use of advanced satellite, computing and communications 
technologies. One need only call up web-based tools to access 
images of cities, neighborhoods and unpopulated areas across 
the country at no cost.
    The U.S. Government and commercial firms operate numerous 
aircraft and satellites to collect and deliver the remote 
sensing data to users on the ground. Today we will hear more 
about how these data are used to benefit our society, and what 
needs to be done to expand on the opportunities this 
information offers.
    We need not look far to see and feel the challenges, some 
known and some unknown, facing our municipalities and our 
nation. Rising energy costs, our scarce water supply, and urban 
sprawl are complex problems. We need to bring to bear the best 
available information to ensure that we take effective and 
well-informed actions in response. Moreover, our natural 
environment and resources demand our vigilant stewardship. We 
depend on water, forests, and fertile land, among other 
resources, to support our needs.
    Here in Colorado, we have a close relationship with the 
land around us and are even more aware of how vulnerable these 
resources are. Drought, the pine beetle infestation, and fire 
have wreaked havoc on our communities and our environment. I 
hope our witnesses can give us insight into how remote sensing 
data can be used to help us effectively manage our natural 
resources. Our government and private institutions also need to 
ensure that we are prepared in the event of emergencies and 
crises.
    The tragedy of September 11, 2001 brought into stark 
reality the need to assess our infrastructure and plan against 
the risks. Remote sensing was a vital asset in the response and 
recovery efforts at Ground Zero. I'm very interested in 
learning about how remote sensing data can help our State, 
local and federal agencies ensure our security at home and 
abroad as well as respond to emergency situations.
    Our witnesses today will also discuss the role of 
commercial and remote sensing in collecting and delivering the 
data to meet the needs of both public and private sector 
customers. There is a science and an art involved in turning 
the data collected by remote sensing instruments into 
sophisticated tools to support decision-making, and I hope our 
witnesses will help us learn about the range and types of 
products that are available.
    In that regard, I want to add that as an avid skier, Tom, I 
was pleased to learn the Colorado hosts a company [SnowVisual, 
Inc. of Vail] that specializes in the use of satellite imagery 
to support the snow sports industry. I consider that a true 
public service.
    Congress has continued to provide policy direction for 
civil and commercial remote sensing to ensure the continued 
availability of this important data. The Land Remote Sensing 
Policy Act of 1992 called for the continuity of civil land 
remote sensing data and established the guidelines to enable 
commercial operation of space remote sensing satellites.
    In addition, Section 313 of the NASA Authorization Act of 
2005 directed NASA to support the pilot projects ``to explore 
the integrated use of remote sensing and other geospatial 
information to address State, local, regional, and other tribal 
agency needs.'' As we work on reauthorizing NASA this year, I 
intend to explore whether Congressional legislation has been 
effective in addressing those objectives, and whether Congress 
needs to consider additional measures to enable the expanded 
use of remote sensing data and information.
    I hope that this hearing will help us also understand how 
we can continue to improve the delivery of these data to users 
so that it can be coordinated and shared among local, State, 
and federal institutions, especially in the event of a crisis. 
Finally, I look forward to hearing from our witnesses regarding 
what, if anything, needs to be done to sustain and grow a 
robust commercial remote sensing industry in the United States.
    Well, we've got a great deal to discuss today, and we have 
a very capable set of witnesses before us. Before we begin with 
today's witness, I would like to note that while today's 
hearing is focussed on uses of remote sensing data, Colorado is 
home to several outstanding companies that design, build and 
manage critical sensors to collect this information, including 
Lockheed Martin, Ball Aerospace, and ITT. Without their 
excellent sensor systems, our companies here today would not 
have much to work with. So I acknowledge their critical role in 
this area and am pleased that several representatives from 
these companies are here today and will be submitting testimony 
for the record.
    In closing, I again want to thank all of our witnesses for 
participating in today's hearing, and I look forward to your 
testimony.
    [The prepared statement of Chairman Udall follows:]

               Prepared Statement of Chairman Mark Udall

    Good morning. I want to welcome everyone to this morning's hearing.
    In particular, I'm pleased that my colleague and Ranking Member on 
the Space and Aeronautics Subcommittee, Rep. Tom Feeney, has been able 
to join me here in the great State of Colorado.
    I'd also like to mention that Rep. Doug Lamborn, who represents 
Colorado Springs in the U.S. House of Representatives, sends his 
regrets.
    He would have like to have joined us here today, but unfortunately 
he has a previous commitment that made that impossible.
    Before we begin, I would like to take the opportunity to recognize 
some of the local officials who are here and thank El Paso County 
officials for their help with today's hearing.
    I am looking forward to today's hearing, because it touches on an 
area that has great relevance for the lives of our citizens here in 
Colorado--as well as for the lives of folks all across America.
    It is also an area that hasn't gotten as much public attention as 
it deserves, especially relative to the impact it has had on the 
operations of our State and local governments--as well as on other 
public and private-sector activities in Colorado and elsewhere.
    I'm speaking, of course, of the way that remote sensing data 
collected from commercial and government spacecraft and aircraft have 
been used to provide societal benefits, help strengthen our national 
defense, and protect our homeland.
    And we are in an appropriate place to discuss these issues as 
Colorado is leading the way in remote sensing technology. Not only is 
our State the center of gravity for commercial remote sensing activity, 
but our State and local government officials are also on the cutting 
edge of using this technology to help Colorado citizens. But I don't 
want to give too much away from our witness's testimony today. . ..
    I would like to note that we've come a long way since some of the 
first aerial photographs were taken of Boston in 1860 from a tethered 
balloon . . . and even from the first civil remote sensing satellite, 
TIROS 1, which was launched a century later in 1960 to take images to 
be used in weather forecasts.
    Today, remote sensing data is becoming nearly ubiquitous through 
the use of advanced satellite, computing, and communications 
technologies. One need only call up web-based tools to access images of 
cities, neighborhoods, and unpopulated areas across the country at no 
cost.
    The U.S. Government and commercial firms operate numerous aircraft 
and satellites to collect and deliver the remote sensing data to users 
on the ground. Today we will hear more about how these data are being 
used to benefit our society, and what needs to be done to expand on the 
opportunities this information offers.
    We need not look far to see and feel the challenges--some known and 
some unknown--facing our municipalities and our nation. Rising energy 
costs, our scarce water supply, and urban sprawl are complex problems. 
We need to bring to bear the best available information to ensure that 
we take effective and well-informed actions in response.
    Moreover, our natural environment and resources demand our vigilant 
stewardship. We depend on water, forests, and fertile land among other 
resources to support our needs.
    Here in Colorado, we have a close relationship with the land around 
us and are even more aware of how vulnerable these resources are.
    Drought, the pine beetle infestation, and fire have wreaked havoc 
on our communities and our environment.
    I hope our witnesses can give us insight into how remote sensing 
data can be used to help us effectively manage our natural resources.
    Our government and private institutions also need to ensure that we 
are prepared in the event of emergencies and crises.
    The tragedy of September 11, 2001 brought into stark reality the 
need to assess our infrastructure and plan against risks. Remote 
sensing data was a vital asset in the response and recovery efforts at 
Ground Zero.
    I want to learn about how remote sensing data can help our State, 
local, and federal agencies ensure our security at home and abroad as 
well as respond to emergency situations.
    Our witnesses today will also discuss the role of the commercial 
remote sensing industry in collecting and delivering the data to meet 
the needs of both public and private sector customers.
    There is a science and art involved in turning the data collected 
by remote sensing instruments into sophisticated tools to support 
decision-making, and I hope our witnesses will help us learn about the 
range and types of products that are available.
    In that regard, I want to add that as an avid skier, I was pleased 
to learn that Colorado hosts a company [SnowVisual, Inc. of Vail] that 
specializes in the use of satellite imagery to support the snow sports 
industry. I consider that a true public service!
    Congress has continued to provide policy direction for civil and 
commercial remote sensing to ensure the continued availability of this 
important data.
    The Land Remote Sensing Policy Act of 1992 called for the 
continuity of civil land remote sensing data and established the 
guidelines to enable commercial operation of space remote sensing 
satellites.
    In addition, Section 313 of the NASA Authorization Act of 2005, 
which I helped enact, directed NASA to support pilot projects ``to 
explore the integrated use of . . . remote sensing and other geospatial 
information to address State, local, regional, and other tribal agency 
needs.''
    As we work on reauthorizing NASA this year, I intend to explore 
whether Congressional legislation has been effective in addressing 
those objectives, and whether Congress needs to consider additional 
measures to enable the expanded use of remote sensing data and 
information.
    I hope that this hearing will also help us understand how we can 
continue to improve the delivery of these data to users so that it can 
be coordinated and shared among local, State, and federal 
institutions--especially in the event of a crisis.
    Finally, I look forward to hearing from our witnesses regarding 
what, if anything, needs to be done to sustain and grow a robust 
commercial remote sensing industry in the United States.
    Well, we have a great deal to discuss today, and we have a very 
capable set of witnesses before us today.
    Before we begin with today's witnesses, I would like to note that 
while today's hearing is focused on uses of remote sensing data, 
Colorado is home to several outstanding companies that design, build, 
and manage critical sensors to collect this information, including 
Lockheed Martin, Ball Aerospace, and ITT.
    Without their excellent sensor systems, our companies here today 
would not have much to work with!
    So I acknowledge their critical role in this area and am pleased 
that several representatives from these companies are here today and 
will be submitting testimony for the record.
    In closing, I again want to thank all of our witnesses for 
participating in today's hearing and I look forward to your testimony.

    Chairman Udall. The Chair now recognizes Mr. Feeney for an 
opening statement.
    Mr. Feeney. Well, thank you, and I'm delighted, Mr. 
Chairman, to be in your home state. It's a great pleasure to be 
here. You did point out that I try to run every morning. The 
good news is this morning I ran from the Broadmoor uphill, 
because if I had started out downhill, I wouldn't have made it 
back and would be out there wandering around breathlessly. But 
I made it back, and I was inspired by the view and really 
enjoyed it.
    I want to also thank our witnesses for taking time out of 
their busy schedules to share their wisdom and concerns 
regarding the benefits, future roles, and challenges 
confronting this increasingly essential capability we're 
talking about today.
    It wasn't too long ago that remote sensing data was largely 
a product of cameras and other sensors carried on aircraft. But 
with the advent of the government- and commercial-owned remote 
sensing satellites and their growing capabilities, and with the 
ability to fuse databases, today's marketplace offers a dynamic 
and sophisticated array of products.
    Remote sensing data provide essential tools that help local 
and regional government planners develop a comprehensive and 
dynamic view of their communities and lands. They enable the 
capability to monitor and measure the impacts and threats to 
agricultural and urban activities, such as measuring soil 
moisture, water use, pest infestation, and land development. 
Equally important, at the local level remote sensing data has 
fast become critical to the delivery of emergency services.
    One thing Florida and Colorado share now and then is the 
threat from things like wildfires, and I look forward to 
hearing how the many states and regions that are impacted by 
that threat can be assisted by the technology. Nationally, 
remote sensing data provides critical information used to 
monitor and predict weather and climate change--again, Florida 
has our own share of climate change--land use changes at a 
macro scale, and monitor and protect our borders.
    This morning our witnesses will provide compelling 
testimony highlighting the utility of remote sensing data. In 
reading over the witnesses' testimony, I was particularly 
fascinated by the capabilities developed by emergency response 
personnel to devise plans and methods to deal with threats to 
our communities, as well as assuring rapid first-response 
services. As cities grow in size, timely delivery of these 
services becomes more complex, and being able to quickly target 
police, paramedic and fire services all the more critical.
    While today's hearing will be Colorado industry focused, I 
can tell you that in my Congressional District along Florida's 
Space Coast, we've experienced a dramatic rise in population 
over the last two decades. As a consequence of this growth, 
ensuring timely emergency response services, measuring land-use 
impacts, and preserving adequate fresh water sources are 
considerations that now control much of our future development 
considerations.
    With that, Mr. Chairman, I again want to thank you and your 
staff for your hospitality. I am excited to hear from our 
witnesses and look forward to a good hearing.
    Chairman Udall. Thank you, Mr. Feeney.
    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    Mr. Chairman, it's a genuine pleasure to be here in Colorado to 
conduct this hearing on the opportunities and challenges of using 
remote sensing data. I want to join with you in thanking our witnesses 
for taking time out of their busy schedules to share their wisdom and 
concerns regarding the benefits, future roles, and challenges 
confronting this increasingly essential capability.
    It wasn't too long ago that remote sensing data was largely a 
product of cameras and other sensors carried on aircraft. But with the 
advent of government- and commercial-owned remote sensing satellites 
and their growing capabilities, and with the ability to fuse databases, 
today's marketplace offers a dynamic and sophisticated array of 
products.
    Remote sensing data provide essential tools that help local and 
regional government planners develop a comprehensive and dynamic view 
of their communities and lands. They enable the capability to monitor 
and measure the impacts and threats to agricultural and urban 
activities, such as measuring soil moisture, water use, pest 
infestation, and land development.
    Equally important, at the local level remote sensing data has fast 
become critical to the delivery of emergency services.
    Nationally, remote sensing data provides critical information used 
to monitor and predict weather and climate change, land use changes at 
a macro scale, and monitor and protect our borders.
    This morning our witnesses will provide compelling testimony 
highlighting the utility of remote sensing data. In reading over the 
witnesses' testimony, I was particularly fascinated by the capabilities 
developed by emergency response personnel to devise plans and methods 
to deal threats to our communities, as well as assuring rapid first-
response services. As cities grow in size, timely delivery of these 
services becomes more complex, and being able to quickly target police, 
paramedic and fire services all the more critical.
    While today's hearing will be a bit Colorado-centric, I can tell 
you that in my congressional district along Florida's space coast, we 
have experienced a dramatic rise in population over the last two 
decades. As a consequence of this growth, ensuring timely emergency 
response services, measuring land-use impacts, and preserving adequate 
fresh water sources are considerations that now control much of our 
future development.
    With that, Mr. Chairman, I want to thank again our witnesses for 
their presence, and I look forward to their statements.

    Chairman Udall. And we'll do a little bit of housekeeping 
here. If there are Members of our subcommittee that are not 
here, Members who wish to submit additional opening statements, 
their statements will be added to the record. Without 
objection, so ordered.

                                Panel 1:

    Chairman Udall. Let me move to introduction here of the 
first panel of the witnesses, and I'd like to recognize each of 
you in turn, and we'll come back to Mr. Byers to begin 
testimony. We are joined by Mr. Jack Byers, who is the Deputy 
Director and the Deputy State Engineer for the Colorado 
Division of Water Resources. To his left is Dr. Simon Montagu, 
who is the Customer Resource and Support Director for the 
Denver Regional Council of Governments, also know as DRCOG, 
fondly so. Next to Dr. Montagu is the Fire Chief, Mr. Navarro. 
He's the Fire Chief of the City of Colorado Springs Fire 
Department. We just saw each other last week in Washington. And 
finally, next to Mr. Navarro, we have Mr. Frank Sapio who is 
the Director of the U.S. Department of Agriculture's Forest 
Service, Forest Development Technology Enterprise Team.
    Welcome to all of you. We have some great expertise in 
front of us. I think you all know, as witnesses, that your 
spoken testimony is limited to five minutes, and after which 
Members of the Subcommittee will have five minutes each to ask 
some questions and further draw out the expertise that's in 
front of us.
    So we'll start with Mr. Byers. Mr. Byers, the floor is 
yours.

  STATEMENT OF MR. JACK G. BYERS, DEPUTY DIRECTOR AND DEPUTY 
      STATE ENGINEER, COLORADO DIVISION OF WATER RESOURCES

    Mr. Byers. Thank you Chairman Udall, Congressman Feeney. I 
really appreciate the opportunity to be here. And as the first 
witness, I guess I'm a native of Colorado. Welcome to Colorado 
Mr. Feeney, and welcome back. We appreciate having you here.
    My name is Jack Byers, for the record. I'm the Deputy 
Director and Deputy State Engineer for the Colorado Division of 
Water Resources and I'm submitting this testimony on behalf of 
the State of Colorado.
    I want to point out that we are providing testimony that's 
relatively focused today. It does not mean that we aren't 
interested in other areas or that we don't support the other 
expertise and information being provided today. We have what we 
think is a significant need that we wanted to bring to the 
Subcommittee's attention.
    The other thing I'd like to mention is, although it was 
clear skies here today, to the north we had some snow. We 
appreciate that very much, and our snow pack is over 100 
percent, which for us is a big deal, and skiing is tremendous. 
So if you'd like to stay longer, we'd be happy to have you ski.
    Mr. Feeney. I just might have to take you up on that.
    Mr. Byers. That would be very good. As I mentioned today, 
we are providing testimony on a fairly focused area. The State 
of Colorado and many other western states have a critical need 
for high-resolution, thermal and infrared remote sensing. This 
is a particular remote sensing.
    Colorado and other water agencies are actively integrating 
thermal, infrared and remote sensing techniques as their 
management strategies to estimate actual crop 
evapotranspiration. That's with combined plant and surface 
evaporation, to classify land covered by vegetation types and 
quantify water consumption by irrigation, to support transfer 
of agricultural water to growing cities, and I should say that 
in a limited area. Here in Colorado, we do a great deal of work 
at trying to limit those impacts, and we do following programs 
and such, but we do know that there will be a transfer of water 
here in Colorado from irrigated agriculture to the growing 
cities. And this particular technology helped us a great deal 
in working with that.
    We use infrared remote sensing for estimating aquifer 
depletion, river and canal transport modules, water rights, 
compliance with water rights as well as water modeling, and 
most important, climate change initiatives and the scheduling 
of irrigation diversions.
    This satellite-based information is highly beneficial in 
terms of efficient water management. And I might add that much 
of this is interstate compact water management, Colorado River 
Basin water management. The Colorado River Basin, of course, is 
not just a Colorado issue that you'd have Wyoming, Utah, 
Arizona, and New Mexico, Nevada, and I believe there's a 
western state, California, that has a great interest in 
Colorado water, Colorado River Basin water.
    As you know, NASA launched the first Landsat satellite in 
1972. Landsat has the world's longest, continuous program to 
collect digital, multispectral data of the Earth from space. 
LANDSAT 4, launched in '82, was the first LANDSAT series to 
carry thermal imagery, and each successive LANDSAT has had the 
thermal infrared remote sensing capability.
    Currently, we have some difficulties. It's available only 
on Landsat 5 and Landsat 7. I won't bore you with the details, 
but I will say that if we aren't able to, with our next 
continuation of Landsat, carry this camera and this imaging, it 
could be extremely detrimental to westwide water management. I 
know that you're aware that the Western States Water Council 
has also taken the position that this is critical, and Colorado 
joins the other western states in again reminding the 
Subcommittee that this is very important to us in Colorado as 
well as the west.
    I want to point out a couple of key issues that we had here 
in Colorado, and that is that I mentioned our snow pack is very 
good this year. It hasn't been that good in the past. And when 
we have to manage ground and we look at the Colorado River 
Basin and the potential of climate change, climate adaptation. 
In this infrared technology, the imaging is extremely critical. 
So it is a real westwide issue. I might also say that it helps 
us with the evaluation of the impact of changing water and land 
uses on wetlands, fish and wildlife, and endangered species, 
another key area that Colorado would like to continue to work 
with.
    Being a native of Colorado and knowing that time is short, 
I'm not one to talk a whole lot. And in conclusion, I just want 
to say that Colorado strongly supports NASA's spending for the 
thermal sensor on Landsat. And we don't believe that the 
addition of a thermal sensor on Landsat will make a significant 
difference in the scheduling. I have over 30 years of federal 
service, both State and Federal Government, and with tribes, 
and I would be extremely surprised if NASA put this satellite 
up on time and on schedule. Therefore, I think that the 
addition of this unit would not significantly deter that 
mission.
    We're thankful for Chairman Udall, your support. We also 
have a great deal of support from the other Congressional 
delegation within Colorado. We thank them. Congressman Feeney, 
we'd like to count you toward that support as well to work 
toward the resolution of what we think is a critical problem. 
Again, short testimony, and I'd be happy to answer any 
questions.
    Chairman Udall. Thank you, Mr. Byers.
    [The prepared statement of Mr. Byers follows:]

                  Prepared Statement of Jack G. Byers

Hon. Mark Udall, Chairman and Members of the Subcommittee:

    My name is Jack Byers, Deputy Director and Deputy State Engineer 
for the Colorado Division of Water Resources. I am submitting this 
testimony on behalf of the State of Colorado.
    The State of Colorado and many other western states have a critical 
need for High Resolution Thermal Infrared Remote (TIR) Sensing. 
Colorado and many western water agencies are actively integrating 
Thermal Infrared Remote (TIR) remote sensing techniques into their 
management strategies to estimate actual crop evapotranspiration (ET), 
to classify land cover by vegetation (crop) type, to quantify water 
consumption by irrigation to support transfer of agricultural water to 
growing cities and other uses, for estimating aquifer depletion and 
river/canal transport losses, monitoring water-rights compliance, water 
modeling, climate change initiatives and for scheduling irrigation 
diversions and reservoir releases. For these applications, replacing 
on-the-ground reconnaissance with satellite-based information is highly 
beneficial in terms of efficient water management, efficient use of 
limited resources and improved decision-making.
    As you know NASA launched the first Landsat satellite in 1972, 
which makes Landsat the world's longest continuous program to collect 
digital multi-spectral data of the Earth from space. Landsat 4, 
launched in 1982, was the first of the Landsat series to carry a 
thermal imager, and each successive Landsat has had a thermal infrared 
remote (TIR) sensing capability.
    High resolution TIR (approximately 60 m to 120 m pixel resolution) 
is needed for the water resources management activities identified 
above. The quantification of water use from Landsat using thermal data 
is the only way to independently and consistently measure water use on 
a field-by-field basis over large land areas. Typical field sizes in 
the U.S. range from 10 to 160 acres, or about 180 meters to 750 meters 
on a side. These sizes require relatively high resolution images to 
produce information on an individual field. Other satellite platforms 
[MODIS, (Moderate Resolution Imaging Spectroradiometer), ASTER, 
(Advanced Spaceborne Thermal Emission and Reflection Radiometer), 
AVHRR, (Advanced Very High Resolution Radiometer), GOES, (Geostationary 
Operational Environmental Satellites), NPOESS National Polar-orbiting 
Operational Environmental Satellite System)] include TIR capability but 
at insufficient resolution to be useful at the field scale level, or 
with inadequate return times or communication down-link constraints.
    Irrigation is the largest user of fresh water in the western U.S., 
and Landsat thermal data is the basis of the best and least expensive 
way to quantify and locate where water is used and in what quantity. 
The 20+ year record of continuous high resolution TIR data on future 
Landsat satellite missions or other platforms is uncertain. Landsat 8 
scheduled to launch in 2011 does not contain a thermal imager. The 
Landsat Data Continuity Mission (LDCM) also doe not currently contain 
specification of a high resolution TIR.
    Irrigated agriculture accounts for 80-85 percent of the consumptive 
water use in the West. Increasingly Western States use TIR data to 
observe land-surface temperature and energy balance differences from 
evapotranspiration (ET) and calculate water consumption by agriculture 
and other vegetation. Without FY 2008 funding, a TIR sensor likely 
cannot be built in time to meet the 2011 launch timeline and this 
increasingly valuable data will be lost. Use of TIR data for water 
management has only recently exploded, following a drop in the cost of 
the data after a failed attempt at private commercialization. Landsat 5 
and Landsat 7 are the only U.S. sources of this data, but Landsat 5 is 
nearly 20 years beyond its design life and Landsat 7 equipment failures 
have left data gaps. Landsat 6 was destroyed when its launch failed. No 
other U.S. or foreign TIR remote sensing capabilities now, nor for the 
foreseeable future, can provide the workable features which now allow a 
growing number of data users to measure and monitor water use.
    Currently, higher resolution TIR is available only on Landsat 5 and 
Landsat 7. Landsat 7 data after 2003 are difficult to use operationally 
due to failure of the scan-line corrector. Landsat 5 launched in 1984 
is 24 years old and has had power problems. The satellite was 
temporarily taken out of service in October 2007 following a cell 
failure within one of the satellite's two operating on-board batteries. 
The USGS announced on Feb. 29, 2008 that Landsat 5 is once again 
collecting and down-linking land-image data.
    Demonstrated water resources planning and management applications 
include:

        <bullet>  quantifying and monitoring consumptive water use by 
        irrigated agriculture, urban and suburban landscapes, and 
        natural vegetation,

        <bullet>  estimation of transferable water due to land 
        fallowing,

        <bullet>  calibrating ground water models,

        <bullet>  monitoring aquifer depletion,

        <bullet>  computing water budgets for surface water models,

        <bullet>  compliance with limits on water consumption under 
        interstate compacts,

        <bullet>  monitoring the uniformity of irrigation water 
        application,

        <bullet>  crop area, type, pattern and yield estimation,

        <bullet>  monitoring the exercise of water rights, in order to 
        ensure their use according to State and federal laws, decrees, 
        compacts and negotiated agreements, rules and regulations.

    The availability of thermal data from satellites, especially 
Landsat, has enabled the development of energy balance models that 
compute and map actual crop evapotranspiration (ET). Evapotranspiration 
is a term used to describe the sum of evaporation and plant 
transpiration from the Earth's land surface to atmosphere. Evaporation 
accounts for the movement of water to the air from sources such as the 
soil, canopy interception, and water bodies. Transpiration accounts for 
the movement of water within a plant and the subsequent loss of water 
as vapor through stomata in its leaves. Evapotranspiration is an 
important part of the water cycle. This application is the first 
important use of Landsat thermal data, and it has the clear potential 
grow dramatically.

        <bullet>  ET mapping has been accomplished using the SEBAL 
        (Surface Energy Balance Algorithms for Land) and METRIC 
        (Mapping ET at high Resolution using Internalized Calibration) 
        models in Idaho, Utah, Wyoming, Montana, Washington, New 
        Mexico, Texas, Nevada and California. ET from individual fields 
        is estimated for purposes of water rights and irrigation water 
        management. The use of METRIC, SEBAL and other processes that 
        rely on Landsat's visible, near infrared, and thermal data, are 
        substantially more accurate than are simpler ET methods that 
        use vegetation indexes, which are a combination of the visible 
        and near infrared spectrum only. The advantage of using thermal 
        data in mapping water use is that land surface temperature can 
        identify fields that are short of water and thus have 
        suppressed ET. This information is important to quantify actual 
        water use by both irrigated agriculture and urban landscaping.

        <bullet>  In Colorado, Colorado State University has developed 
        and applied its own version of the surface energy balance model 
        using TIR data, RESET (Remote Sensing of ET), in the lower 
        South Platte and Arkansas River Basins. Satellite based crop ET 
        estimates will allow the direct estimation of actual crop ET 
        when crops are stressed by lack of water, salinity, or other 
        stress factors. The ability to continue the development and use 
        of models like RESET will be an important complement to the 
        detailed crop ET/lysimeter research being initiated in the 
        Arkansas Valley and supported by DWR.

    Data on cropped area/acreage and classification by crop type are 
periodically updated for use in hydrologic models used to determine 
compliance with interstate compacts, such as the H-I Model in the 
Arkansas River Basin. Three remotely sensed Landsat imagery bands are 
needed in this crop classification work: the visible, near-infrared and 
thermal. All three bands are used to identify unique crop signatures. 
The loss of the thermal band would seriously impact this work effort 
and require greater expenditure of resources in ground-truthing of the 
remotely sensed estimates. Additionally, the high resolution imagery 
allows crop and field identification at the scale of most fields in the 
Basin, with potential several pixels per field.
    Colorado joins the Western States Water council and other western 
states in strong support of increased funding for the National 
Aeronautics and Space Administration (NASA) Earth Systematic Missions 
Program and Landsat 8 thermal infrared (TIR) imaging technology needed 
to better manage water use. This data has been provided since 1982, 
from NASA Landsat satellites. The Administration has not requested NASA 
FY 2008 funding for a TIR sensor on Landsat 8, scheduled to be launched 
in 2011. The total estimated cost is $90-$100 million, with $35 million 
needed in FY 2008.
    At present, TIR data is used for defining field boundaries, crop-
type and water consumption in Colorado, California, Idaho, Kansas, 
Montana, Nebraska, Nevada, New Mexico, Texas, Utah, Washington and 
Wyoming, while other states are considering its future use. Related 
activities have been undertaken or proposed in the Arkansas, South 
Platte, Bear, Boise, Upper and Lower Colorado, Lemhi, Milk, North 
Platte, Upper and Middle Rio Grande, Russian, Salmon, San Juan, Snake, 
and Yakima River Basins. This important data gathering tool is now used 
or can be used in the future for or to:

        <bullet>  Calculate water use on a field-by-field and regional 
        scale and encourage water conservation;

        <bullet>  More accurate water supply and demand planning, 
        including multi-basin water balances and budgets;

        <bullet>  Measure consumptive use of surface and ground water 
        resources and impacts of diversions/pumping;

        <bullet>  Administer water rights and evaluated proposed uses, 
        changes in use and water right transfers;

        <bullet>  Ensure compliance with interstate compacts, 
        international treaties and other water use agreements;

        <bullet>  Plan, mitigate and respond to drought, wildfire and 
        other heat-related events;

        <bullet>  Monitor and assess the impact of climate change on 
        water, wetlands, vegetation, land uses, etc.;

        <bullet>  Evaluate the impact of changing water/land uses on 
        wetlands, fish, wildlife, and endangered species; and

        <bullet>  Many other natural resources, emergency management, 
        military, and other uses of national interest.

    The 2000 Census reported that one third of all Americans live in 
the West, and that the West accounted for half of the overall U.S. 
population growth over that decade. The arid U.S. West is experiencing 
explosive population growth. As Colorado and the West grows, water 
conservation is key, the increased demand for scarce water supplies has 
shifted water management strategy to developing innovative concepts for 
sustainable use, developing more effective methods to allocate limited 
water supplies. Water resources managers must understand water 
consumption patterns over large geographic areas; Landsat provides an 
important tool for effective, sustainable water management.
    Colorado is involved in the allocation and administration of water 
rights, Interstate compact compliance and planning for future water 
needs related to population growth. For example, in the Colorado River 
Basin, which supplies the myriad water needs of millions of people in 
seven western states, ongoing discussions over sharing water shortages 
and balancing future needs depend to a large extent on measuring and 
monitoring consumptive water use governed by international treaties, 
interstate compacts and State and federal laws. Landsat thermal imagery 
is a tool with the potential to help smooth the way towards a present 
and future water rights balance.
    There are many other examples of such uses or potential uses of 
Landsat TIR imagery in water management in the West. In California, 
Landsat data and ET-related information help farmers determine their 
actual irrigation needs. In New Mexico, Landsat data and ET maps are 
helping water managers strike a balance between irrigation demands and 
riparian vegetation, as well as the habitat needs of endangered 
species. In the State of Washington, water users have used ET 
estimates, again derived from Landsat thermal data, to encourage 
conservation of water resources and increase streamflows for fish while 
maintaining crop production and farm income. Colorado, Kansas and 
Nebraska are exploring the use of Landsat data and ET to better monitor 
and manage ground water uses in order to control over-drafting. Montana 
uses Landsat data for water quality monitoring. Wetlands delineation, 
habitat identification and soil moisture monitoring are other Landsat 
uses.
    In conclusion, Colorado strongly supports NASA spending for the 
thermal sensor on Landsat 8 and urges the Subcommittee to remedy this 
critical omission. We are thankful that Congressman Udall, Senators 
Allard and Salazar, as well as others in the Colorado delegation and 
west-wide continue to work toward resolution of this critical problem. 
I would be happy to answer any questions or provide any further 
information the Subcommittee might request.
    Thank you for the opportunity to submit this testimony.

                      Biography for Jack G. Byers

    Jack Byers is the Deputy Director and Deputy State Engineer for the 
Colorado Division of Water Resources. Responsible for the leadership 
and management of the Intrastate Water Supply, Development and Public 
Safety which includes the Engineering, Technology and Investigations 
Division, Water Supply and Well Permit Division and Budget management 
office. Jack oversees the safety of dams program, hydrographic and 
Stream measurement program, well construction programs and the 
enforcement and compliance with applicable decrees, statutes, rules and 
regulations. He serves on the National Dam Safety Review Board, Dept. 
of Homeland Security--Government Coordinating Council on Dam Security, 
Co-Chair of the Governor's Water Availability Task Force, and serves on 
the Governor's flood hazard mitigation task force, Colorado homeland 
security task force, and provides technical support to the Colorado 
Commission on Indian Affairs. Jack also is the co-author of the 
Colorado Water Law Benchbook. Jack is a Colorado native, with a BS in 
Civil Engineering and a MS in Water Resources, Geotechnical and 
Structural Engineering from Kansas State University. A Licensed 
Professional Engineer in Colorado and Montana. Prior to the State of 
Colorado he was the Director for Indian Affairs and Wyoming Office 
State Manager for MSE Inc. He also worked 18 years with the U.S. Bureau 
of Reclamation in a variety of management and leadership positions in 
Denver, CO; Bismarck, ND and Billings, MT.

    Chairman Udall. Dr. Montagu.

STATEMENT OF DR. A. SIMON MONTAGU, DIRECTOR, CUSTOMER RESOURCE 
      AND SUPPORT, DENVER REGIONAL COUNCIL OF GOVERNMENTS

    Dr. Montagu. Thank you, Mr. Chairman, and welcome home.
    Congressman Feeney, welcome to the great State of Colorado. 
I have no doubt that our Chairman has filled you in on the 
beauty of the wonderments of this great state, and I hope you 
get to enjoy your stay here. And I will attest that everything 
he says is true. This is a fabulous state, and I'm very proud 
to be part of the community here, the geospatial community, and 
present this testimony.
    I am Simon Montagu, the Director of Customer Resource and 
Support Division of the Denver Regional Council of Governments, 
affectionately known as DRCOG. We are the federally designated 
metropolitan planning organization for the nine-county metro 
Denver region. We have 55 other governments ranging in size 
from communities such as Byers and Deer Trail on the eastern 
plains, all the way out to small mountain communities and the 
great cross section of communities that we find in a metro area 
like Denver.
    Our specific focus is on various things like mobility 
services for the elderly community, the growing elderly 
community in Colorado. Water quality, long-range planning, and 
a whole bunch of other things that are best dealt with at a 
forum that addresses these intrajurisdictional issues at a 
common place.
    We are obviously a great consumer of geospatial 
information, and much of that information derives from remote 
sensing technology. And so, therefore, we greatly appreciate 
the opportunity to present before this hearing, and give some 
sense of how we deploy these resources in our daily work flow, 
not only at DRCOG, but of course our 55-member governments that 
are part of the DRCOG membership.
    In my written testimony, I've gone into some great detail 
about some of the specific examples. And really what I want to 
do today is just draw out one key point.
    Our ability to do so is largely because of many decades of 
federal investment in the remote sensing industry, and both the 
indirect and direct follow-on benefits are federal involvement. 
So really what I'm asking for is a continuation of that federal 
investment in this program.
    Some of the specific things that I did want to mention is, 
you know, first of all, LANDSAT and NOAA and the various other 
federal programs of the acquisition side are vital. LANDSAT 
data is being used at this moment in many of our mountain 
communities in DRCOG for wildfire management at the strategic 
planning site. I noticed photos of the Hayman fire which had a 
devastating effect on at least one of our counties, Douglas 
County, in terms of the water quality issues that came with 
that. So having imagery available is important to us.
    NASA and its continuing involvement in areas like LIDAR is 
very important to us. LIDAR is growing in importance across the 
metro area in terms of its application. I mentioned in my 
testimony the fact that we are in the process of collecting 
LIDAR at this very moment for the downtown metro area in 
preparation for the Democratic National Convention coming up in 
August. That imagery, that data will be used by the National 
Geospatial Intelligence Agency for their strategic and tactical 
planning in regard to the safety of all of those participants 
that will be at the convention.
    We will also get access to that data going forward from 
that, and we should be able to use all of that to help public 
planning. We're very excited to be able to partner with the 
USGS and NGA to collect that data.
    I think the third thing I want to mention is the leadership 
that many federal agencies have shown in terms of the 
distribution model of moving this data around. We're now 
reaching a stage of maturation for this industry. We have 
significant volume of data, and being able to get that data in 
the hands of the people that need it is critically important.
    The USGS, the U.S. Department of Agriculture, and other 
federal agencies have taken a leadership role in terms of 
pushing this stuff out over the Internet and making it more 
readily available. Organizations like mine and the members that 
we represent need this data, but they can't necessarily store 
the vast amounts of data that are being produced. And so being 
able to access that and call on it when we need it is vitally 
important to us.
    And so looking forward, then, what I'd like to ask is that 
the Committee generally think about the continuation of support 
for these federal programs that are not only doing the 
acquisition work, but also the distribution side of it. 
Specific programs to mention are the national map that the USGS 
is working on, and the National Agriculture Imagery Program, 
NAIP, which the USDA is working on. The NAIP Program allowed us 
to get full coverage of the State of Colorado, very recently, 
which is the first time that we've got that.
    So just in closing, I'd like to ask specifically for 
support in terms of making data more readily accessible to 
everyone. And part of that is a policy solution in the sense of 
saying we want this data in the hands of folks that can use it. 
Part of it is also supporting those distribution mechanisms 
that I've talked about. The other one is to allow us a pathway 
to the Federal Government purchasing power to buy some of this 
imagery through federal programs and make it available. The 
Federal Government obviously has interest in the commercial 
side. We can't afford it, and we'd like to tap into the federal 
resources there.
    Thank you.
    Chairman Udall. Thank you, Dr. Montagu.
    [The prepared statement of Dr. Montagu follows:]

                 Prepared Statement of A. Simon Montagu

    The Denver Regional Council of Governments (DRCOG) is a member-
driven Council of Governments comprised of 55 county and municipal 
governments from across the greater Denver (Colorado) area. In its 
sixth decade of service, DRCOG is proud of its collaborative approach 
to protecting and enhancing the quality-of-life that make our region 
such an attractive place to live, work and play. Specific focus areas 
include mobility, service to older adults, environmental quality, 
planning for the future, public safety, and the provision of high-
quality information for sound decision-making.
    DRCOG has statutory responsibilities under both State and federal 
law to plan for the region's future, particularly its transportation 
infrastructure and overall growth and development. The signature 
product of this process, Metro Vision, embodies the collective vision 
of our member governments for the region and provides policies to guide 
where, when, and how much growth will occur across the region.
    DRCOG's stewardship of this regional planning process has garnered 
many national awards and attracted international attention. We are 
rightly recognized as a world leader in collaborative, ``bottom-up'' 
regional planning.
    A hallmark of our regional planning process is the timely, accurate 
and objective data that informs all of the visionary policies embedded 
in Metro Vision. Geospatial data--information about the physical, 
social and economic make up of our region--is vital to this process.
    DRCOG is a major producer and consumer of geospatial data, large 
volumes of which derive from remote sensing (RS) technologies. DRCOG is 
therefore appreciative of the Committee's interest in the role of 
remote sensing data in regional planning, and grateful for the 
opportunity to present our views on both the opportunities and 
impediments to making the information derived from RS technologies more 
broadly available.

REMOTE SENSING DATA USE IN DENVER METRO REGION

    Federal investment in research and development has and continues to 
be a significant driver in the growth and expansion of the Nation's 
geospatial information industry. DRCOG and its member governments 
leverage this investment in significant ways on a daily basis. We 
manage our urban environment, monitor the quality of our natural 
resources, plan for the future, and make informed choices about where 
to invest our scarce resources all with the help of data derived from 
remote sensing technologies.
    Across the Denver metro area and the State of Colorado as a whole, 
local, regional and State agencies have come to rely on data derived 
from three general types of remote-sensing technologies:

        <bullet>  Aircraft-based aerial photography

        <bullet>  Multi-spectral data

        <bullet>  LIDAR and related technologies

AERIAL PHOTOGRAPHY
    DRCOG and our member communities have relied on film-based aerial 
photography for many decades. High-quality orthophotography provides 
local communities with spatially accurate, distortion free base data 
layers critical to all of their planning, public safety and 
governmental management functions.
    Since 2002, DRCOG has led a successful consortium of public and 
private participants to jointly acquire high-quality digital aerial 
photography for the DRCOG region, exploiting the collective buying 
power of 30 individual organizations. We repeated the effort in 2004 
and 2006. and planes are currently in the air collecting 2008 imagery. 
This year, the project expanded well beyond the territorial limits of 
the DRCOG member region, allowing our neighbors in Weld and Grand 
Counties to also benefit from this joint purchasing power.
    The benefits to our member governments and all the other public and 
private sector participants are very tangible. High-quality, high-
resolution digital orthophotography of the type we're collecting 
typically cost $100-$150 per square mile. By contrast, the average cost 
for participants in the 2006 project was a mere $11 per square mile. 
The average cost for DRCOG members was less than $1 per square mile.
    Colorado has a great tradition of this type of grass-roots, 
collaborative, goal-focused effort. DRCOG's public-private consortium 
model is mirrored in the Colorado Springs area, the emerging nine-
county (15,200-square-mile) Sangre de Cristo Regional GIS Cooperative, 
and in the communities on the Western Slope.
    Recently, the State of Colorado acquired statewide aerial 
photography under the auspices of the U.S. Department of Agriculture's 
National Agriculture Imagery Program (NAIP). This program allows State 
and local entities to leverage regular aerial photography acquisition 
efforts by the USDA to obtain statewide photography for a fraction of 
the total cost. Colorado was able to take advantage of this effort in 
2005 resulting in the first complete coverage of the entire state all 
acquired at one time. The State would never have been able to afford 
this photography if not for the NAIP program. The data is now used 
widely by numerous federal, State and local entities, as well as the 
private sector and universities.

MULTI-SPECTRAL IMAGERY
    The broad availability of space-based multi-spectral sensors (MSS) 
in the 1970s and 1980s extended and enhanced the functionality of 
traditional aerial photography, providing local, regional and State-
level planners with a cost-effective way to analyze and map critical 
environmental processes across large geographic areas. Multi-spectral 
imagery offers a number of data products from across the electro-
magnetic spectrum providing information that is imperceptible to the 
naked eye.
    Many communities across the DRCOG region now utilize Color-Infrared 
(CIR) imagery, for example, to map impervious surfaces and monitor 
surface runoff and downstream water quality. CIR data also plays a key 
role in both the tactical and strategic aspects of wildfire management 
across the region. Douglas County, for example, recently acquired 
LANDSAT 5 data for mapping vegetation and modeling fuel loads in the 
Pike National Forest and other heavily vegetated parts of the county. 
Other cities and counties across the region have similar mapping 
programs.
    Broader applications of MSS-derived data include mapping the 
massive Pine Beetle infestation in our mountain counties.

LIDAR AND RELATED TECHNOLOGIES
    Light Detection and Ranging (LIDAR) and other related ranging 
technologies (Interferometric Synthetic Aperture Radar--IFSAR--for 
example) are becoming increasingly important to communities up and down 
the Front Range as acquisition costs decrease and data from these 
sensors become more widely available.
    LIDAR provides an extremely cost-effective method for collecting 
detailed and highly accurate terrain information. This data then feeds 
into a range of sophisticated modeling processes that allow communities 
to more accurately map not only ground features within their 
communities, but also key anthropogenic structures such as buildings, 
bridges, dams, etc.
    This information provides the foundation for the construction of 
three-dimensional models of cities that are now widely used in land use 
and transportation planning, emergency response tactical plans, and as 
aids in community involvement and visioning efforts.
    Specific examples of LIDAR use in the Denver region include 
security planning around the upcoming Democratic National Convention. 
Working with several of DRCOG's member governments, the U.S. Geological 
Survey is currently acquiring LIDAR data on behalf of the National 
Geospatial-Intelligence Agency (NGA). The NGA will use LIDAR to 
identify line-of-sight and other tactical vantage points to plan their 
surveillance and response strategies to ensure the safety of all those 
attending the convention.
    Several of DRCOG's larger member governments have acquired LIDAR in 
support of their planning and public works programs. The City and 
County of Broomfield, for example, is using LIDAR data in planning the 
development of a new reservoir. They also rely on the data for initial 
assessment of new roads and trail systems and for understanding the 
runoff and drainage implications of planned developments. LIDAR is also 
playing an important role in the modernization of flood insurance 
mapping across the state.

CHALLENGES AND IMPEDIMENTS
    Although the use of data from remote-sensing technologies continues 
to grow across the DRCOG region, there are a number of structural and 
logistical impediments that both undermine our ability to use the 
existing data products, and limit our ability to integrate other RS 
data into current planning efforts.
    Cost remains a significant challenge. The price tag for the 2008 
DRCOG aerial photography project is over $1 million, in a climate of 
little to no revenue growth among the participating jurisdictions. This 
price reflects the combined purchasing power of 30 public and private 
sector partners working to acquire this data collaboratively. Market 
rates for digital orthophotography continue to increase despite the 
emergence of new capture and processing technologies (direct digital 
capture; automation, off-shore processing, etc.). Pricing of commercial 
satellite-based imagery remains similarly high, relative to the data 
budgets of most cities and counties.
    High costs mean local, regional and State entities can acquire this 
data less frequently than they require. Our imagery program struggles 
to keep pace with the rapid growth of the nine-county region, but can 
only afford to acquire new data every two years. DRCOG estimates that 
our region adds on average about 100,000 new people, 65,000 new jobs 
and nearly 30 square miles of new development in any given two-year 
cycle. Understanding and managing this growth with out-of-date imagery 
is a significant problem for both the staffs and elected officials of 
DRCOG's member governments.
    ``Solving'' this impediment is unrealistic expectation. The 
experience from Colorado is that communities working together, 
collaboratively, can bring their collective buying power to the 
commercial marketplace and reap significant savings over the cost of 
going it alone. This ground-up approach remains the most realistic 
solution to cost containment at this time, at least in the Colorado 
context. The only request that I would put to the Committee is to 
continue to fund the various federal programs--most notably the 
National Map program led by the USGS and the National Agriculture 
Imagery Program led by the USDA--that allow federal agencies to 
collaborate with local partners to secure geospatial data all across 
the country.
    A second impediment is the challenge associated with the sheer 
volume of remotely-sensed data that is now available. The estimated 
volume of data from DRCOG's 2008 aerial photography acquisition, for 
example, is over 10 terabytes. Few of our member governments have the 
internal capacity to store and maintain all of this data. The problem 
compounds with each new project, as part of the value of remote-sensed 
data lies in the ability to review multiple years of data at the same 
time (comparing changes over time).
    Another dimension of this problem is the effort associated with 
distributing data. While Internet bandwidth continues to improve, 
online distribution of the large data sets associated with most remote 
sensing technologies remains impractical.
    Fortunately, new models of data distribution are starting to emerge 
that facilitate the distributed storage and distribution of large 
geospatial data sets. Data throughput under these models is greatly 
reduced, pushing only the needed geographic window down to the end-
user, rather than distributing the entire geographic data file.
    Examples of this model exist in both the public and private sector. 
Several Colorado firms have established a national presence in this 
realm--DigitalGlobe, Inc. in Longmont, CO, Intrasearch Inc. in 
Englewood, CO, and Sanborn Map Company here in Colorado Springs. On the 
public sector side, federal agencies are playing a lead role. The USDA 
maintains its ``Data Gateway,'' the USGS has a long history using the 
Internet for data distribution, and the ``e-government'' initiatives 
sponsored by the Federal Office of Management and Budget (OMB) lead to 
the establishment of the ``Geospatial One-stop'' portal.
    Federal investment in research and development provided the initial 
impetus for the evolution of the Internet and federal agencies continue 
to lead by example in their innovative use of this infrastructure to 
distribute the tremendous wealth of geospatial information we now 
possess. I urge Members of the Committee to recognize the important 
leadership role of the Federal Government in this realm and continue to 
support those federal programs that are augmenting the data 
distribution services of the private sector.
    My final comment in the area of impediments is of a technical 
nature. Like all technologies, remote sensing data applies better to 
some applications than others. Traditional multi-spectral technologies 
have tended to provide very broad-acre imagery that works well at a 
strategic planning level, but typically falls short when used for more 
tactical, response-type planning. This is particularly true in the area 
of wildfire management. Whereas the existing satellite imagery in the 
public domain provides useful input into fuel load modeling for 
understanding the threat of wildfires across our region, the resolution 
of the available imagery renders it unusable in emergency response 
situations. Commercially available data provides better resolution, but 
at a price that is often beyond the means of the typical fire 
protection districts that serve DRCOG's mountain communities.

OTHER DESIRED PRODUCTS AND SERVICES

    On behalf of my peers across the DRCOG region and the State of 
Colorado, I wish to acknowledge the continued leadership of the Federal 
Government in the acquisition and dissemination of remote sensing data. 
I hope that the Committee now sees how local and regional governments 
leverage this federal investment every day in providing better, more 
efficient government to all our citizens.
    DRCOG and its members have shown that local governments can realize 
significant cost-savings when communities band together to jointly 
acquire remote sensing data. This type of collaborative endeavor is not 
limited to the local or regional scale. With that in mind, I would like 
to suggest two other areas where greater federal engagement would 
significantly enhance the accessibility of remote sensing data to all 
levels of government.
    First, recognizing the vast data libraries and the ongoing 
acquisition activities of the Federal Government, local and regional 
governments across the country have much to gain from greater access to 
these federal resources. Part of the solution is a policy decision to 
make the data more broadly available. The other part is continued 
support for the innovative data distribution strategies that we are 
seeing from key federal agencies like the USGS and USDA.
    Second, following the collaborative models that we see across the 
State of Colorado, I would urge the Federal Government to allow local 
and regional governments to leverage the tremendous purchasing power of 
the Federal Government in the commercial remote sensing data 
marketplace. This industry continues to grow and is a vital part of our 
economy, particularly so in the Denver region. However, many of the 
vital data products sold in the commercial marketplace are simply out 
of reach of the small public-sector entities that would benefit most 
from these products. Allowing these entities to work through federal 
agencies (and their purchasing programs) to acquire commercial imagery 
would realize significant benefits at the local level.

                     Biography for A. Simon Montagu

    Dr. Montagu is the Director of the Customer Resource and Support 
Division with the Denver Regional Council of Governments. This division 
is one of five core divisions within DRCOG and is responsible for the 
production and dissemination of the geospatial, socioeconomic and 
travel modeling information produced by DRCOG. The division also 
oversees the production of the ``Growth and Development'' part of Metro 
Vision, the long-range strategic plan for the Denver metropolitan area.
    In his seven years with DRCOG, Dr. Montagu has served as Geographic 
Information Systems Coordinator and Regional Information and Research 
Manager. Prior to DRCOG, Simon was an Assistant Professor in the 
Department of Geography at Miami University in Oxford, OH, where he 
taught classes in GIS and Urban and Regional Planning.
    Dr. Montagu holds a Ph.D. in Regional Planning from the University 
of Illinois at Urbana-Champaign and undergraduate degrees in 
environmental science and natural resource management from Griffith 
University in Australia. He has over 20 years experience in the 
geospatial information technologies realm and has worked in a number of 
capacities across the United States, Australia, and the South Pacific.

    Chairman Udall. Mr. Navarro.

 STATEMENT OF MR. MANUEL NAVARRO, FIRE CHIEF, CITY OF COLORADO 
                    SPRINGS FIRE DEPARTMENT

    Mr. Navarro. Thank you. My name is Manuel Navarro; I am the 
Fire Chief of the Colorado Springs Fire Department in Colorado 
Springs, Colorado. I think it's important to note that we have 
submitted a brief and we have many details in that and I'll 
just sum those for you.
    I think it's important to note that I'm a practitioner. 
I've been in the field for 41 years. I know you're saying, how 
old is this guy? The reality is that I'd like to talk to you a 
bit about both mitigation and response from a fire chief's 
standpoint and how we can leverage some of the technology in 
our organization to help us with those issues.
    On the mitigation side of it, I call your attention to some 
of the things that have happened in California. And by the way, 
I spent 28 years in the fire service in California. It wasn't 
open in 1991 when a fire devastated several residential 
properties and killed 25 individuals. The map we used that day 
was hand drawn, and that was in 1991. As a matter of fact, that 
map--I drew some of the maps in that. That's how bad the 
technology was on the fire service side of it. We've been able 
to use that technology here, at least that geospatial 
technology to get some good maps now.
    Because one of the concerns we have, obviously, is seven 
days a week, 24 hours a day, when a call for service comes in, 
we need to find that location, and specifically that address, 
and we're leveraging that now with other GIS data to be able to 
weigh the situation so that we have situational awareness when 
we get on the site.
    Oftentimes, we're sent to facilities or occupancies where 
we have no idea what's in that unless we've experienced 
inspection beforehand. And given the size of our community, we 
simply can't do that. So that base layer and all the technology 
that follows that is extremely, extremely important on the 
response side.
    I think you've got a picture of the Hayman fire. I'm not 
sure exactly when that was taken. Some of my planning staff was 
able to facilitate some of the planning efforts there. But I 
will tell you, on the ground, in a wildland fire, most fire 
officers really have to lay a map out in front of them and 
guess at what's happening. They don't have realtime analysis. 
We simply weren't able to leverage that with programs like 
Global Hawk and Predator. And I can tell you how exciting it is 
from the response side of that to be able to have situational 
awareness and realtime information relative to what's going on 
with the fire.
    This is real personal stuff for us. A few years ago there 
was a fatality in a San Diego fire. My nephew, who is a 
firefighter in California, was at the end of that cul-de-sac 
and was told to back out and stop, back out. And when he came 
back out, he saw the fatality there because the fire had turned 
on him and moved. When you're in that position, it's so hard to 
tell.
    On the mitigation side of that, we've done some very 
interesting things. We're able to use risk analysis and portray 
that on our web site. And our folks here in Colorado Springs 
are able to go to that web site, take a look at that, and be 
partners with us.
    Chairman Udall. Mr. Navarro, can you pull the mic a little 
bit closer? Some of the audience--no, you wouldn't know. Some 
of the audience--all the witnesses need to have it a little 
closer so the audience can hear.
    Mr. Navarro. We'll try this. Is that better?
    On the mitigation side of it, we've been able to leverage 
that technology to be able to get partners in our community. 
And most recently, the greatest example of that is FEMA has 
awarded us with a million dollar grant here in Colorado 
Springs. The match for that has been neighborhood associations 
and local government to be able to clean up some of the fuel. 
What we hope to prove is that on the front end of these 
disastrous fires, we can have more info.
    Just in concluding, I must tell you that local government 
is really strapped to be able to leverage technology. When I 
talk to my staff, they simply say we don't have enough staff. 
We don't have enough resources, and the projects that we have 
in front of us, just to meet the mission locally, is 
overwhelming us. We were able to leverage an AVL system simply 
because we got really lucky. Public works got a grant from the 
Federal Government to be able to do that, and that helped us 
move that AVL system on our fire trucks. Otherwise we wouldn't 
have had that at all.
    In conclusion, thank you very much. Thank you for your 
interest. And the fire service is more than willing and able to 
be able to sit down with you and talk about some of the 
specifics relative to this type of technology.
    Chairman Udall. Thank you, Mr. Navarro.
    [The prepared statement of Mr. Navarro follows:]
                  Prepared Statement of Manuel Navarro

Introduction

    Thank you for the opportunity to appear before the Committee on 
Science and Technology and discuss with you some of the experiences 
that the City of Colorado Springs and the Colorado Springs Fire 
Department have encountered in applying remote sensing and geospatial 
information systems to improve our emergency response and preparedness.
    My name is Manuel Navarro; I am the Fire Chief of the Colorado 
Springs Fire Department. As a 41-year veteran of the fire service, I am 
honored to present to you today. Across my career and as the Chief of 
the Colorado Springs Fire Department, I have had the privilege to lead 
firefighters and emergency response personnel in dangerous and life 
threatening situations with a constant focus on our responsibility to 
protect lives and property from fire, medical, and disaster events. 
Finding new ways to plan for, prepare, and respond to emergency 
situations is something that I have charged my department with from the 
day I arrived in Colorado Springs. I think we have made some impressive 
advances in improving citizen preparedness, community resiliency, 
emergency response planning and operational situational awareness that 
I would like to share with the Committee. At the same time, we have 
encountered some hurdles and lessons along the way that I would also 
like to share.
    In my presentation to the Committee, I will discuss the importance 
of gaining and maintaining situational awareness of the environment 
necessary for effective and safe firefighting. In the City of Colorado 
Springs, we have realized that remote sensing technology and geospatial 
information are key tools in improving our ability to shape the 
environment that we operate in. We now rely on these tools to help us 
prepare and plan for potential hazard and risk events, communicate with 
our citizens and adjacent emergency response agencies, and make the 
right decisions while deploying in initial attack or during sustained 
operations during a large scale wildland fire.
    Before I offer testimony regarding the aforementioned issues, I 
think it is important that we establish a common understanding of the 
complexities involved with managing fire service response to 
emergencies, 24 hours each day, seven days each week. As we deliver 
emergency services, there can be no excuses regarding our response--
lives and property are at stake; it must be timely, we must get to the 
proper address or location and we must be proficient in rendering the 
services we provide. With that said, we have grown to understand the 
value that planning has for our organization. We must respond, we will 
respond, we will make tough decisions--but there is no need for us to 
have to make those kinds of decisions without the benefit of a very 
strong planning process. One bit of institutional humor for us is that 
the fire service represents 150 years unimpeded by progress. Well, 
fortunately, we have undergone a sea-change in our thinking where we 
have come to understand that planning and mitigation work literally 
``shapes the battlefield'' in which we operate tactically. For Colorado 
Springs, the operational response mission must be accomplished, in our 
case, from a network of twenty fire station locations housing fire 
companies that are staffed by three different working shifts. But it 
doesn't require that we make our hard decisions without the benefit of 
thorough analysis and thoughtful response. Management of the training, 
logistics and standard operating procedures of fire companies to 
support this mission is challenging for any fire chief.

Emergency Response

    When we receive a 911 call for emergency services, the appropriate 
emergency unit must be notified and that crew must correctly navigate 
heavy apparatus through heavy traffic conditions and difficult weather 
conditions at any time, day or night, to the address or location. 
Accurate maps, occupancy of buildings and location of response vehicles 
is essential in completing our mission and to ensure the safety of the 
responding firefighters.
    The Colorado Springs Fire Department has employed geospatial 
technology for 25 years to create the most accurate map for the city 
and adjacent areas. As our city has experienced significant growth and 
development over the last several decades, the ability to accurately 
map new and changing streets have proven to be critical in dispatching 
emergency apparatus rapidly, effectively, and efficiently. Using the 
accurate base maps, we employ additional GIS technologies to layer 
critical information that can be utilized to provide additional 
information associated with that location or address to responding fire 
companies.
    I cannot adequately express to this committee how important it is 
to provide responding fire officers with critical information regarding 
a specific building or hazard. The information allows fire officers to 
efficiently make critical decisions on the way to and at the scene of 
an emergency. Those decisions based on accurate information, coupled 
with the education and experience of the fire officer, lead to safely 
controlling emergencies while at the same time limiting property 
damage, saving lives and providing for the safety of responding 
emergency personnel.
    Lacking local resources to develop this additional functionality 
was a challenge for us here in Colorado Springs. The city's Public 
Works Department recently received a federal transportation grant to 
develop Automatic Vehicle Location System (AVL) technology. The fire 
department had an opportunity to collaborate with our own City Traffic 
and Public Works Divisions in the development of the AVL system that 
provides the following functionality:

        <bullet>  Locates every emergency that is identified by the 
        Emergency Dispatch Center and transmits it to the traffic 
        signal system computer.

        <bullet>  Provides every dispatched emergency unit with a map 
        display showing a route to the location.

        <bullet>  Preemption that signals the traffic lights along that 
        route to turn green as the emergency unit approaches the 
        intersection.

        <bullet>  An on-board touch-screen computer developed by the 
        department's I.T. staff, mounted in each emergency vehicle to 
        archive and display additional layers of information.

        <bullet>  Situational awareness delivered through the on-board 
        computer which displays available data for the scene.

        <bullet>  Wireless, hands-free data updates (each fire station 
        has been linked so that data can be updated to the on-board 
        computer).

    The base map originally developed with geospatial technology has 
been leveraged to work with the AVL system. It now provides routing 
capability for emergency vehicles to the location of an emergency and 
provides safe emergency response by controlling intersections. The base 
map is also used to identify individual addresses which in turn is used 
to access the base for layers of GIS information essential to safe and 
effective emergency operations. In the near future, fire companies will 
be able to develop pre-plans for individual occupancies that will be 
added as additional layers of information available in the apparatus to 
responding fire officers.
    We are in the final process of reconciling our map centerline data 
in our computer aided dispatch (CAD) system to provide automatic 
vehicle location dispatch and move away form the current CAD tabular 
dispatch system. Once we have moved to that technology we will be able 
to improve response times without adding additional responding units to 
the department by always dispatching the nearest appropriate emergency 
unit.

Wildfire Risk

    The department has also employed remote sensing in the form of 
hyperspectral imagery to study the city's wildland-urban interface 
areas and watersheds. This remote sensing technology provides us with 
detailed mapping of fuels, construction features, vegetation types, 
densities and locations that previously could only be categorized and 
mapped by laboriously walking and inspecting each area. Hyperspectral 
remote sensing data is one of the most promising data collection 
sources for planning and mitigation efforts related to wildland fire, 
community risk, and environmental hazards. As a remote sensing data 
source, hyperspectal information allows communities to collect high 
quality data and extract multiple information elements from a single 
flight. We have collected and analyzed hyperspectral data to detect and 
map specific features such as the type and status of wildland fire 
fuels, the densities and location of high risk vegetation species, and 
the conditions and physical traits of at-risk structures and access 
roads. All of these traits are of special concern during active fire 
fighting operations and typically are unavailable prior to incident 
operations. Highly accurate and data rich remote sensing sources like 
hyperspectral systems provide decision-makers with true situational 
understanding and awareness of the terrain, access, fuel and vegetation 
layers and building arrangements and locations. Within the Colorado 
Springs Fire Department, this data is used across almost all of the 
department's operations ranging from mitigation to response.
    CSFD staff is currently developing a wildland urban interface (WUI) 
plan for the drainage areas and neighborhoods in the city's wildland 
urban interface. We will integrate the layer of fuels data provided by 
the hyperspectral imagery with current information on fire behavior to 
provide responding command officers with planning and operational 
situational awareness. We are also developing a map layer with specific 
information to assist command officers in positioning staged apparatus, 
evacuation zones and safe refugee areas, as well as displaying other 
potential fire control and resident safety issues.

Community Education

    The department's Community Services staff has also employed this 
technology to inform and motivate community members to ``FireWise'' \1\ 
their property. We have created an interactive web site that maps each 
individual property and their risk rating with regard to wildfire risk. 
Individual property owners can then access the information utilized to 
develop the risk rating of that property and, more importantly, how 
that rating can be improved by employing FireWise risk-reduction 
treatments to the property.
---------------------------------------------------------------------------
    \1\ ``The national Firewise Communities program is a multi-agency 
effort designed to reach beyond the fire service by involving 
homeowners, community leaders, planners, developers, and others in the 
effort to protect people, property, and natural resources from the risk 
of wildland fire--before a fire starts. The Firewise Communities 
approach emphasizes community responsibility for planning in the design 
of a safe community as well as effective emergency response, and 
individual responsibility for safe home construction and design, 
landscaping, and maintenance.'' (www.firewise.org)
---------------------------------------------------------------------------
    We have employed technology to leverage the efforts of staff in 
educating the thousands of households in the Colorado Springs wildland-
urban interface areas. Here in Colorado Springs we have approximately 
40,000 residential properties in these interface areas. Effective use 
of technology has greatly enhanced our efforts in community education 
with regards to wildfire mitigation. I think this is an important 
distinction to make. We have transitioned the use of remotely sensed 
information from purely reactive and tactical to a forward thinking, 
mitigation and planning effort. I think it is understood by this group 
that remote sensing technologies are tried and true in the operations 
arena--particularly the larger the incident is. However, we have come 
to see much more value that these rich data sets can provide to us long 
before the incident begins. Our focus has increasingly transitioned 
toward using the information provided by remote sensing as a real asset 
in our planning and mitigation work. Our use of hyperspectral data is 
just one example of how a local jurisdiction provided the specific 
information with which we could employ our risk analysis and thus 
educate individual property owners.
    The use of these technologies has provided us with an opportunity 
to change our approach to creating a safer community. By employing 
innovative uses of remote sensing and geospatial technologies, citizens 
in our city are educated and motivated to treat their own property and 
not rely on local government to provide that service. We have developed 
a culture in our city that encourages citizens to partner with local 
government to provide public safety. By creating our web site we have 
greatly improved our efforts in getting individual property owners and 
neighborhood associations to partner with us in mitigating the fuel in 
these interface areas. Perhaps this seems subtle, but it is an 
important note: these efforts have created an environment in which our 
citizens actively participate in their own outcome, effectively sharing 
the responsibility--and that, after all, is the very definition of 
community.

Grant Proposals

    The layers are also used to develop grant proposals utilized to 
secure funding which support community wide fuel mitigation projects. 
In a recent example, the City of Colorado Springs was awarded a one 
million dollar mitigation grant by FEMA. That FEMA grant was the only 
one of its kind in the Nation. I firmly believe we would not have been 
successful in winning that grant had it not been for the robust data we 
were able to employ in the planning and justification for the grant. It 
was successful in large measure due to the capability we developed with 
our risk analysis of wildland fire issues using hyperspectral data. We 
were able to leverage our investment in remote sensing to make a strong 
case to FEMA that we knew both the nature of our problem and how to fix 
it.

Community Risk

    Additionally, we have also embarked on developing a very 
sophisticated community risk assessment model. The model uses 
geospatial data\2\ which are evaluated by all community stakeholders, 
to assess and categorize risk. It is a mixed-methods approach that 
couples the input from subject matter experts and the community inputs 
(qualitative) with mathematical models (quantitative) that describe not 
just where events have happened, but the very causes of those events.
---------------------------------------------------------------------------
    \2\ Includes geospatial data describing the city's natural, social, 
and built environments.
---------------------------------------------------------------------------
    The results of these assessments are clearly displayed on a map 
with shadings indicating the degree of risk severity. The visual 
display quickly communicates the location and extent of community risk 
so that citizens and policy-makers can openly and with confidence 
discuss mitigation strategies. This is an important success for us to 
highlight. This illustrates the success we have in communicating with 
our public due to our use of GIS and remote sensing technologies. If a 
picture is worth a thousand words, how much is a dynamic living picture 
of risk and exposure worth to a community that can access it 24 hours a 
day, seven days a week. We prepare to respond 24x7, so why wouldn't we 
mitigate and communicate the same way.
    One of the innovative approaches that we are taking is that the 
results of the qualitative criterion can be displayed next to 
quantitative criterion and where there is convergence; policy-makers 
can have assurance that they are developing a good decision that 
represents realistic informed consent in the affected communities. 
Where the data does not converge, policy-makers can call out subject 
matter experts and citizens to discuss the difference in opinions.

Funding

    Locally, we have been challenged in developing the technology 
needed to provide operational decision-makers and policy-makers with 
accurate, current and comprehensive data. Grant funding for the AVL 
system came to us by happenstance through our Traffic Department. They 
had a 900 MHz radio system and wanted to develop the vehicle location 
technology. We were able to place staff on the project and not only 
developed and tested their applications but developed the application 
for our emergency apparatus. We were very fortunate to be able to take 
advantage of that transportation grant (Congestion, Mitigation and Air 
Quality--CMAQ) as such funding is not available locally, through the 
state or through National Fire Administration grants.
    The funding necessary for the geospatial and remote sensing over 
flights was carved out of current operational budgets and partnering 
with other interested city departments. We were very limited in the 
amount of resources we could employ to gather this data. Again, this 
technology and data is vital to our public safety work but we found 
very little support in the form of grant dollars to complete this work.
    As my staff discusses the issues regarding development and use of 
technology in the fire service, they portray the problem in clear and 
concise terms; there is no staff dedicated to these projects, there is 
little additional time to allocate to these projects, and there is no 
funding to have the work completed by others and yet we have this 
essential mission to complete.

Education

    I would add that employing current technology is also a significant 
educational challenge for the fire service. Few, if any, fire service 
officers that are adept and capable in emergency operations work have 
formal education or experience with modern technology. We have been 
fortunate to have an accomplished information technology staff in-house 
that supports our public safety mission. The collaboration between 
experienced fire officers and a very sophisticated information 
technology staff has allowed us to take advantage of finite resources 
and create innovative approaches to community safety employing new 
technology.

IT Staff

    When I took command of this department some 14 years ago, I had a 
departmental information technology division. We had fire operations 
staff working side by side with a very talented group of IT and GIS 
staff. The combination of those two groups of very talented employees 
allowed us to investigate, research, and create opportunities to employ 
technology in the work we do. The results are that this department is 
on the leading edge of utilizing technology to improve the 
effectiveness and efficiency of the department.

Training

    Operationally, fire officers rely on training, education and 
experience as a foundation in making decisions regarding management of 
a variety of emergency situations. Then at the scene of an emergency, 
officers and firefighters must apply that training and situational 
understanding to the facts and observations made at the incident to 
develop situational awareness.
    Technology can provide a large quantity of data through GIS layers 
supported by remotely sensed information and associated with a specific 
site and a specific type of incident. That information will not be 
easily processed nor understood unless we begin to train fire officers 
on how to recognize that information and use it in a situational 
awareness process. The fire service currently lacks that training and I 
know of no support for that training.

2008 California Fire Siege Example (move to emergency response and 
                    operations section)

    The information available with the use of technology must also be 
employed in the operational planning process prior to an emergency and 
as the emergency involves. We saw a graphic demonstration of this 
application in the recent California wildfires. At that fire, overhead 
assets in the form of satellite platforms, unmanned aerial vehicles 
(UAVs) from NASA and DOD, National Guard, civil and commercial fixed 
wing and space-borne assets were able to bring into the planning 
process of the command post real-time data including full-motion video. 
Technology available to the military that provides situational 
awareness was deployed in California and from my opinion has the 
potential to greatly improve our ability to manage and control these 
large wildland fires--particularly if these assets are directed by 
local and State authorities with a mechanism to quickly capture, store, 
and disseminate the information. It doesn't really matter if we have 
this powerful remote sensing capability and we don't put the 
information in the hands of the actual boots on the ground when they 
need it. We should thoughtfully consider how we could institutionalize 
this capability vice scrambling when large events inevitably overtake 
us.

Personal Experience

    I can tell you from experience that management of large wildfires 
is a most difficult task and having current and comprehensive data, 
maps of predicted fire behavior, and fire location and live video feeds 
are of tremendous assistance in managing the fire, saving citizens at 
risk, and controlling the position of fire apparatus and firefighters. 
In 1991, I was a command officer with the City of Oakland when in one 
afternoon we lost over 3,300 residential properties and the lives of 
twenty five people.
    We did not have a map of the fire's perimeter or know the extent of 
damage until late that night. The perimeter of the fire was drawn by 
hand over an existing city map by a fire officer hanging out of a 
helicopter as it flew the area.
    There are significant issues with bringing this technology to the 
fire service. As stated, there is a lack of resources and funding to 
acquire the technology and to gather the data. There is also the issue 
of training fire officers to understand and employ that data in their 
decision-making. We also have an issue with standards.

Standards--move above Personnel Experience

    In association with the International Association of Fire Chiefs, 
there has just recently been established a Technology Advisory Council 
to standardize data collection, storage, and exchange. The National 
Fire Protection Association has also begun to appoint a technical 
committee on Fire and Emergency Service Geographic Information Systems 
that will explore geospatial data needs and current applications to 
develop common fire service standards and protocols for exchanging 
geospatial data between GIS user agencies and organizations during 
emergencies. Perhaps for the first time, essential data elements 
gathered by local responders can be utilized by incoming mutual 
partners whether they are local, State, or federal. The development of 
standards is an essential step in developing GIS information that can 
be utilized by the fire service.
    We recently hosted a meeting of many individuals involved with 
these projects so that they could share their individual efforts in 
order to develop a National Fire Service Data Model for gathering this 
data. That effort should receive continued support as we explore the 
development of this standard and look towards implementation at the 
local level.

Personal Comments

    I perceive in the implementation of remote sensing technology that 
there are many issues regarding the use in the fire service for 
response and mitigation activities. I do not profess to have sufficient 
expertise to comment on the technical aspects of development of such 
technology. I can tell that you what we have done here in Colorado 
Springs has greatly leveraged our ability to provide the best in public 
safety with regards to fire control and suppression and community 
education.
    I will offer that the leadership in the fire service and the 
emerging leadership must be trained so that they can fully employ the 
available emerging technology. Most fire officers have learned their 
trade through training, classroom and didactic, and with application of 
that training in practical experience. The introduction of remote 
sensing and GIS into the work we do must be accompanied by training and 
practice. That training will come at some cost. As with any training 
program, we must provide the training staff, develop the curriculum, 
and pay for the wages of the attendees. The training then has its 
associated cost, all of which must be provided with finite resources 
currently available to local government.
    I have been asked by the Committee to discuss how we have utilized 
remote sensing data and to also comment on barriers. Briefly, I have 
discussed with the Committee some of our work regarding how we have 
utilized this technology. With regards to barriers I would comment that 
there are several:

        <bullet>  Funding for such work is lacking at the local level. 
        Local government has finite resources that are wholly dedicated 
        to providing services and at the federal level, there are few 
        available resources for this emerging technology in the fire 
        service.

        <bullet>  As we develop this technology and move to 
        applications for response and mitigation, a national standard 
        should be supported so that local, State and federal response 
        resources can all utilize the data.

        <bullet>  There is a need to develop national policies, 
        standards, and functional models to enable data sharing and 
        coordinated data exchange starting with local agencies for 
        decision support and situational status to incident commanders 
        during escalating events of national significance.

        <bullet>  Implementation of this technology must be accompanied 
        with training of the current and emerging fire service 
        leadership. Perhaps it is possible to fund the U.S. Fire 
        Administration to develop a program through the U.S. Fire 
        Academy that provides support curricula with appropriate GIS 
        and RS training. Additionally, some sort of train-the-trainer 
        program for GIS specialists in the fire service would create 
        capacity nationally.

        <bullet>  The federal grant funding systems could recognize the 
        value of the implementation of these technologies as a key 
        piece in planning and risk-reduction efforts. It has been 
        difficult to use grant mechanisms for these purposes despite 
        the huge successes we have had in our communities when we have 
        used remote sensing and GIS together.

        <bullet>  The geospatial intelligence strategy to support 
        national security and preparedness must start at the local 
        level. This cannot happen until locals have access to effective 
        GIS and remote sensing products that support their daily 
        operational requirements. Effective widespread implementation 
        of fire service technology will require appropriate data, 
        tools, funding, and education delivered to local responder 
        agencies. These components need to be defined by appropriate 
        input from the fire service, for the fire service. This can be 
        accomplished by working through existing national fire service 
        organizations and leadership structures, most of whom have 
        identified GIS and remote sensing as an important technology 
        for supporting their mission.

Conclusion

    In closing, the Committee was also interested in comments regarding 
what would be most valuable to the fire service in expanding the use of 
remote sensing data for the future. We certainly support the use of 
geospatial information systems and the remote sensing data that feeds 
data to it. Fire officers will find that information extremely helpful 
in managing and controlling emergencies. The technology to support 
those activities in our estimation should be further researched and 
funding needs to be provided to make that technology available at the 
local level.
    We have been very successful in employing data from remote sensing 
platforms to enhance our community education programs, to assist in the 
planning efforts with regards to fuel mitigation, and to provide an 
easily understood display of community risk to citizens and policy-
makers. We were able to employ remote sensing to gather data that would 
take prohibitive personnel and time commitment to gather. We would 
support further research in the use of this technology to gather 
additional information such as roof types and other data essential to 
full development of community risk attributes.
    Colorado Springs has shifted from binders on bookshelves to a 
community-based, geospatially enabled risk-assessment methodology. We 
have strived to understand the nature and characteristics of risk and 
then systematically work on risk reduction activities. We are 
developing mitigation strategies in addition to our response 
applications. We believe that responding to emergencies without really 
seeking to know what the underlying causes of the problems are is only 
part of creating a safer community. We support technology that provides 
us with the data required to understand and analyze the community risk.
    We have been very fortunate in Colorado Springs with developing and 
utilizing remote sensing technology. We have utilized local staff and 
collaborated with some extremely talented private sector contractors.
    We would strongly encourage the Federal Government to support these 
types of activities at the local level in order to improve the fire 
service's response to public safety as well as provide situational 
awareness for incoming local, State, and federal assets during major 
emergencies.
    Again, thanks for having me here today, I would be happy to take 
any questions you might have.

                      Biography for Manuel Navarro

    Manuel Navarro was born in Oakland, California. He was a life-long 
resident of the San Francisco East Bay area until January of 1994 when 
he was appointed Fire Chief for the City of Colorado Springs. Chief 
Navarro's 41-year career began in the San Francisco Bay area in 1966 
and he has served as firefighter, Lieutenant, Captain, Battalion Chief 
and Assistant Chief prior to being appointed Chief of the Colorado 
Springs Fire Department.
    Chief Navarro holds an Associate of Arts Degree in Fire Science and 
a Bachelor of Arts Degree in Public Administration with a minor in 
business. In 1995, he attended the Kennedy School of Government, 
Harvard University, being awarded one of four National Fire Protection 
Association fellowships given that year. He holds a State of California 
Master Fire Instructor Certification and is certified to teach a number 
of specialized fire science topics.
    Chief Navarro is an experienced and knowledgeable fire command 
officer and participated as a command officer in three nationally 
declared disasters (1989 Loma Prieta Earthquake, 1991 Oakland Hills 
Fire and 1992 Hurricane Iniki, Kauai). The Chief is considered an 
expert in many technical areas--most notably in the field of Urban 
Search and Rescue. He was responsible for the management of the Oakland 
sponsored Federal Emergency Management Agency (FEMA) National Urban 
Search and Rescue Team and served as a member of the FEMA Urban Search 
and Rescue Management and Control Committee.

    Chairman Udall. Mr. Sapio, the floor is yours.

   STATEMENT OF MR. FRANK J. SAPIO, DIRECTOR, FOREST HEALTH 
    TECHNOLOGY ENTERPRISE TEAM (FHTET), U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Sapio. Mr. Chairman and Members of the Subcommittee, 
thank you for this opportunity to testify before you today on 
remote sensing data, its applications and its benefits.
    The Forest Service uses remote sensing technology ``to 
foster the development and use of technologies to protect and 
improve the health of America's forests.'' Remote sensing 
technologies have serviced resource management well in the 
past, and will be an increasing part of land management in the 
future. When used effectively, they provide a means of data 
collection that is accurate, timely, and cost effective.
    In our technology development, we try to select the 
appropriate remote sensing methodology. The spatial, temporal 
and cost capabilities of each sensor must be carefully 
evaluated for each project. If an appropriate match can be 
made, the Forest Service will try to use that technology to aid 
it in the natural resource assessment efforts. This assessment 
must be tactical, and they use imagery from a broad scale to a 
fine scale. Some systems are government-owned. Some systems are 
commercial systems.
    Remote sensing is used at three principal scales, a broad 
scale to a strategic regional and national assessments, and 
mid-scale to assess landscapes, and a fine scale to aid in the 
mapping of forest stands and areas of damage.
    On a broad scale, our current data-collection methodologies 
from national insect and disease assessments rely heavily upon 
aerial sketchmapping surveys. These surveys are accomplished by 
aerial observers flying in light aircraft who sketch 
observations on paper or on pen-based portable computers. 
Though somewhat limited in spatial accuracy, this low-tech 
approach is appropriate technology and is particularly well-
suited for trend analysis because we can cover almost the 
entire country annually. This method was used in developing a 
2007 map of infestation in Colorado, and has been our method of 
choice for some time.
    Imagery collected at a broad scale also includes satellite 
images from NASA, and NASA's Moderate Resolution Imaging 
Spectroradiometer (MODIS) which provides 250-, 500-meter and 
one kilometer spatial detail. MODIS is used to detect and 
monitor wildland fires, assist incident coordination, and to 
portray the fire situation to the public. MODIS is utilized 
with other geospatial layers and forestry inventory information 
to produce large-area forest cover-type maps and biomass maps.
    Mid-scale imagery such as Landsat which is 30-meter 
resolution and is used with geospatial data and forest 
inventory information to produce individual tree species maps 
to be used as insect and disease host layers for the production 
of the National Insect and Disease Risk Map, a five-year 
strategic assessment produced by Forest Health Protection. My 
office is currently preparing for the 2010 National Insect and 
Disease Risk Map. We are actively pressing for more modern 
methodology to be used in Colorado.
    Landsat also provides the predominant mid-scale imagery 
driving the LANDFIRE project. LANDFIRE is a five-year, multi-
partner project that produces consistent and comprehensive maps 
and data describing wildland fuels and fire regimes across the 
United States. It is a shared project of the U.S. Forest 
Service and the Department of Interior. LANDFIRE data products 
are created at a 30-meter resolution data set. LANDFIRE 
information is produced at scales that may be useful for 
prioritizing and planning hazardous fuel reduction and 
ecosystem restoration projects.
    At a fine scale, aerial imagery is utilized to aid in the 
mapping of forest stands and damaged areas at a fine scale and 
is used routinely for forest inventory and local resource 
assessments. The U.S. Forest Service participates in the USDA 
National Agricultural Imagery Program, which collects one-meter 
digital imagery on a five-year recurring basis. This imagery is 
used in mapping various resource conditions.
    Project level planning requires finer resolution imagery. 
The Forest Service and other cooperating field units often 
utilize digital high-resolution satellite imagery to assess 
local forest issues, such as damaged and dead trees in the 
landscape. To be able to discern trees that are just beginning 
to exhibit the effects of stress, field practitioners prefer 
the six-inch and one-foot spatial-resolution range. Airborne 
imagery, usually photography, as opposed to the satellite 
imagery, is currently the imagery of choice for most field 
foresters. In fact, my group is currently processing a large 
batch of photography for Colorado.
    We also use remote sensing technologies for complex issues 
tied to land use. For example, the growing metropolitan fringe 
is extending farther into rural areas with attractive 
recreational and aesthetic amenities, and areas where 
structures and other human development meet or intermingle with 
undeveloped land. This land-use change has significant 
implications for wildfire and pest management.
    We use a myriad of geospatial technologies to conduct 
analysis of WUI at different spatial and temporal scales.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions you or other Members of the 
Subcommittee have. Thank you.
    [The prepared statement of Mr. Sapio follows:]

                  Prepared Statement of Frank J. Sapio

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on remote sensing data applications and 
its benefits for the U.S. Forest Service.

Introduction

    As Director of the Forest Health Technology Enterprise Team 
(FHTET), I am charged with managing the group's mission ``To foster the 
development and use of technologies to protect and improve the health 
of America's forests.'' Remote sensing is one of the geospatial 
technologies we use to fulfill that mission.
    FHTET is a Forest Service unit within State and Private Forestry. 
The team is comprised of two offices, one in Morgantown, West Virginia, 
and the other in Fort Collins, Colorado. In Morgantown, members of the 
team work on the biological control of invasive pests, pesticide 
application technologies, and the study of non-target impacts of 
pesticides. In Fort Collins, team members work on a variety of 
information gathering methods, including geographic information systems 
(GIS), spatial analysis, remote sensing and image analysis, pest and 
pathogen modeling, invasive species modeling, and quantitative analysis 
of the impacts of forest pests.
    I have worked in forest pest management and forest health for over 
26 years. My career began as a research associate in a university 
setting where I developed forest pest management methods. I then moved 
to State government where I worked on forest inventory, forest health 
monitoring, and forest pest management for most of my career. For 
almost five years, I have been the technology-development lead within 
Forest Health Protection, U.S. Forest Service, as the Director of 
FHTET.
    I will organize this testimony along the lines of the questions 
posed by Subcommittee Chairman Mark Udall's office in a letter to me 
dated March 26, 2008.

Questions and Answers

How is the Forest Service using data collected by remote sensing 
technologies to identify areas of high risk for forest fires and other 
factors, including insect infestations, disease, drought, and the 
proximity of forests to development that affect the health of forests 
in Colorado and elsewhere?

    Remote sensing is used at three principal scales within the agency 
by both wildland fire and the forest health protection programs of the 
Forest Service.

Broad Scale
    Our current data-collection methodologies for national insect and 
disease assessments rely heavily upon aerial sketch-mapping surveys. 
These surveys are accomplished by aerial observers flying in light 
aircraft who sketch observations on paper or on pen-based portable 
computers. Though somewhat limited in spatial accuracy, this very low-
cost survey provides a quick and timely assessment for many insect and 
disease events. This ``low tech'' approach of information acquisition 
is truly an ``appropriate technology'' for strategic regional and 
national assessments and is particularly well-suited for trend 
analysis. Digital sketch mapping uses a moving map display on which the 
observer marks the screen instead of marking on paper maps. This saves 
time in processing finished maps and improves location accuracy. We 
continually strive to improve the collection of these data and have 
implemented digital aerial sketch mapping systems to improve the 
quality and timeliness of these data sets.
    Imagery collected at the broad scale also includes satellite images 
from the National Aeronautic and Space Administration (NASA) and 
National Oceanographic and Atmospheric Administration (NOAA) 
Geostationary Operational Environmental Satellites (GOES) and Polar-
orbiting Operational Environmental Satellites (POES) to support 
domestic forestry and fire programs.
    The Moderate Resolution Imaging Spectroradiometer (MODIS) provides 
250m-, 500m- and 1km-resolution spatial detail. MODIS is used to detect 
and monitor wildland fires, assist incident coordination, and to 
portray the fire situation to the public. MODIS is utilized with other 
geospatial layers and forest inventory information to produce large-
area forest cover-type and biomass maps. These maps are used in 
national assessments and are designed for strategic assessments. For 
example, a cover map for all of America's private and public forests 
was recently completed by combining multi-resolution imagery from MODIS 
and Landsat with ground data from the Forest Service's Forest Inventory 
and Analysis (FIA) program. Much of this work is a continuation of 
interagency cooperative research and development activities spawned by 
the Multi-Resource Land Cover (MRLC) Consortium led by the Department 
of the Interior's Geological Survey. We are also applying these broad-
scale synoptic mapping technologies to develop early warning systems 
and to produce very large area damage maps. We hope to be able to post 
forest disturbance maps on the web in near-real-time to guide our 
aerial surveys. The goal here is to augment and optimize aerial sketch 
mapping surveys (by providing near real time forest disturbance 
information to our aerial surveyors) that provide us with the majority 
of our national damage trend information.

Mid Scale
    Mid-scale imagery such as Landsat, which is 30 meter resolution and 
is used with geospatial data and forest inventory information to 
produce individual tree species maps depicting the tree layers that 
host insect and diseases. These maps will be used in the production of 
national risk maps. Mid-scale imagery is a significant activity in the 
FHTET Fort Collins office as we are preparing the development of 
national host models to be used in the next development of the National 
Insect and Disease Risk Map, a five-year strategic assessment produced 
by Forest Health Protection. The 19-state, mid-scale hazard assessment 
for the Southern Pine Beetle Prevention Program is a good example of 
how this technology is currently being used.
    Landsat also provides the predominant mid-scale imagery driving the 
LANDFIRE project. LANDFIRE is a five-year, multi-partner project that 
produces consistent and comprehensive maps and data describing wildland 
fuels and fire regimes across the United States. It is a shared project 
of the U.S. Forest Service and the Department of the Interior. The data 
products from LANDFIRE include layers for vegetation composition and 
structure, surface and canopy fuel characteristics, and historical fire 
regimes. LANDFIRE national methodologies are science-based and include 
extensive field-referenced data. LANDFIRE data products are designed to 
facilitate national and regional level strategic planning and reporting 
of wildland fire management activities.
    LANDFIRE data products are created at a 30-meter resolution data 
set. LANDFIRE information is produced at scales that may be useful for 
prioritizing and planning hazardous fuel reduction and ecosystem 
restoration projects. LANDFIRE meets agency and partner needs for data 
to support large landscape, fire management planning and 
prioritization.
    Satellite imagery is likewise used for the burned area emergency 
response (BAER) program for developing a burn intensity index to guide 
on-the-ground rehabilitation efforts. Landsat, ASTER (Advanced Space-
borne Thermal Emission and Reflection Radiometer) and an increasing 
amount of commercial satellite imagery (such as Advanced Wide-Field 
sensor (AWiFS) ) are being used to provide BAER teams with rapid 
assessment burn severity map products.
    Landsat has also been used repeatedly within the agency in various 
change-detection analyses. One such notable effort is the U.S. Forest 
Service Land Cover Mapping and Monitoring Program (LCMMP) in 
California, which addresses statewide vegetation mapping and long-term 
monitoring using remotely sensed data. Remotely sensed data and GIS are 
used to generate maps that describe the extent and condition of various 
land cover types and the magnitude and cause (e.g., urbanization, 
natural succession, wildfire, and timber harvest) of land cover 
changes. The LCMMP provides a single, consistent source of current land 
cover data from which the U.S. Forest Service and California Department 
of Forestry (as well as other interested Federal, State, and local 
governments and private citizens) can make informed resource management 
decisions. The LCMMP is a collaborative approach to land cover mapping 
and monitoring that includes coordinated acquisition of resource 
photography, satellite imagery, and geo-processing on a five-year 
cycle. Regionally, monitoring can identify critical causes of change or 
provide an early warning system for habitats being degraded. Locally, 
monitoring can assess county land use policies, identify areas of 
insects or disease problems, or assess the extent of timber harvest in 
a watershed.

Fine Scale
    Aerial imagery is utilized to aid in the mapping of forest stands 
and damaged areas at a fine scale and is used routinely for forest 
inventory and local resource assessments. The U.S. Forest Service 
participates in the USDA National Agricultural Imagery Program (NAIP), 
which collects one-meter digital imagery on a five-year recurring 
basis. This imagery is used in mapping various resource conditions. 
Other than its use as an important mapping aid, NAIP's ability to 
determine resource conditions for fuel loading and forest mortality is 
very limited. For project-level planning, finer resolution imagery is 
required to achieve the desired assessment of forest resource 
conditions.
    Forest Service and other cooperating field units often utilize 
digital high-resolution satellite imagery for local forest resource 
assessments. An example is a spruce-beetle mapping effort conducted in 
the early 2000s using one-meter and 0.6-meter satellite data. Dead 
trees were discernible in both resolutions of imagery; however, 
recently dead or dying trees (known as faders) were not discernible in 
the coarser one-meter imagery. To guide many insect and disease 
mitigation measures, the location and number of faders are needed. In 
addition to the identification of faders, identification of tree 
species and sub-canopy is often needed, and imagery with a resolution 
finer than 0.6 meters is required for these determinations. The imagery 
resolution of choice from our field practitioners is in the six-inch to 
one-foot spatial-resolution range. As of this moment, airborne imagery, 
usually photography (as opposed to satellite imagery) remains the 
imagery of choice for most field foresters.
    The Research & Development arm of the Forest Service has been 
experimenting for several years with using Light Detection and Ranging 
(LIDAR) sensors. Similar to radar but using a laser instead of radio 
waves, LIDAR provides very high resolution images. Researchers are 
combining LIDAR with very accurate Global Positioning System (GPS) data 
to map stream channels, including pools, riffles, and down woody 
material that are essential to understanding the health of aquatic 
habitats, and forest canopies. LIDAR imagery can see beneath the over 
story, allowing researchers to map under story plants and help detect 
places where trees have been removed, such as through thinning 
operations.
    Pre-visual detection of stress on individual trees is currently a 
major focus for forest health remote sensing specialists. In order to 
intervene early in a pest outbreak scenario, early indications of pest 
infestation--such as tree health at the edges of known infestations--
are important. This is especially true for exotic invasive species. 
Unfortunately, at the present time we do not have a mature repeatable 
technology to fulfill this need. Hyper-spectral data for host mapping 
or tree health mapping has the potential to fulfill this need, though 
at the present time results are inconsistent. Alternatively, field 
surveys can be conducted to map positive detections and to identify 
pest. The surveys are conducted with global positioning system (GPS) 
coordinates and tree health ratings. However, early infestations are 
often missed during field survey as damaged trees initially are 
characterized by very subtle changes in the tree canopy. Trees stress 
signs, while present, often go undetected until they become obvious to 
the field specialist on-the-ground. Hyper-spectral imagery has been 
utilized by the Forest Service for limited developmental projects for 
stress-detection, and its use may be increased as the technology 
development progresses.

Proximity of Forests to Development that May Effect Forest Health
    Urban and suburban growth has resulted in the development of an 
outlying metropolitan fringe that extends into rural areas with 
attractive recreational and aesthetic amenities. This is especially 
true for urban growth near forests. This land-use change has 
significant implications for wildfire and pest management. The WUI 
creates an environment with an increased likelihood that wildfires or 
pest outbreaks will threaten structures, trees around homes, recreation 
sites, and people. The spatial extent and location and, most 
importantly, the growth of urban and suburban areas are information 
that is sought by nearly all sectors of the natural resource management 
community.
    A myriad of geospatial technologies--including geospatial modeling 
of census data, the ``city lights'' data set from the National Oceanic 
and Atmospheric Administration's National Geophysical Data Center 
(NOAA/NGDC), and virtually all other remote sensing platforms mentioned 
thus far--are used to conduct analysis of the WUI at different spatial 
and temporal scales. This is typically done on a project-by-project 
basis with the structure density threshold varying accordingly.

Development Efforts and Refinement
    The Forest Service has long used various remote-sensing methods to 
assess forest health and detect damage, and continuously investigates 
new technologies as a strategic and tactical aid to natural resources 
management. There are advantages and disadvantages to all such 
geospatial technologies. It is imperative that the right platform, 
imagery, and analysis be matched to the specific problems that natural 
resource professionals face. Remote sensing technologies have extended 
the ability of resource specialists to assess forest conditions, and 
these technologies are increasingly being used at various spatial and 
temporal scales to address natural resource management questions.
    The future possibilities of ``fusing'' data from satellites with 
airborne LIDAR imagery and precise GPS coordinates offer great future 
potential for developing better maps in the future. In particular, the 
ability of LIDAR to create three-dimensional images of forest stand 
conditions instead of just the flat overhead look from satellites 
offers substantial promise for improving natural resource management.
    Data acquisition and analysis in any form still requires a 
considerable investment of resources and expertise. The Forest Service 
continues to improve its suite of hardware and software tools for 
processing and analyzing remotely sensed data. Most national forest 
field offices now have such hardware and software, and are improving 
their expertise in using GIS or image analysis software to process and 
analyze geospatial data sets. Land managers are also improving in their 
ability to select appropriate remote sensing technologies to address 
their data needs, and they are supported by technology transfer efforts 
of the Remote Sensing Applications Center (RSAC), the Geospatial 
Technologies Service center (GSTC), and FHTET.

What are the benefits of using remote sensing data over data that are 
acquired by other techniques?

    Remote sensing methods are effective tools to assess fire, forest 
pest and forest conditions. One of the benefits of using remote sensing 
data over data acquired by other techniques (for example, aerial survey 
and ground survey) is the spatial precision which allows for the 
analysis of other resource concerns, including the presence and 
distribution of threatened and endangered species or the occurrence of 
multiple threats through time. Also, ground surveys are often not cost-
effective over very large areas. Another benefit of remote sensing lies 
in its consistency and objectivity; the data do not pass through the 
subjective filter of a human observer before being recorded. Compared 
with a ground survey, once collected, remotely sensed data can be 
easier to process and analyze, can cover more ground, and thereby 
reduce analysis time and improve overall planning productivity.

What, if any, are the challenges and impediments to the use of remote 
sensing data for these and other applications, and what are your 
recommendations for overcoming those barriers?

    Performing remote sensing data analysis requires a wide-range of 
skill sets, from basic repetitive tasks to high-end analytical support. 
A typical field user of remotely sensed data needs to perform the full 
spectrum of skills from basic through advanced. Often, the skill-level 
for the advanced use of remote sensing technologies is very limited at 
the field level, though regional offices and national service centers 
can and do provide support for individual projects.
    Basic tasks for the analysis of remotely sensed data are usually 
performed by technician-level employees. This capability has diminished 
over the last few decades as the workforce has shifted from technician-
level employees to professional and administrative employees. Often, a 
field unit is left with little or no support for basic remote sensing 
processing--a field staff officer may be doing the work of a field 
technician due to staffing limitations. As these remote sensing skills 
evolve through workforce evolution, skill sets must continue to improve 
for the utility of remotely sensed data to increase. The national 
service centers for remote sensing applications (RSAC), geometronics 
(GSTC) and forest health (FHTET) are all working on technology transfer 
efforts to develop field ready methodologies, and improve workforce 
skills to meet today's needs.
    The early signatures of most forest pests are ephemeral and the 
timing of data acquisition is another important challenge. Imagery must 
be acquired during the period of time during which pest damage 
signatures are most visible or when the information best supports 
managerial action. This is very often a very brief period, sometimes 
less than two to three weeks. Imagery acquisition during this ``bio-
window'' is difficult in some parts of the country due to imagery 
acquisition schedules and the lack of suitable weather without clouds. 
Also, the effectiveness of on-the-ground treatments for a given forest 
health concern involve data timing considerations. Results from image 
analysis must be timely in order to facilitate time-sensitive on-the-
ground treatments. Remotely sensed data need to be collected, 
processed, and evaluated within a given timeframe so that the forest 
health concern is observed and a response can be formulated and 
performed in a timely manner. For tactical on-the-ground operations, 
the required turn-around time of imagery acquisition, image analysis, 
and treatment prescription often exceeds the biological window 
available for the treatment to be effective.
    Shortening the time to analyze remotely sensed imagery would 
significantly aid in the practical implementation of remote sensing in 
the U.S. Forest Service. Efforts to develop ways to reduce this time 
could be accomplished through close cooperation of remote sensing 
commercial interests, researchers, field resource specialists, and the 
technology development community within the U.S. Forest Service.

What remote sensing data, products or services, or supporting 
infrastructure would be most valuable for expanding the use of remote 
sensing data in the future?

    The key to providing continued support for the mid-scale mapping 
and on-going forest condition monitoring is Landsat. Continued 
availability allows for the comparison of current conditions with 
reference conditions collected by previous Landsat sensors to identify 
changes and trends in forest canopy, including the new challenges 
associated with global climate change. Landsat imagery has been a 
significant component within our natural resource information programs. 
Trends detected through such an approach will yield insightful 
information which otherwise would not be detected through other 
monitoring techniques.
    In order for high-resolution satellite imagery to be more routinely 
used, it must achieve finer resolution and be cost-competitive with 
aerial photography. Higher resolution remotely sensed data (airborne or 
satellite) can be utilized when determined to be cost-effective for the 
extent of coverage needed. Often, a project's spatial extent exceeds 
the practical capability available given the small image ``footprint'' 
of various sensors. Also, the cost of high-resolution satellite imagery 
must match the project area and not be cost-prohibitive. Lower-cost 
imagery (assuming useful interpretation) would ultimately yield better, 
more frequent monitoring of our forest resources.
    The development of automated routines for preparing and 
interpreting imagery would help to shorten the turn-around time between 
imagery acquisition and treatments. This can help reduce the need for 
basic interpretive skills and improve the timeliness for deriving 
analytical information. Professional field specialists could then 
better focus on problem-solving, for which they are most skilled: that 
is to make natural resource decisions.
    Image interpretation relies upon assigning certain characteristics, 
such as tree species, to specific parts of the image-a process called 
classification. Building accurate automated routines to classify an 
image requires sufficient data from ground plots to validate the 
classification routines.

Conclusion

    The USDA Forest Service utilizes remote sensing and other 
geospatial technologies routinely to measure resource conditions. This 
is done both to assess current conditions and to predict future 
conditions. Assessments range from the strategic to the tactical and 
utilize imagery from a broad scale to a fine scale. Remote sensing 
technologies range from analog photography (true color or color 
infrared) to the latest in hyperspectral imagery. Acquisition platforms 
range from government-owned systems to commercial systems. The agency 
maintains an active technology development effort and continually tries 
to fit the task at hand with the various remote sensing methodologies 
available. Sensor capabilities (spectral, spatial, temporal, and cost) 
must be carefully tailored to the project; if a match can be made, the 
Forest Service will likely use that technology in their resource 
assessment efforts.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or other Members of the Subcommittee 
may have.

Acronyms and Abbreviations

FHTET--Forest Health Technology Enterprise Team

GIS--geographic information system

MODIS--Moderate Resolution Imaging Spectro-radiometer

BAER--burn area emergency rehabilitation

ASTER--Advanced Space-borne Thermal Emission and Reflection Radiometer

AWiFS--Advanced Wide-Field Sensor

LCMMP--Land Cover Mapping and Monitoring Program

NAIP--National Agricultural Imagery Program

UAS--unmanned aerial systems

WUI--wildland-urban interface

NOAA/NGDC--National Oceanic and Atmospheric Administration/National 
        Geophysical Data Center

RSAC--Remote Sensing Applications Center

GSTC--Geospatial Technologies Service Center

                               Discussion

    Chairman Udall. Thank you, panel, and we want to move right 
to a round of questions, and I will recognize myself for five 
minutes. I want to ask a very basic question, and each one of 
you have spoken here, but I wanted to give you a chance to 
underline the importance of this data.
    What makes the use of remote sensing worthwhile for what 
you and your organization do?
    I want to start with Mr. Byers, and we'll go on with Dr. 
Montagu. Byers is a very well-known Colorado name. Are you 
related to former Governor Byers and the town of Byers and all 
the other?
    Mr. Byers. I would like to say yes, but I'm not sure that I 
am. You know, I try not to say that too often, so that folks--
I'm very proud of what the Byers family did in Colorado, even 
if they weren't directly related to me. I'm sure there's 
something there.
    Chairman Udall. I'm sure you are. Middle Park in Grand 
County, which I represent is one of the most beautiful 
landmarks, Byers Peak, which draws the eye immediately when you 
come up over the pass.
    Having gone off on a bit of a tangent, Mr. Byers, tell us 
how remote sensing data makes what you do worthwhile for you in 
your organization.
    Mr. Byers. That's all right, Mr. Chairman. I think you have 
the license to do that when you choose.
    This actually is--it is very serious to us because, as you 
know, many of the State agencies are limited in funding here in 
Colorado. We have a number of legislative initiatives that have 
kept our growth of our budget to a limited area. The real value 
that we have is that we get a great deal of data, very specific 
and high-resolution data. It allows us to spend less time 
ground truthing information, allows us to use less public funds 
in the general administration of water rights for us, 
primarily, and I'm speaking of the Landsat technology that I 
spoke of earlier.
    The other aspect of it is, is that we tie into all of this. 
I act as the emergency manager within our department and a 
number of other things. We tie into all of this other 
technology, and all of it saves us time, effort, and gives us 
better information faster, and allows us to respond to the 
public's needs better. With that, I'll stop.
    Chairman Udall. Dr. Montagu.
    Dr. Montagu. I want to focus on one specific technology, 
and mainly aerial--digital aerial photography. Obviously, the 
Denver metro area is growing significantly and has been now for 
over a decade. We're adding about 20,000 households a year. I 
may get that wrong.
    The overall growth of the metro area, you know, trying to 
plan for that and manage it so that we can put in the long 
range infrastructure requires that we have some sense of where 
this growth is happening, and also develop some policies that 
hopefully direct some of the growth and match the 
infrastructure that we're trying to build.
    Aerial photography is critical for that, particularly, 
number one, knowing where that growth is happening, but also 
for change detection, being able to look back and forth through 
time to see where that growth is. So it's vitally important to 
us that we keep that going.
    We have formulated our own approach to that, which is this 
public/private partnership that we have going. We have 30 
different agencies working collectively to acquire this imagery 
together. I'm pleased to say that both the State of Colorado 
and the USGS have partnered with us on that, developing that 
together collectively.
    Chairman Udall. Thank you. I'll let the record note that I 
prefer DRCOG as the acronym.
    Mr. Navarro, please.
    Mr. Navarro. Thank you.
    The value, obviously, is being able to get to the location 
with the centerline data that geospatial imagery gives us. But 
leveraging that technology to also be able to layer for those 
response agencies on specifically what it is they're looking 
at, to get a specific address, then we know what's in the 
building, or have a full deck on final analysis that geospatial 
creation will provide.
    Now, the other aspect of that interface is that any fire 
professional will tell you that weather is the major factor. 
But then you have to layer in slope and terrain in the location 
where you'll be able to get good, accurate information relative 
to that vegetation layer when you get there, because oftentimes 
these teams will come in from across the country, and it's 
vitally important to the safety of mitigation.
    Chairman Udall. Mr. Sapio.
    Mr. Sapio. Remote sensing methods are effective tools to 
assess fire, forest pest and forest conditions. One of the 
benefits of using remote sensing data over other techniques 
(for example, aerial survey and ground survey) is the spatial 
precision which allows for the analysis of other resource 
concerns. Another benefit of remote sensing lies in its 
consistency and objectivity; the data do not pass through a 
subjective filter of a human observer before being recorded. 
Remote sensing data can be easier to process, analyze, and 
covers more ground, reduces analysis time, and improves overall 
planning productivity.
    Chairman Udall. Thank you.
    At this time I want to recognize our Ranking Member, Mr. 
Feeney, for his questions.
    Mr. Feeney. Well, thank you to all of our witnesses. I 
think Mr. Byers suggested that there may be a gap should 
Landsat 5 or 7 fail prior to launch of the Landsat Data 
Continuity Mission in 2011. If that gap occurs, how much of a 
problem will it be for what you do, and some of the other 
witnesses, and can that gap be mitigated by surveillance, 
airborne surveillance assistance, if we're going to have a gap.
    Mr. Byers. Thank you, Mr. Feeney.
    Mr. Feeney. Bring that closer.
    Mr. Byers. Our view, as we look at this collectively with 
the western states as well as within Colorado is that, yes, 
there are opportunities for us to cover the gap. But the costs 
and the efforts associated with that are detrimental to the 
overall well-being of the public. We have the opportunity here 
to assure continuity, and an efficient and effective way to do 
that, should we have a gap, should we have a problem.
    We believe one, we've wasted the opportunity that is 
presented in front of us to get this sensing instrument up in 
space. The other one is that the next time we're able to do 
that is considerably farther down the road, and the expense to 
all of the public agencies is going to be extreme. And the 
problems we have facing us in the west with climate change, and 
just all of the land and water issues. Water here in the west 
is so valuable and so critical to life. When I worked with the 
tribes, water is life, and that's how they would explain it. 
And that's how it is here in the west. And that's why it was so 
important to us to see how--see all of this information so that 
we can manage our water resources collectively in the best way 
possible.
    Mr. Feeney. Anybody have anything to add to that? Mr. 
Sapio.
    Mr. Sapio. The Landsat program has been a real workhorse in 
monitoring vegetation and vegetation change. Landsat 5 and 
Landsat 7 are operating well, well beyond their design 
lifetime.
    Landsat continuity is key to providing support for mid-
scale mapping for forest services, to monitor ongoing 
conditions, and to address new challenges associated with 
drastic forest changes that we're seeing here in Colorado.
    Landsat or other Landsat sensors will also be useful in 
evaluating vegetation changes in climate. Continued 
availability of this kind of imagery, the short wave, red band 
in particular, allows a comparison of current conditions with 
reference conditions already provided by thousands of previous 
Landsat collections. An example of this would be the Aspen 
incline in the west of Colorado.
    Mr. Feeney. Thank you. I have an interest in, given the 
capabilities of this optical scanning equipment, whether 
privacy issues have been raised and to what extent, and to 
where--I don't know for those over here or in California, but 
in Florida we have sunshine laws that virtually aid in 
protecting the public. Ongoing criminal investigations, for 
example, are totally accessible with few exceptions to the 
public, to the press.
    And so how do you deal with privacy, and are there 
concerns, for example, with tourists, or evildoers would get, 
you know, whether it's a nuclear plant or whatever it is, to 
get access to some information that would be useful in doing 
harm? You know, technology is morally neutral.
    It can be used for good or evil, and I want to know to what 
extent you folks have dealt with those questions.
    Mr. Byers. Thank you, Congressman. We have--we certainly, 
from a water management standpoint, believe that the 
transparency is important. We think that California ought to 
know what Colorado is doing, and we certainly would like to 
know what California is doing with our water, tongue in cheek 
there a little bit. We think that's a good thing, and here the 
Colorado, we do have open records and such.
    However, as I've mentioned, I work several hats. I also sit 
on a government coordinating council with the Department of 
Homeland Security for dam security. And we are very concerned 
about how much of this aerial information is available. But the 
fact of it is that most of the location information is already 
out there. We do a very good job of looking at how to deal with 
security issues on individual structures and regional areas.
    Like, for example, we will look at how all of the 
infrastructure and protection of the infrastructure with the 
Democratic National Convention coming here in Denver. We've 
already started much of that work. We also do it all across the 
U.S. as a national look. We watch carefully from Colorado to 
look at who's asking for the information so that we can provide 
that information to the appropriate authorities.
    But as far as the transparency of the information, we don't 
view that as a problem. Transparency is a good thing. Folks 
knowing what kind of crop issues, how water is managed, what 
climate change issues to look at, topography, all of that stuff 
we think is a good thing.
    We think it has, actually, very good application to the 
southwest with the recent drought and some of the issues 
they've had to deal with. We think it has great application 
there, and I'm sure it is used.
    Dr. Montagu. It's a very critical issue in terms of all of 
this data that is available now. And I know it's a subject of 
conversation across this consortium that we have--like I said, 
we have 30 different local governments, utility companies, and 
some members of private sector all getting access to this data, 
and we talk a lot about the privacy concerns of it.
    I think Mr. Byers is right. It is a transparency question 
in the sense of the public value that comes from it, from its 
dispersion is more important than the potential for nefarious 
use down the road. And the fact of the matter is, there's so 
much of this data out in the public domain now, that the 
ability to stop it at this point in time would be very 
difficult.
    That said, though, I know that all of our member 
governments treat this data very carefully, and it's--you know, 
the security that goes with all of those sorts of things, 
that's something we all take seriously to make sure it doesn't 
end up places we don't want it to. And we do have tracking 
systems that go through a process that tracks where this data 
is going.
    Mr. Navarro. That's a great question there. We've wrestled 
with that internally, officers at our command in that part from 
south central region that individually facilitate that within 
that office. We have a grant from Federal Government for 
planning for terrorist responses. We use a tremendous amount of 
GIS information and we share that with our partners. So we've 
been very careful, relative to those agreements within in our 
group on how the data is used and how it's shared. But the 
reality is some of that data is public data.
    I think, if we look at it as the data is a tool, which 
individuals can get access to, how we plan based on that data 
is really more sensitive to us, rather than just the data 
itself. It's the great thing about living in America, and the 
lousy thing about living here.
    Mr. Sapio. In my experience, I hear a lot about this, but I 
haven't run into any practical situations where it's been a 
problem for us in the Forest Service. The nature of collecting 
the data over remote forest areas, we're not collecting 
overseas. The data is commercially available, and it's 
available in the public domain. We're bound as federal 
employees to protect personal identifiable information, and 
trying to do so. So if there were a situation for that to 
arise, I would imagine we would find a way to work around it.
    Mr. Feeney. Mr. Chairman, I'm way over my time. But if I 
could just note that, again, technology is morally neutral, and 
a lot of it is already out there. But for example, somebody 
that wanted to do a lot of harm could look at the dryness 
patterns and which way a wildfire was likely to grow. Somebody 
would know where to drop most of the poison if they wanted to 
do harm. And you can go on the web site and punch in my address 
and get a 360 circular picture of my home and anybody that 
wants to break in a home. So it is scary. I don't know what the 
answer is, but I thought it was an important question.
    Chairman Udall. I think that's a very important question. I 
think it was an important discussion and we ought to continue 
it. And there's obviously more we need to understand.
    We're going to do a second round of questions, and I would 
like to come back to the four of you and ask you what 
opportunities you foresee for the expanded application of 
remote sensing to your work and what's needed to realize those 
opportunities. I know some of you have spoken about that with 
Landsat and other technologies, but please take--if you had a 
wand, what else would you like me to do?
    Mr. Byers. If I had a wand, I'd like to know what the snow 
pack is going to be next year this year. That is what I'd 
really like to know. And speaking of snow pack, some of the 
opportunity that we see is with our evaluation of the snow 
water equivalents and the distribution of snow pack in the 
State of Colorado.
    We have certainly--currently working on a snow program, 
which is a cooperative program with several federal entities as 
well as several entities within State government. And one of 
the things that we look at is trying to have a better--because 
that water supply is so important to us, as well as the rest of 
the west, is trying to look at how do we get a better handle on 
what's there and what kind of distribution, what kind of timing 
we'll have with respect to runoff. Of course, again, all of 
what has been discussed today is very important to the State. 
We've focused a little bit on water in the Subcommittee 
hearing, and we appreciate the opportunity to do that.
    Dr. Montagu. My crystal ball would have the tools and the 
processes in place to start to integrate a lot of this data 
together. We have collected a lot of stuff over many decades 
now that we typically tend to use for specific applications. 
But in reality, we can start to look at our urban and our rural 
environments much more holistically. We can start to blend some 
of these data sets together.
    Understanding the health of urban vegetation, for example, 
is very important for understanding the impacts of climate 
change and the likely heat effects that happen in urban 
environments. So being able to draw some of that information 
together with some of the long-range plans that we're producing 
will allow us to leverage this information much more 
efficiently going forward.
    Chairman Udall. Is that a function of software? Is it a 
function of the digital resources to bring those data sets in 
closer proximity.
    Dr. Montagu. I think it's a function of a whole range of 
things. One is starting to draw expertise together to say we 
need to look at this more closely. The other one is starting to 
rethink a little bit about how we use this data. So we put up 
these sensors for a specific purpose when, in fact, we could be 
saying we need to be more holistically looking at the number of 
different applications we can use it for.
    Mr. Navarro. You know, I was very interested in comments 
just made, because it's really the page that we're opening up 
recently in Washington, talking with some of the 
representatives from DHS from the standards and technology 
group and the data group.
    The fire service itself, I'm on an advisory committee, and 
we're trying to formulate a standard by which we produce this 
data and use this data. One of the conversations we had, 
relative to that, was what's the output? What is that going to 
look like? What's the utility of using that particular data? 
But on the long view of that, from my standpoint, from 
leadership in the fire service, is we have to start educating 
the fire service itself and the technology that's there and how 
that's going to be used. Bring it to that leadership, whether 
it's the city manager, or mayor, or local fire chief, how does 
that get used in a holistic fashion?
    That's going to be a very interesting migration as we go 
forward.
    Chairman Udall. Mr. Navarro, I'd like to pursue that more 
in commentary. As you know, I'm a homer. I talk a lot about 
what you all have done down here. At the risk of getting you in 
a little bit of trouble with your fellow fire chiefs, how many 
other departments, how many other urban areas, how many other 
cities are at the point you all are in using this data to 
prevent and then respond, hopefully not necessary, but if the 
case does arise.
    Mr. Navarro. None that I know of to the extent we're doing 
that. We had an IT section in my administration when I arrived 
here in '94, but we do have a very large group that's been 
formed of users. Chief Rector over in California, and the 
California Fire Service is very interested in accumulating this 
information, and how it's going to be leveraged on the other 
end of it. So we're starting to open up that page.
    We actually hosted a meeting there two weeks ago, of the 
practitioners, to try that standard process, and the advisory 
committee is looking at that right now. But we've got a ways to 
go. We've got to catch up with what DOD has been doing for 
years in terms of situations where--much the same, our warriors 
are in the field doing something a little bit different.
    Chairman Udall. I was on the Elk Meadow fire that same 
summer we had the Hayman fire. Supervisor Cables was there, Mr. 
Cables, and he said, Mark, the best analog here is to fight 
another war. This is a war-like environment, realtime 
situation. So your analogy, as well, makes real sense, Chief 
Navarro. So I'd like to get a breakdown of what you're doing.
    Mr. Navarro. I encourage you to do that as much as you can.
    Chairman Udall. Okay, thank you.
    Mr. Sapio.
    Mr. Sapio. With the temporal regulation groups, various 
commercial entities, we're likely to use the technology more 
and more, resolutions, temporal and spatial. If there were more 
preprocessed imagery routines available where features have 
already been extracted in the commercial sector, we're more 
likely to see casual users use LIDAR remote sensing imagery so 
they don't have to go through the training and the large amount 
of image prep necessary to extract information from the 
imagery.
    One thing that's particularly important to my group in the 
Forest Service is that if there were vegetation information 
available of the city, that would be extremely useful for us to 
model the risks of insects and diseases that could be 
introduced at those industries. So those are the things I can 
think of off the top of my head that would make remote sensing 
more useful to the Forest Service.
    Chairman Udall. Well, it's exciting to hear all those 
potential applications, obviously. We have a bit of homework 
and additional work to do, and other resources, and continue to 
work together, which is why I'm, to provides a lot of 
opportunity.
    The Chair recognizes the Ranking Member for another round 
of his questions.
    Mr. Feeney. Well, thanks. You know, Mr. Navarro, talking 
about the lead you have in using this technology, the--one of 
the aerial vehicles in California, Oregon and Washington, we 
have a series of serious fires, and it would help if I got a 
pinpoint accuracy in terms of what the direction of the fire 
was going. Obviously, this is valuable capabilities, even 
though you talk about firefighters having to make instant 
decisions and how accurate the information is.
    What organizations, nationally, can you use to share these 
capabilities, and not just in fire, but maybe Dr. Montagu or 
Mr. Byers, what organization in city and local governments are 
addressing this in your conferences or charters?
    Mr. Navarro. We actually are going to be on the docket for 
FRI here in Denver with--and I don't brag for myself. I'm 
probably the lead individual in GIS within our organization. 
And what we're able to do is we had some very expert technical 
advice, married with some operational folks. And as they sat 
down, they started a vision with what this technology can do. 
And that's how we've been able to launch some of that.
    That discussion is going to be taking place at FRI. We're 
looking at what that agenda might look like to be able to 
convince. Because when you're talking leadership, they're very 
pragmatic about things. They know what works and what doesn't 
work. They don't want to try anything that's not going to work 
for them. The obvious kind of thing is, as part of the papers, 
you know, we're impeded by 100 years of tradition. But the 
reality is, if it works, they're going to start using it. We 
have to show the utility of that information.
    If you provide a great deal of data that's not in a 
processed form, for someone trying to make discreet decisions 
very quickly, they're going to disregard it.
    It's got to come in a form that makes some sense to them. 
The reality is that that hasn't happened too often.
    California, I think, is a great example of what just 
occurred, because they were given a realtime situation like 
this. And I can't tell you how valuable it would be to have 
that base layer really knowing what was out there before, and 
then video from my global on what's happening on the ground, to 
be able to move resources around, be able to do the evacuations 
and do the other kinds of things.
    Those large fires cannot be managed. They are going to burn 
until the weather stops. That's one of the problems for 
firefighters that's interesting. We are subject to some 
horrific fire behavior in this State if we don't do something 
about that. On the response side of that, we can provide some 
safety for those individuals that are going to be doing that, 
in terms of either evacuation or real response. So I hope that 
answers your question.
    Dr. Montagu. The key point to make about DRCOG is, you 
know, we are a long-range planning agency, so we don't 
typically deal with tactical short-term stuff. The need for 
realtime information is not as critical, at least in the land 
use. I'll address the transportation side in a little bit.
    But one of the concrete examples I can come to is the LIDAR 
that we are collecting at the moment for the Democratic 
National Convention is being used by the NGA in a tactical 
response. So they want to know all of the planning that goes 
with the security around the convention. But that information, 
when it flows back to us, we can start to create these three-
dimensional models of the city.
    One of the things that a lot of people struggle with is 
trying to imagine what something will look like 30 years from 
now. So being able to take that data and combine with the 
software that we have and create a vision of what the future 
might look like is very important to them.
    Mr. Feeney. Well, it's interesting you say that, because 
while we don't have a model of geospatial imaging, we do have a 
national model for simulation. We make everything from Tiger 
Woods golf to football. My nine-year-old tested it the other 
day, and I was sworn to secrecy about what was in it. We have 
all five branches of the military. We create the software 
there, and one of the things we have to put together here is 
the geospatial stuff. It's a great history of what's happening 
now.
    What simulation can do is tell us what's going to happen 
next, and can train people, you know. You could run a wildfire 
in the offices in front of computers and test every commander 
in Colorado based on his or her behavior and get a very good 
picture of that wildfire many times before you actually had to 
fight it. And every one of them would be an A plus student by 
the time you actually have a real fire. It's an interesting 
possibility.
    I have no further questions. Thank you.
    Chairman Udall. I'm going to hold a third round with a 
focus on--Mr. Feeney has questions, do it in 10 minutes, and we 
have paneled the next people. But if I might have each one of 
you talk to what you think the most important role for the 
Federal Government is in facilitating the use of remote sensing 
data to support both public- and private-sector activities in 
the war-fighting campaign.
    Mr. Byers. First of all, give me a chance to really think 
my thoughts through.
    Chairman Udall. The next panel I'll alternate. I learn as I 
go.
    Mr. Byers. With respect to the Federal Government, I think 
that when these issues are beyond an individual State's 
borders, when they are, in fact, for the public good, that 
that's where the Federal Government comes in and has a role in 
coordinating the acquisition of the data, trying to work with 
how to utilize the data, and I think even through the education 
and exposure of various tools, of how to use and how to 
integrate some of that data. So I think that when it's the 
overall public good, that's where the Federal Government comes 
in.
    When I think of it from a more local perspective, 
obviously, to use that same role would be that the State has a 
responsibility, particularly in its region or, for example, 
with us for the Western States Water Council, or a particular 
technical area, whether it is in the dam safety arena, whether 
it's in the forestry arena or whatever, to be able to be a 
facilitator and focus for getting some of that coordination 
between the Federal Government and the local and the hands-on 
practitioner.
    But I think there's a variety of roles as a collaborative 
effort, a cooperative effort, and we have to continue to 
stretch each other's comfort so that we are pushing the 
envelope. And maybe that's the best scenario when I talk about 
this being, you know, kind of space. We do need to continue to 
stretch that envelope and go to new frontiers.
    Dr. Montagu. I come back to the comments that I made in my 
testimony. It really is about leadership. The Federal 
Government has led this industry for a long period of time. And 
thinking of it from the point of view of a local government and 
a regional government, the cost not only of the direct 
acquisition, but also all of the R&D that goes in behind that 
is something that only the Federal Government is really 
resourced to do.
    And, you know, Mr. Byers' comment about the expanse, the 
fact that this is broad acre stuff that we're talking about 
here, so it transcends local, regional, even State boundaries. 
So to have the federal involvement and leadership on that front 
is vitally important.
    I think that the leadership on the distribution side, the 
models that the Federal Government is coming up with now to 
push the stuff out to people is very important. Again, we're 
talking about terabytes and terabytes of information that none 
of us locally can afford to store. And so to have those 
resources distributed across the country and being able to tap 
into those is vitally important for us.
    Chairman Udall. Chief.
    Mr. Navarro. The lead agencies, in my estimation, on the 
federal side for some of the work that we do is DHS, FEMA and 
National Fire Administration. And for years we really didn't 
have that support, that a disaster or a local emergency 
basically was a local emergency, and at some point it morphed 
into this other thing.
    I think back to the '60s when I started, and we had actual 
civil defense folks working in fire service because we had a 
national emergency because we thought we were going to get 
nuked at some point. That went away. Now we have a national 
threat again.
    I think that we can partner with DHS, with FEMA, and with 
the National Fire Administration to alleviate some of the 
issues we had in terms of response mitigation at a local level, 
but also migrate that to the larger level. Because it starts 
here and it goes to there.
    We don't have the resources at a local level to be able to 
do this, whether it's the staff, the technology, whether it's 
the process piece of it and integrating it into what we do. And 
I think we need to see the leads coming from the feds to help 
us with that. But we have a common purpose relative to those 
types of responses. DHS and FEMA do come in. The reality that 
they're going to be interfacing with the locals, they need to 
have situational analysis that we should be able to provide, 
and vice versa.
    Chairman Udall. Mr. Sapio.
    Mr. Sapio. There are four things that come to mind that all 
would be done under the umbrella of both partnership with other 
agencies and commercial entities in remote sensing. One that's 
very important is a provision of imagery and its distribution, 
which you've heard already. The provision of extracted 
information from imagery, like fuel loadings and pest risk. 
Thirdly, the provision of new analytical techniques. This would 
be particularly useful for local assessments, if we learn how 
to produce some extraction for a particular risk factor that's 
useful locally. And fourth, the provision of models that 
project future resource conditions, and this would be 
particularly useful for planning.
    Chairman Udall. Thank you. I note that all of you, in a 
sense, have talked to the opportunity here for two-fers or 
three-fers. And Chief, you talked about the civil defense needs 
in the '60s. And now, in a sense, history is repeating itself 
with a different kind of enemy. And then the role FEMA plays in 
their own like self-interest, and having the data they need 
when they're called to be on the ground. I know, Florida, 
Colorado, Mr. Feeney mentioned, have some similar challenges 
that Mother Nature presents, and the severity and the intensity 
which they can arrive.
    But I think both, at the time, are partnered by setting 
aside what happened in New Orleans, that FEMA has begun to do a 
more preventative analysis, and preventative investments, and 
it seems like a very smart way to use federal dollars, as well 
as to draw in the local responders.
    Mr. Feeney.
    Mr. Feeney. I've enjoyed all of the witnesses. I appreciate 
your testimony, and your advice. Thanks for having me today.
    Chairman Udall. Thank you for being here.
    We'll take a couple of minutes, and the next panel will 
join us, and we look forward to their testimony. I know you all 
would be willing to answer questions for the record if we give 
them to you. Thank you.
    [recess.]

                                Panel 2:

    Chairman Udall. The hearing will return to order. We have a 
wonderful, fascinating, erudite second round of witnesses, and 
I'd like to take a moment to introduce this second panel.
    Kevin Little, he's the Director for Business Development 
for Intermap Technologies. To his left, Matt O'Connell who's 
the President and Chief Executive Officer of GeoEye. And we 
also have with us Jill Smith, who's the President and CEO of 
DigitalGlobe, Inc.
    Again, I want to welcome each of you, and we'll dive right 
in and start with Mr. Little and his testimony.

      STATEMENT OF MR. KEVIN LITTLE, DIRECTOR OF BUSINESS 
            DEVELOPMENT, INTERMAP TECHNOLOGIES, INC.

    Mr. Little. Thank you very much, Mr. Chairman. We 
appreciate the opportunity to participate with you and your 
committee. I thought I would do a few visuals. I'd like to talk 
a little bit about what the applications really are from a 
real-world standpoint. What we have over here on the poster 
board, everyone has been referencing the Hayman fire. With this 
particular, the red is the color of infrared. False color can 
spot image.
    And I'm sorry, we've got this thing going in the 
background. I wish we had more screens. Actually, the poster is 
what I'm referencing. It's actually an image of the Hayman 
fire. It's a 170,000 acre area. The technology that's the base 
layer does the slope aspect of the actual digital elevation 
while the wildfire is actually burning. That particular 
technology can actually see through the smoke cover.
    We had to do the spot collection after the fact a few weeks 
after the rain had put the fire out. And we discriminate on the 
red there. The area that's red is the healthy vegetation. The 
other part, of course, is the burned area on the right side. 
And at the bottom, we were able to do a sloping aspect. And 
with that we were able to figure the mud slide, those sorts of 
things, vegetation burned, et cetera.
    As mentioned, I am Kevin Little with Intermap based here in 
Denver. Do you want to fire up that other one, please?
    Yeah, let's do this one. This is actually Yosemite, high-
resolution elevation. I think this is actually DigitalGlobe 
imagery draped over the top. And what this is, we actually have 
a positional accuracy of X, Y and Z with this image, that 
actually you can use this in a handheld device. It's all 
commercial. It's all very user-friendly. We wanted to use this 
one because we know how you have probably climbed that in the 
past several times.
    Chairman Udall. I have. Don't hold it against me. I did 
kill a lot of brain cells on the mountains.
    Mr. Little. Perfect. Scott, if you want to kill that one. 
Another one I want to know is on this poster over here, the 
NEXTMap Britain poster, if you could. From an application 
standpoint, collecting commercially throughout the whole 
country.
    This is all in Scotland. It's cloud free. That's an 
initiative right now collecting all over the U.S., which we're 
at about 65 percent of that whole collection right now with 
this same level of accuracy.
    What we're showing is, we're utilizing very substantial 
benefit. It's not just one specific technology. And if there's 
one thing I could leave you folks with today is the idea that 
applications that are fit for purpose. It's not technology 
specific. It's more application specific. There are actually 
areas where you need to have high-definition satellite imagery. 
For instance, in doing city centers, doing ports, doing choke 
points on borders, those sorts of things. Having that revisit 
with a high-resolution commercial satellite system is a 
wonderful thing.
    Some of you heard people talk about the LIDAR application 
today. LIDAR is a very wonderful technology more designed for 
smaller areas. So we're looking for, perhaps, coastal areas, 
sometimes city centers and other flood areas. The radar 
technology that's been used in the past, which is what Intermap 
utilizes, is good for broad area collection of high-resolution 
digital elevation models, if you will.
    If we could look at Merrill Pass, Alaska. This is actually 
a program that was done in conjunction with Space Imaging back 
in the important part of GeoEye. So the high-resolution imagery 
is the Space Imaging stuff. The terrain is the Intermap. This 
is in conjunction with FAA and with NASA. This Merrill Pass, 
Alaska area, people take off out of this airport, fly into this 
area. They get stuck in the fog and they run into the 
mountains.
    So what we're able to do here with my handheld GPS, in a 
position where we are in relationship to the terrain. So once 
again, this is a combined product, if you will, with some real-
world applications. We know within a meter, plus or minus on 
the X and Y, about one meter on the Z of the altitude where 
we're at in conjunction with this line. And the line that was 
drawn, this particular day, was going to be the wind's best 
approach through this valley.
    Chairman Udall. Where is that valley, just out of 
curiosity?
    Mr. Little. Merrill Pass is just due west of Anchorage. You 
take off from Anchorage International. They actually fly 
through this pass to get on the other side of the range. And 
some of these mountain tops are 14 to 20,000 feet tall. You 
have a little trouble getting through this area. It's not so 
bad in Florida. We could do a flight with this in Florida with 
no problem.
    Next one I want to show here, Kevin if you don't mind 
showing, this is actually the coast area, the border area on 
the left, shuttle radar coastal imagery. California is on the 
north. The red line is the Mexican border. And Mexico, of 
course, is on the south. And what we have is on the right side 
is a one contiguous data set of the--it's 1.25 meter pixel of 
one meter on the Z, showing the applications for--this is to 
indicate the northbound. It's the Mexican border. We can do the 
Canadian border also.
    I'm sorry, my red light came on.
    Chairman Udall. Why don't we leave it there, and we'll come 
back in plenty of time for other questions and you'll all have 
a chance to make more comments.
    [The prepared statement of Mr. Little follows:]
                   Prepared Statement of Kevin Little
    Mr. Chairman and Members of the Subcommittee on Space and 
Aeronautics, Intermap appreciates the opportunity to testify before you 
today on: Remote Sensing Data: Application and Benefits.
    Our CEO, Brian Bullock, extends his regrets in that he cannot 
attend this session, but wishes to convey his appreciation for the 
invitation to testify.
    I am Kevin Little, Director of Strategic Business Development and 
Government Relations for Intermap Federal Services Inc., a Colorado 
company, and Director of Business Development for Intermap 
Technologies, Inc., both of which are headquartered in Englewood, 
Colorado.
    Intermap is a remote sensing firm that creates and sells digital 
elevation models (DEMs) and value-added mapping products derived from 
our proprietary airborne Interferometric Synthetic Aperture Radar 
(IFSAR). Intermap operates its IFSAR systems throughout the world for 
various domestic and international customers, including the U.S. 
Government's defense and intelligence interests.
    Intermap Technologies Inc. is a commercial, publicly traded remote 
sensing company with its global headquarters in Englewood, Colorado, 
with international offices in Europe, Asia, and Canada.
    Intermap currently employs approximately 145 people in our Denver 
office and continues to increase the number of this high-tech 
workforce. Our total number of global employees exceeds 650 and also 
continues to grow.
    Intermap Technologies was one of the first remote sensing companies 
to realize the value of collecting and archiving geospatial data for 
large geographies, and the first and only to collect country-wide 
elevation data on a global scale.

1)  Please describe the ways that remote sensing data can assist public 
and private sector users in Colorado and provide benefits to State and 
local governments.

    In the broadest sense, remote sensing is the acquisition of 
information of an object or phenomenon, by the use of either recording 
or real-time sensing devices that are not in physical or intimate 
contact with the object (such as aircraft, spacecraft, satellite, ship, 
buoy, or in-situ).
    Intermap's technology is airborne specific and we work in a very 
complementary and synergistic manner with the commercial satellite 
companies. Satellite systems are easily deployed in areas where access 
is denied to commercial aircraft; however, technical capabilities allow 
IFSAR to be used in areas of extreme cloud cover and are able to 
accomplish their collection mission even at night.
    Though the technology behind the manner in which satellites and 
airborne remote sensing companies gather their data are very dissimilar 
the ``fused'' product generated by orthorectifying satellite imagery 
with IFSAR DEMs produces a product unparalleled in its usefulness to 
the end-user, both civilian and defense related.
    Remote sensing and the technology that is fit for purpose allows 
for the most rapid and accurate terrain mapping for country-sized 
areas. (See poster: NEXTMap Britain) Utilization of these combined 
technologies provide substantial benefit for a wide range of real-world 
applications that may utilize the data for not only x and y position 
coordinates, but for the z--or elevation--coordinates as well.
    Specific to the question of ways that remote sensing data can 
assist public and private sector users in Colorado and provide benefits 
to State and local governments, we offer the following real-world 
application:

The Hayman Fire Area: (See Poster)

    The Hayman Fire in June, 2002, was the largest in Colorado's 
recorded history, destroying over 600 structures and burning 137,000 
acres. Soon after containment of the fire, Intermap Technologies, in 
collaboration with Space Imaging (now GeoEye) and USGS, acquired IFSAR 
elevation data and radar intensity imagery of 22 7.5' quadrangles 
encompassing the Hayman Fire burn and surrounding areas while the fire 
was still active.
    Intermap collected and provided reflective surface and bald-earth 
IFSAR DEM and Digital Orthophoto Quadrangle (DOQ) radar magnitude image 
data using single-pass X-band IFSAR for the Morrison and Cheesman Lake 
Quadrangles.
    The USGS Rocky Mountain Mapping Center made the Intermap IFSAR data 
available to federal, State, and local agencies for use in post-fire 
recovery, remediation planning, and training.
    Subsequent to the delivery of elevation and imagery data by 
Intermap, the USGS Rocky Mountain Mapping Center held workshops for 
stakeholders and users to illustrate the applications of the data sets.
    Individuals representing 14 federal, State, and local agencies with 
interests in the Front Range and the Hayman Fire area attended these 
workshops.

The Hayman Fire Area: Flood Plain Mapping

    USGS Rocky Mountain Geographic Science Center, used the IFSAR data 
set to update the South Platte 100-Year Flood Plain Maps. ``The Hayman 
Post Hazard Mitigation Maps'' were produced for FEMA for flood risk 
assessment purposes. The revised 100-Year Flood Plain of the South 
Platte takes into account the Hayman Wildfire incident, and assumes 
worst-case scenarios (lakes at full capacity level). These maps were 
also distributed to the Colorado Water Board and local county managers.

Alaska Aviation Safety Project (see Merrill Pass, AK fly-through video)

    Another effort that combined commercial and government expertise to 
satisfy a real-world issue was the Alaska Aviation Safety Project 
(AASP), which moved from developmental stage to public participation. 
The Alaska Department of Military & Veterans Affairs (DMVA), NASA, the 
FAA, Anchorage-based E-Terra LLC, and Colorado-based Space Imaging and 
Intermap Technologies joined forces to provide Alaska aviators with the 
latest technology in flight simulation using Alaska's unique and 
challenging terrain. The program was designed to help lower the number 
of aircraft accidents in Alaska.

Address Specific Flood Risk Assessment: (see PowerPoint slides)

    With the use of various remote sensing products including elevation 
data and aerial imagery, as well as utilization of existing building 
models, vector data and a proprietary storm-surge algorithm, individual 
buildings in the Commercial Business District of Miami, Florida were 
modeled on an address-specific basis.
    The storm surge algorithm mimicked a Katrina-like event, with a 
three-meter storm surge with the duration of approximately three hours.

2)  What role can remote sensing data play in homeland security and 
national defense?

Homeland Security & National Defense--

    With the increasing awareness of Homeland Security issues, agencies 
that control and manage border areas, critical infrastructure, 
coastlines, and transportation ``choke-points'' are in need of an 
accurate, consistent topographic base map and corresponding high-
resolution images.
    The current maps and imagery available to agencies concerned about 
Homeland Security issues do not provide an appropriate level of 
situational awareness for policy development, planning, operational 
organization, and action.
    Security decisions need to be made with the most accurate and 
current information available.
    Among other considerations, IFSAR allows for better terrain mapping 
that leads to a greater knowledge and capabilities for all areas of 
mid-continent, coastal, and border areas of the United States, and has 
a unique value to Department of Homeland Security, State, county, and 
local authorities. Intermap is currently partnered on the Secure Border 
Initiative (SBI), a comprehensive multi-year plan to secure America's 
borders. (See poster: Comparison of Digital Surface Models)
    High-resolution terrain data allows for better understanding of 
homeland security defense and planning measures (especially in rugged 
terrain areas that exist in states like Colorado and along the border 
areas), and provides a better visualization of all airport and military 
installation terrain issues. Following a calamitous event, whether a 
natural disaster or otherwise, commercial remote sensing assets can be 
tasked to evaluate an area and provide information concerning details 
of the event, magnitude of the event, evacuation planning, and plume 
drift and provide change detection. The responsiveness of these 
commercial assets was well proven following the Aceh Tsunami and 
Hurricane Katrina.
    These remote sensing data sets are extremely synergistic and 
complementary.

3)  What are the main impediments to the effective use of commercial 
remote sensing data for public sector application and what would you 
recommend be done?

    The U.S. DOD has done an excellent job of tapping the commercial 
market to take advantage of technology advances, free market pricing 
and other similar opportunities. Commercial purchases afford the 
government better products at more competitive pricing. This is a win-
win for the government and for the private sector, both contractors and 
end-users of the data.
    FEMA has entered the final year of Congressionally appropriated 
funding of the Flood Map Modernization Program. Upon completion, map 
modernization will provide reliable digital flood hazard data and maps 
for 92 percent of the Nation's population, and easy access and sharing 
of that information.
    In order to leverage the successes of map modernization and further 
enhance the usability and value of flood hazard mapping, FEMA has 
developed the Risk MAP strategy, which combines flood hazard mapping, 
risk assessment tools, and mitigation planning into one seamless 
program. The intent of this integrated program is to encourage 
beneficial partnerships and innovative uses of flood hazard and risk 
assessment data in order to maximize flood loss reduction.
    FEMA, which has undertaken the extremely daunting task of remapping 
the United States for these applications, is extremely short on 
resources and funding.
    Wherever possible, government agencies should couple their programs 
with other existing programs that are currently being undertaken and 
have shared goals, allowing them to satisfy their requirements and 
accomplish their mission.
    It is important that the commercial sector be allowed to drive the 
technology in a manner in which all government entities may take 
advantage of these advances.
    The entire map modernization program needs to embrace many remote 
sensing technologies that have a reasonable currency, meet a minimum 
specification or standard and are fit for purpose for applications.
    These technologies include satellite and aerial photography as 
appropriate for cities, ports, urban change detection, and border 
choke-points, LIDAR for at-risk coastal areas and city centers, and 
IFSAR for large area collection.
    Thank you for your time and consideration.
    I am happy to address any questions the Subcommittee or guests may 
have.

                       Biography for Kevin Little
    Kevin Little is Director of Business Development for Intermap 
Technologies, Inc. Intermap delivers high-accuracy digital 3D terrain 
data and related mapping products derived from interferometric 
synthetic aperture radar (IFSAR) (X- and P-bands) mapping systems to a 
variety of international customers.
    At Intermap, Little is responsible for building relationships with 
new business partners on an international basis and the development of 
value-added businesses with Intermap's present customers. Little also 
supports sales of products and services to markets that include the 
Department of Defense and other government agencies, as well as 
aerospace, air navigation, aviation/simulation, insurance, intelligent 
transportation systems and other vertical markets.
    Since 1991, Little's experience in the aerospace and remote sensing 
industry has included delivering solutions using multi-spectral, 
hyperspectral, radar and LIDAR data from spaceborne and airborne remote 
sensing systems. Little's broad experience extends to derived 
geophysical data products, data distribution and handling systems and 
decision support tools.
    While serving in various executive-level positions in more 
traditional industries, as well as geospatial information technology 
companies, Little has been responsible for program management, business 
development, marketing and sales, government relations and corporate 
management on an international level.
    Prior to joining Intermap, Little was employed at DigitalGlobe--
purveyor of the highest resolution satellite imagery in the world--
during the preparation and launch of its QuickBird 1 and QuickBird 2 
satellites.
    Prior to joining DigitalGlobe, Little worked for the Boeing Company 
on their start-up, RESOURCE21 program and was involved with development 
of its four-satellite optical array being developed for global Earth 
observation.

    Chairman Udall. Mr. O'Connell, the floor is yours.

  STATEMENT OF MR. MATTHEW M. O'CONNELL, PRESIDENT AND CHIEF 
                EXECUTIVE OFFICER, GEOEYE, INC.

    Mr. O'Connell. It's a great honor to talk to you all about 
what GeoEye does to support the State and local governments, 
the defense and Intel community, the warfighters, and still 
provide value to our international and commercial customers. 
GeoEye is the leading provider of geospatial information, 
imagery and solutions. We help our strategic partners and 
commercial partners. We help them to better map, measure and 
monitor the world.
    We have a constellation of Earth imaging satellites, and 
two mapping aircraft. Our constellation includes the .8-meter 
resolution IKONOS satellite, and our new satellite, GeoEye-1, 
which we will launch from Vandenberg Air Force Base later this 
summer. It will be the world's highest resolution and most 
accurate commercial imagery satellite, imaging the world at .41 
meters in color. And we will also have an international network 
of ground stations, a robust imagery archive, and an advanced 
geospatial imaging processing capability that's really the 
center of innovation.
    GeoEye's imagery products serve the growing national and 
international demand of highly-detailed imagery in applications 
such as mapping, national security, homeland defense, emergency 
preparedness, urban planning, environmental monitoring, 
resource management and commercial fishery. In addition to 
operating imaging satellites, GeoEye's a worldwide leader in 
advanced image processing and photogrammetry. We produce a 
broad spectrum of imagery products from a wide variety of 
satellite and airborne sensors, both our own and other 
people's. We also create fused images, digital elevation models 
and land-use classification maps, and other image-derived 
products that help our clients to incorporate valuable 
information into any geospatial applications. We are a 
financially healthy and viable company, publicly traded on the 
NASDAQ, and our revenues are growing.
    The remote sensing industry is not only strong and growing, 
we also play a critical role in supporting both national 
security and commercial applications. Many people on Capitol 
Hill realize that imagery from the commercial sector is the 
most cost-effective solution for the Nation's mapping needs, 
and that the taxpayer benefits when the U.S. Government buys 
imagery from the commercial sector.
    Here's how it works. We make about 50 percent of our 
revenues from international and commercial customers. Those 
revenues provide a significant offset every time the U.S. 
Government buys imagery from the commercial sector.
    As a result, it's a better deal for the taxpayer.
    If the government builds its own imaging system, the 
taxpayer pays 100 cents on the dollar (possibly more when you 
consider the cost overruns of some recent programs). You could 
even say that we are subsidizing the U.S. Government because we 
provide needed imagery and services at lower costs than if the 
government attempted to perform the function in-house.
    So by supporting the commercial industry, the U.S. 
Government receives several benefits. Our technology helps 
protect American lives. In addition, the technology to build 
our satellites can't be exported. It's located in states like 
Florida and Colorado. So when the U.S. Government buys imagery 
and products from the commercial sector, it is protecting the 
American industrial base.
    You could say, in short, that by buying imagery from the 
commercial industry, the U.S. Government protects American jobs 
and protects American security at 50 cents on the dollar.
    Through this partnership, the U.S. obtains technical 
leadership, which results in allies seeking our assistance 
instead of developing their own capabilities. Current U.S. 
policy encourages a robust commercial imagery segment, global 
leadership, and reliance on commercial imagery services, while 
discouraging the government competition with the private 
sector.
    The commercial remote sensing industry fulfills the 
Department of Defense and the Intel community with mapping, 
charting and geodesy requirements at a fraction of the cost of 
national systems. That's why we believe that the industry 
provides the best value for the government's broad area 
collection requirements while still meeting the needs of our 
commercial and international customers.
    Mr. Chairman, thank you for your leadership and for your 
commitment to the remote sensing industry. Our American 
workforce, coupled with leading-edge American technologies is 
going to continue to play a significant role in national 
security while creating new jobs and providing value to our 
international and commercial customers.
    Chairman Udall. Thank you.
    [The prepared statement of Mr. O'Connell follows:]

               Prepared Statement of Matthew M. O'Connell

    Good morning Mr. Chairman, Ranking Member Feeney, and Members of 
the Subcommittee on Space and Aeronautics. Thank you for inviting me to 
participate in today's hearing. It's a great honor for me to share with 
you how GeoEye supports the State and local governments, the 
intelligence community and the warfighters, while providing value to 
our commercial customers.
    GeoEye is a leading provider of geospatial information, imagery and 
solutions for the national security community, strategic partners, and 
commercial customers. We help them to better map, measure and monitor 
the world. GeoEye owns and operates a constellation of Earth imaging 
satellites and two mapping aircraft. Our constellation includes the 
one-meter resolution IKONOS satellite, and our new satellite, GeoEye-1, 
which we will launch from Vandenberg Air Force Base this summer. It 
will be the world's highest resolution and most accurate commercial 
imagery satellite, imaging the Earth with a ground resolution of 0.41 
meters or about 16 inches, and will be able to produce those images in 
color. In addition, we have an international network of ground 
stations, a robust imagery archive, and advanced geospatial imagery 
processing capabilities.
    GeoEye imagery products serve the growing national and 
international demand for highly-detailed imagery in applications such 
as mapping, national security, homeland defense, emergency 
preparedness, environmental monitoring, urban planning, resource 
management and commercial fishery. In addition to operating imaging 
satellites, GeoEye is a world-wide leader in advanced image processing 
and photogrammetry. We produce a broad spectrum of imagery products 
from a wide variety of satellite and airborne sensors both owned by 
GeoEye and those of our customers. We also create fused images, digital 
elevation models and land-use classification maps, and other image-
derived products that enable our clients to incorporate imagery into 
virtually any geospatial application. We are a financially healthy and 
viable company, publicly traded on the NASDAQ and our revenues continue 
to grow.
    The American remote sensing industry is not only strong and 
growing, we also play a critical role in supporting both national 
security requirements and commercial applications. Many on Capitol Hill 
realize that imagery from the commercial sector is the most cost-
effective mapping solution for the U.S. Government and the taxpayer 
benefits. Here's how it works: we make about 50 percent of our revenues 
from international and commercial customers--so those revenues provide 
a significant offset in the overall price the U.S. Government pays for 
imagery and services. Consequently, it is a better deal for the 
taxpayer. If the government builds its own imaging systems, the 
taxpayer pays 100 cents on the dollar (possibly more when you consider 
the cost overruns of some recent programs.) You could even say that we 
are subsidizing the U.S. Government, because we provide needed imagery 
and services at lower costs than if the government attempted to perform 
the function in-house.
    By supporting the commercial industry, the U.S. Government receives 
several benefits. Our technology helps protect American security. In 
addition, the technology to build our satellites cannot be exported. 
Therefore, when the U.S. Government buys imagery products and services 
from us, it is also protecting the American industrial base. In short, 
by doing business with us, the government protects American jobs and 
American security at fifty cents on the dollar. It is through this 
partnership that the U.S. retains technical leadership which results in 
allies seeking our assistance instead of developing their own competing 
capabilities.
    Current U.S. policy encourages a robust commercial imagery segment, 
global leadership, and reliance on commercial imagery services, while 
discouraging government competition with the private sector. The 
commercial remote sensing industry fulfills the Department of Defense 
(DOD) and the Intelligence Community's (IC) mapping, charting, and 
geodesy requirements at a fraction of the cost of national systems. We 
believe that the industry provides best value for the government's 
broad area collect mission, while meeting the needs of the user 
community.
    Mr. Chairman, thank you for your leadership and commitment to 
keeping the American commercial remote sensing industry strong and 
vibrant. Our American workforce coupled with leading-edge American-
developed technologies will continue to play a significant role in 
national security while providing value to our international and 
commercial customers. I look forward to your questions.

Testimony Submitted for the Record

    There are multiple uses for commercial remote sensing data-to 
include providing assistance to public and private entities. You may be 
interested to know that we have almost a dozen partners in Colorado. 
The combined revenues of these companies exceed $20 million, and they 
support hundreds of employees in the commercial remote sensing 
industry.
    While we do sell to the U.S. Government, we also established the 
GeoEye Foundation which gives imagery grants to geospatial students and 
researchers. The GeoEye Foundation's mission is to foster the growth of 
the next generation of geospatial technology professionals. The 
Foundation gives satellite imagery to students and faculty at select 
educational institutions to advance research in geographic information 
systems. To date, the Foundation has provided imagery at no cost to 
support land use studies over Mexico, polar ice studies in the 
Antarctic, and city planning studies over Jerusalem. The Foundation has 
also made grants to almost two dozen educational institutions and other 
non-profit organizations which include the University of Denver, Denver 
Metropolitan State University, the Plains Conservation Center in 
Aurora, Colorado, and the Mountain Studies Institute.
    The Plains Conservation Center had a project aimed at prairie 
conservation; in particular, it focused on rattlesnakes. The Center 
surgically implanted radio transmitters into several female and male 
rattlesnakes over two years, and outfitted with a radio receiver, 
directional antenna, and GPS receiver, and tracked these snakes from 
spring to fall each year with the help of trained volunteers. 
Information about the micro-habitat environment of each snake's tracked 
location, as well as natural history data was collected. While the 
Center learned much about rattlesnake movements, it did still needed to 
see the snakes' movements visually using aerial views of the study 
site. This is where we came in.
    The GeoEye Foundation offered a sharp, up-to-date satellite image 
of the study site to the Center without charge. From the satellite 
imagery, the Center could clearly see routes the snakes traveled in 
relation to specific vegetation types, geologic formations, and man-
made structures. The image enabled the Center to compare snake 
movements relative to prairie dog colonies, and by overlaying the image 
with snake home range polygons, see the degree of overlap between 
snakes of both sexes. In addition, the Center was able to provide 
information to concerned groups as to where snakes traveled and suggest 
ways that people might dissuade snakes from entering their property. 
Naturalists at the Plains Conservation Center have used the image when 
speaking to school groups and visitors about prairie conservation and 
the role of rattlesnakes in the natural environment. We hope to see 
this research published in a journal soon.
    You will be pleased to know that the Foundation has supported other 
Colorado-based requests including: the Mountain Studies Institute which 
requested of the San Juan Mountains in Southwest Colorado to research 
the impact of airborne mercury contamination in high elevation 
ecosystems; the University of Denver request for the Luang Prabang 
World Heritage Site preservation in Lao, and the Denver Metropolitan 
State University which requested imagery to study the impact of pine 
beetle infestation in and around a few Colorado ski areas.
    Additionally, GeoEye does business with Colorado entities through 
reseller or partnership agreements with other companies. For example, 
last year, the City of Fort Collins purchased GeoEye imagery though one 
of our partners, Walsh Environmental Scientists & Engineers, to analyze 
prairie dog habitats and the impact on the local community.
    Finally, GeoEye was glad to support to the Boulder County Sheriff's 
Office when it called requesting assistance in a missing person's case 
last fall. We acted quickly and turned over several images of the areas 
in question from our archives. The incident was resolved, the person 
found alive, and we were happy to assist.

How commercial remote sensing data supports homeland security and 
national security?

    GeoEye supports our warfighters, intelligence community, and first 
responders 24 hours a day seven days a week. Our constellation of 
satellites helps to create a more robust National constellation, 
providing for revisit, assured access, redundancy and surge. Our 
satellites provide unclassified imagery and derived products that are 
easily used and shared by warfighters and allied/coalition partners. 
The GeoEye systems architecture supports direct down-link and tasking--
with access to imagery in minutes. GeoEye provides the National 
Geospatial Intelligence Agency (NGA) imagery through the ``NEXTVIEW'' 
contract. It is also through this contract that NGA provided 50 percent 
funding for our satellite, GeoEye-1, which we will be launching later 
this summer.
    The commercial remote sensing industry provides real value to the 
U.S. taxpayers because the government only pays for the capacity it 
needs. At the same time, the government benefits from access, revisit, 
and redundancy of the entire constellation. Our private financing 
enables more satellites and capabilities for the same tax dollars 
because the commercial segment absorbs percentage of the costs. GeoEye 
provides the government with a low financial risk because we bear the 
risk and the government only pays for data that is delivered. In order 
to serve our intelligence community, GeoEye has a secure facility in 
St. Louis, Missouri that provides provide high-quality image processing 
services based on the world's most advanced digital processing 
techniques. With more than two decades of image-processing experience, 
our remote sensing professionals develop, provide and deliver both 
radiometric and geometric image processing services. We process images 
from a variety of data sources including our own IKONOS and OrbView-2, 
as well as and high-altitude and low-altitude aerial imaging systems, 
Quickbird, Landsat, SPOT and IRS satellite imagery. Our processing 
services include radiometric balancing, geopositioning, digital 
elevation data production, orthorectification and mosaicking, and land-
use and land-cover classification.
    During Hurricane Katrina, we ceased taking imagery for our 
commercial customers to focus solely on the devastation in New Orleans 
and the Gulf area. We were moving so much imagery that our usual 
connection to NGA was stretched to capacity. The Department of Homeland 
Security (DHS) asked us to set up a separate down-link just for them, 
which we did immediately. Through this communications pipe, we sent DHS 
our entire collection of imagery of these areas. This imagery was 
shared with Federal Emergency Management Agency (FEMA), the military 
and National Guard, State and local officials. Because our imagery is 
unclassified, it was shared immediately as soon as it downloaded from 
the satellite.

What are the main impediments to more effective use of commercial 
remote sensing data for public sector applications? Our 
recommendations?

    Commercial remote sensing data is making serious gains beyond the 
traditional national security requirements and other users. With the 
global Internet-use explosion, interest in Yahoo Maps, Google Earth, 
and Microsoft Virtual Earth has also skyrocketed. No longer must one be 
an imagery analyst to appreciate the multiple uses of commercial 
imager. One could say that the Internet has turned million of consumers 
into novice imagery analysts. I would also like to remind the 
Subcommittee that the imagery we sell to the on-line search engines are 
from our archives, and not new imagery.
    Ours is a unique industry. Only we can claim that our satellites 
have a short time to market (typically only three years), when coupled 
with low risk acquisition approach that locks down design requirements 
and does not permit engineering change proposals (such as non-
reoccurring engineering costs)--these factors contribute to holding 
costs down while providing value to the government and the taxpayers.
    We believe that it is imperative that the U.S. Government allows 
the American commercial remote sensing industry to continue to be the 
best in the world. Foreign competition is nipping at our heels. It is 
critical that the government removes the handcuffs so we can continue 
to lead, not follow, the commercial remote sensing industry. A review 
of the current resolution policy of .51 meters would be an excellent 
starting point.
    As you may know, GeoEye-1 will collect at .41 meters, but because 
of U.S. policy, we must decrease the resolution and sell it to our 
international and commercial partners at .50 meters. Meanwhile, other 
countries are moving quickly ahead to build next-generation capability 
that will eventually best this figure. In order for our industry to 
continue what we do best--provide fast, unclassified down-links, we 
need to continue to be on the cutting edge of technology, and not on 
the sidelines.
    Our industry is unique in that we sell almost 50 percent of our 
data in the commercial marketplace, and it is this sector that is 
growing and steadily demanding concessions that the national security 
community may not like. However, the main objective behind the 
President's policy has always been to strike a balance between 
commercial considerations and national security requirements.
    The U.S. Government does not need to ``help'' us per se, but it 
should not hold us back when foreign governments are actively helping 
its' own home-grown companies to launch smaller, better resolution 
satellites. Essentially, the competitive landscape has changed enough 
that the U.S. Government is not protecting anything new by holding us 
back because foreign competitors are actively engaged in besting our 
technologies. Mr. Chairman, America's greatness should not be 
constrained by our own government.

CONCLUSION:

    Mr. Chairman and Ranking Member Feeney, thank you for your 
leadership and commitment on this very important issue. As you know, 
the future is already here. The demand for commercial imagery will only 
increase with growing government requirements and by commercial 
demands--to include environmental organizations, oil and gas, utility 
companies, and non-profit institutions. Given the growing consumer 
appetite for commercial imagery, we believe we are in a unique position 
to support both national requirements and to satisfy international and 
commercial needs. In essence, if we are given the opportunity to 
participate--our industry will not only fulfill many of the U.S. 
Government's requirements, but also sustain the industrial base by 
providing American jobs. This includes the industrial base of satellite 
manufacturers and ground infrastructure, the second tier subcontractors 
to the primes, and the geospatial intelligence community. Our imagery 
enables multiple applications and they, in turn, spawn new businesses. 
These are high-tech, highly-skilled, and good paying jobs. The 
Department of Labor recently highlighted geospatial technologies as one 
of the top three fastest growing and most important high growth 
industries in the 21st Century (the others were nanotechnology and 
biotechnology.) This is clearly a win-win situation for America and for 
the American taxpayers.

ATTACHMENT A

U.S. Space Policy Excerpts

        <bullet>  U.S. Commercial Remote Sensing Policy (2003)

        <bullet>  Rely to the maximum practical extent on U.S. 
        commercial remote sensing space capabilities for filling 
        imagery and geospatial needs for military, intelligence, 
        foreign policy, homeland security, and civil users;

        <bullet>  Develop a long-term, sustainable relationship between 
        the United States Government and the U.S. commercial remote 
        sensing space industry;

        <bullet>  Competitively out-source functions to enable the 
        United States Government to rely to the maximum practical 
        extent on commercial remote sensing space capabilities for 
        filling imagery and geospatial needs;

U.S. National Space Policy (2006)

        <bullet>  The United States is committed to encouraging and 
        facilitating a growing a entrepreneurial U.S. commercial space 
        sector. Toward that end, the United States Government will use 
        commercial space capabilities to the maximum practical extent, 
        consistent with national security.

        <bullet>  Enable a dynamic, globally competitive domestic 
        commercial space sector in order to promote innovation, 
        strengthen U.S. leadership, and protect national, homeland, and 
        economic security.

        <bullet>  Refrain from conducting activities that preclude, 
        deter, or compete with U.S. commercial space activities, unless 
        required by national security or public safety.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                   Biography for Matthew M. O'Connell
    Mr. O'Connell is GeoEye's President and CEO. GeoEye, headquartered 
in Dulles, Virginia, is a leading provider of satellite and aerial 
imagery and geospatial information. The company, with 400 employees, 
operates two Earth-imaging satellites, IKONOS and OrbView-2, two 
mapping aircraft, possesses an international network of regional 
satellite receiving ground stations and has advanced geospatial imagery 
processing capabilities. Key customers include the Department of 
Defense and intelligence community, strategic business partners, U.S. 
and international resellers and commercial customers. GeoEye is traded 
on the Nasdaq exchange (GEOY) and is listed on the Russell 3000 index. 
GeoEye is launching its next generation satellite, GeoEye-1, later this 
year. GeoEye-1 will be the world's highest resolution and most accurate 
commercial Earth-imaging satellite, with a ground resolution of 0.41 
meters or about 16 inches.
    Mr. O'Connell has over twenty years of experience in communications 
management and finance. He came to the commercial remote sensing 
industry in 2001 as CEO of GeoEye's predecessor, ORBIMAGE. In January 
2006, Orbimage merged with Space Imaging to form GeoEye, Inc. In 
January 2008, O'Connell was appointed by the Department of the Interior 
to serve on its National Geospatial Advisory Committee. In February 
2008, O'Connell was elected to the U.S. Geospatial Intelligence 
Foundation's (USGIF) Board of Directors and in October 2007 was 
presented with their Industry Leader award. Also in October 2007, 
Deloitte named GeoEye as one of the Fast 50 companies in the Washington 
D.C. area, ranking the company number twelve. In June 2007, Mr. 
O'Connell was named ``Entrepreneur of the Year'' by Ernst and Young for 
Communications in the Washington D.C. region. The Washington Post 
ranked GeoEye number one of all companies in the D.C. area for 2006 
revenue growth. Additionally, Space News named O'Connell one of the 
``10 Who Made a Difference in Space in 2006'' and Via Satellite 
Magazine named O'Connell as ``One to Watch in 2008.''
    Prior to joining GeoEye, Mr. O'Connell was a Managing Director at 
Crest Advisors, a New York-based private merchant bank that invested in 
and advised communications companies, and Senior Vice President of 
Legal and Business Affairs for Sony Worldwide Networks, a division of 
Sony Corporation specializing in radio and Internet programming. Before 
working at Sony, he served as Senior Vice President and general counsel 
of Osborn Communications Corporation, a publicly traded radio and 
television station operator. Prior to his tenure at Osborn, Mr. 
O'Connell was the assistant general counsel at Cablevision Systems 
Corporation, where he was responsible for acquisitions and finance, 
including the company's initial public offering. Mr. O'Connell began 
his career on Wall Street as a lawyer specializing in mergers and 
acquisitions and corporate finance. Mr. O'Connell holds a Bachelor of 
Arts degree in Classics from Trinity College, where he was elected to 
Phi Beta Kappa, and a Juris Doctor from the University of Virginia Law 
School.

    Chairman Udall. Ms. Smith.

  STATEMENT OF MS. JILL SMITH, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, DIGITALGLOBE, INC.

    Ms. Smith. Thank you. Mr. Chairman and Members of the 
Subcommittee, thank you for giving me opportunity to appear 
before you today on behalf of DigitalGlobe to discuss the 
applications and benefits of remote sensing data.
    DigitalGlobe was founded on the principal that remote 
sensing data, specifically that acquired through satellite and 
aerial imaging capabilities, can change the way organizations 
conduct business and how governments protect their 
constituencies. Today more than ever, we at DigitalGlobe are 
seeing some of the unique ways businesses are improving their 
efficiency and streamlining business processes. We are also 
seeing increasing use by governments on emergency response 
planning, urban development, and environmental monitoring.
    DigitalGlobe's customers range from defense and 
intelligence entities to civil agencies supporting land 
development and emergency response to companies providing 
consumer applications, including personal navigation services, 
and Internet portal tools.
    There are several advantages as a company being 
headquartered here in Colorado, from the synergies that are 
created by having the second largest aerospace industry in the 
Nation, to enjoying the benefit of having a robust GIS and 
remote sensing industry located here, and also the ability to 
partner with several of the country's leading, excuse me, 
academic institutions to develop relevant technical talent and 
also a fabulous lifestyle that allows us to attract the best 
people.
    State and local government agencies, including those in 
Colorado, use remote sensing data to meet the requirements of 
many essential public service projects. Towns, cities and 
counties rely on remote sensing data to understand the makeup 
of their areas for tax assessments, public works and public 
safety applications. In Colorado, in particular, as we've heard 
today, it's particularly valuable for agricultural monitoring, 
wildfire risk assessment, and watershed mapping.
    At the same time, users at the national level utilize 
remotely sensed data for a variety of purposes. Specifically, 
certain U.S. Government defense and intelligence agencies 
supply their users with unclassified, commercial data for 
homeland security, national defense and intelligence programs. 
Availability of commercial satellite imagery has provided the 
government with flexibility in how it gathers intelligence, 
conducts surveillance, and manages ground, air and naval 
forces. Because commercial imagery is unclassified, it can be 
shared across organizations and agencies, across domestic users 
and with allies, coalition forces and humanitarian aid workers 
to facilitate coordination.
    Remote sensing data can help to speed decision-making for 
military planning and in-theater activities and for emergency 
response activities. The remote sensing data provided by 
satellite imagery provides the capability to conduct detailed 
reconnaissance and subsequent extraction of critical 
information on targets.
    In addition to military uses, remote sensing data can be 
very valuable to civilian homeland defense efforts, including 
mapping potential fire, flood, hurricane or earthquake paths; 
monitoring the expansive U.S. borders both land and sea; and 
identifying possible breaches of secure and protected high-risk 
facilities such as nuclear plants and seaports.
    One of the key enablers of the broader use of commercial 
remote sensing data has been the continued support of the U.S. 
Government. In 1992 Land Remote Sensing Policy Act set a 
baseline for the licensing and operation of commercial remote 
sensing space systems and is still in effect today. And more 
recently, in the Commercial Remote Sensing Policy of 2003 and 
the 2006 U.S. National Space Policy have the stated objective 
of creating a ``dynamic, globally competitive domestic 
commercial space sector in order to promote innovation, 
strengthen U.S. leadership, and protect national, homeland and 
economic security.''
    We believe the policies encourage the U.S. Government to: 
(A) rely to the ``maximum practical extent'' on U.S. commercial 
capabilities, (b) ``refrain from conducting activities that 
preclude, deter, or compete with U.S. commercial space 
activities,'' (c) ``develop a long-term, sustainable 
relationship'' between the U.S. Government and U.S. industry, 
and (d) provide a ``timely and responsive regulatory 
environment'' for licensing the operation and export of remote 
sensing systems.
    Congress has been a consistent and vocal supporter of U.S. 
defense and intelligence use of commercial remote sensing data 
through the ClearView and NextView programs. These programs 
have helped the U.S. Government provide an increasing amount of 
commercial imagery to the warfighter, intelligence analysts and 
relief workers every day. The industry looks forward to 
continuing to work with Congress to ensure continuity of 
programs such as these well into the future.
    While we believe there is widespread Congressional and 
Executive branch support for the growth of the commercial 
remote sensing industry, many obstacles nevertheless exist. 
U.S. Government advocates must remain vigilant that the 
enabling tenants laid out in the 1992 Act, and the 2003 and 
2006 policies continue to have support. We believe the benefits 
of commercially available remote sensing data are significant 
and that the industry is only just beginning to develop 
applications.
    So on behalf of DigitalGlobe, I would like to thank the 
Congress, especially this subcommittee and Congressman Udall, 
Senior Ranking Member Feeney, for your support from the 
earliest days of the industry into the future. That concludes 
my testimony. I would be happy to answer questions. Thank you.
    [The prepared statement of Ms. Smith follows:]

                    Prepared Statement of Jill Smith

    Mr. Chairman, and Members of the Subcommittee, thank you for giving 
me the opportunity to appear before you today on behalf of DigitalGlobe 
to discuss the applications and benefits of remote sensing data.
    DigitalGlobe was founded on the principal that remote sensing data, 
specifically that acquired through satellite and aerial imaging 
capabilities, can change the way organizations conduct business and how 
governments protect their constituencies. Today more than ever, we at 
DigitalGlobe are seeing some of the unique ways businesses are 
improving their efficiency and streamlining business processes. We are 
also seeing increasing use by governments on emergency response 
planning, urban development and environmental monitoring.
    DigitalGlobe's customers range from defense and intelligence 
entities to civil agencies supporting land development and emergency 
response to companies providing consumer applications, including 
personal navigation services, and Internet portal tools.
    There are several advantages of being headquartered here in 
Colorado, from the synergies that are created by having the second 
largest aerospace industry in the Nation, to enjoying the benefit of 
having a robust GIS and remote sensing industry located here. Another 
important advantage is the ability to partner with several of the 
country's best academic institutions for developing relevant 
technological talent and the lifestyle that allows us to attract the 
best people.
    State and local government agencies, including those in Colorado, 
use remote sensing data to meet the requirements of many essential 
public service projects. Towns, cities and counties rely on remote 
sensing data to understand the makeup of their areas for tax 
assessment, public works and public safety applications. In Colorado, 
it is particularly valuable for agricultural monitoring, wildfire risk 
assessment, and watershed mapping.
    At the same time, users at the national level utilize remotely 
sensed data for a variety of purposes. Specifically, certain U.S. 
Government defense and intelligence agencies supply their users with 
unclassified, commercial data for homeland security, national defense 
and intelligence programs. Availability of commercial satellite imagery 
has provided the government with flexibility in how it gathers 
intelligence, conducts surveillance, and manages ground, air and naval 
forces. Because commercial imagery is unclassified, it can be shared 
across organizations and agencies, across domestic users and with 
allies, coalition forces and humanitarian aid workers to facilitate 
coordination. Remote sensing data can help to speed decision-making for 
military planning and in-theater activities and for emergency response 
activities. The remote sensing data provided by satellite imagery 
provides the capability to conduct detailed reconnaissance and 
subsequent extraction of critical information on targets.
    In addition to the military uses, remote sensing data can be very 
valuable to civilian homeland defense efforts, including mapping 
potential fire, flood, hurricane or earthquake paths; monitoring the 
expansive U.S. borders both land and sea; and identifying possible 
breaches of secure and protected high-risk facilities such as nuclear 
plants and seaports.
    One of the key enablers of the broader use of commercial remote 
sensing data has been the continued support of the U.S. Government. The 
1992 Land Remote Sensing Policy Act set a baseline for the licensing 
and operation of commercial remote sensing space systems and is still 
in effect today. And more recently, the Commercial Remote Sensing 
Policy of 2003 and the 2006 U.S. National Space Policy have the stated 
objective of creating a ``dynamic, globally competitive domestic 
commercial space sector in order to promote innovation, strengthen U.S. 
leadership, and protect national, homeland and economic security.'' \1\ 
We believe the policies encourage the U.S. Government to: (a) rely to 
the ``maximum practical extent'' \2\ on U.S. commercial capabilities, 
(b) ``refrain from conducting activities that preclude, deter, or 
compete with U.S. commercial space activities,'' \3\ (c) ``develop a 
long-term, sustainable relationship'' \4\ between the U.S. Government 
and U.S. industry, and (d) provide a ``timely and responsive regulatory 
environment'' \5\ for licensing the operation and export of remote 
sensing systems.
---------------------------------------------------------------------------
    \1\ U.S. National Space Policy (2006)
    \2\ U.S. Commercial Remote Sensing Policy (2003); U.S. National 
Space Policy (2006)
    \3\ U.S. National Space Policy (2006)
    \4\ U.S. Commercial Remote Sensing Policy (2003)
    \5\ U.S. Commercial Remote Sensing Policy (2003); U.S. National 
Space Policy (2006)
---------------------------------------------------------------------------
    Congress has been a consistent and vocal supporter of U.S. defense 
and intelligence use of commercial remote sensing data through the 
ClearView and NextView programs. These programs have helped the U.S. 
Government provide an increasing amount of commercial imagery to the 
warfighter, intelligence analyst and relief worker every day. The 
industry looks forward to continuing to work with Congress to ensure 
continuity of programs such as these well into the future.
    While we believe there is widespread Congressional and Executive 
branch support for the growth of the commercial remote sensing 
industry, many obstacles nevertheless exist. U.S. Government advocates 
must remain vigilant that the enabling tenets laid out in the 1992 Act, 
and the 2003 and 2006 policies continue to have support. In particular, 
it is important that the U.S. Government continue to maximize its use 
of commercial imagery, ensure a regulatory environment that promotes 
the commercial imagery business, and enable U.S. industry to continue 
to be competitive in the global imagery market.
    We believe the benefits of commercially available remote sensing 
data are significant and that the industry is only beginning to develop 
potential applications.
    On behalf of DigitalGlobe, I would like to thank the Congress, 
especially this subcommittee and Congressman Udall, for your support 
from the earliest days of the industry into the future. That concludes 
my testimony. I will be happy to answer any questions you may have.

                        Biography for Jill Smith

    Jill is a veteran corporate leader with a long history of strategic 
management and successful brand building. She was President and Chief 
Executive Officer of eDial, a collaboration software company that she 
successfully turned around and sold to Alcatel. Prior to leading eDial, 
she was Chief Operating Officer of Micron Electronics, Inc., a $1.5 
billion direct PC manufacturer and marketer. While at Micron, Jill 
drove the PC business to profitability, and grew HostPro, Micron's 
award-winning web hosting division, into the third-largest web and 
application hosting company, and a candidate for an IPO. Prior to 
Micron, Jill co-founded and led Treacy & Company, LLC, a successful 
boutique consulting and investment business that was merged with an 
Internet consulting firm, and was Chief Executive Officer of SRDS, 
L.P., a private publishing and printing company that she successfully 
repositioned and established as an electronic publishing leader. Her 
earlier experience includes executive positions at Sara Lee Corporation 
and Bain & Company, where she was a Vice President. Jill holds a 
Master's Degree in Business Administration from the MIT Sloan School of 
Management.

                               Discussion

    Chairman Udall. Thank you, Ms. Smith, and thank you to a 
very important group of witnesses. I'm going to move right to 
questions, and recognize myself for five minutes, and I would 
like to ask each of you in turn. I'll start with Mr. Little, 
and I'll remember later on I'll start with Ms. Smith on the 
next question, in the spirit of Mr. Byers who was on the 
previous panel.
    The benefits of commercial over federal data, this is an 
important discussion. What opportunities do commercial remote 
sensing data enable over remote sensing data available from 
federal and other public sources? And as a follow-on, could you 
please describe the applications that the commercial remote 
sensing data can support?
    Mr. Little. Absolutely. Thank you for the question. It's 
quite valid. As one of my colleagues indicated earlier, the 
advantage of having commercial remote sensing data to the 
community, with coalition partners, et cetera, it's 
unclassified, typically accessible via the Internet, lots of 
commercial applications to support that. We ask that commercial 
be looked at a little more strongly.
    The NGA and DOD has done an excellent job of looking at the 
outside community, if you will, at the commercial side, to do 
the--take care of some of these technologies.
    Chairman Udall. Mr. O'Connell.
    Mr. O'Connell. As Kevin--it is a great question, sir, as 
Kevin said. The fact that we're unclassified is a terrific 
advantage, as we learned with Hurricane Katrina. The government 
can't disseminate it's classified images quickly. In Katrina, I 
know that both Jill and I devoted a lot of our taskings to New 
Orleans. And as soon as the imagery was available, it became 
publically disseminated. In fact we had a lot of discussion 
with the NGA at the time. They did a very good job of saying, 
how do we get this public? Dump it on all of the different 
providers, not just Google, not just Microsoft, so a relief 
worker could immediately find out what was going on.
    Similarly, we refer to them in articles such as Space News, 
that overseas our warfighters find unclassified imagery 
terrific because they can turn to an English person, and you 
see a tank. They can't do that as easily with classified 
imagery. So the fact that we're unclassified really helps.
    Another thing that helps terrifically is our private 
financing helps relieve the government of financing expensive 
satellites. Jill and I both benefited to the tune of about $500 
million. I would say the government benefited even more. We go 
out and borrow privately, and provide much of, if not most of 
the operating and investment capital. So I think that we 
provide great services, great price. The fact that it's 
unclassified means that it gets out faster to the people who 
need it.
    Ms. Smith. Thank you. Reinforcing what's already been said 
in terms of unclassified. Second of all, as Mr. O'Connell 
highlighted, the proven economics of the commercial remote 
sensing providers, in terms of their ability to manage large 
contracts and deliver on time and on budget.
    Thirdly is, of course, supporting the U.S. industry in 
terms of space technologies, and reinforcing and perpetuating a 
leadership in the world that the U.S. is established, aided and 
abetted by the policies that have been adopted.
    And so those things in combination should ensure that the 
benefits to the user are evident in terms of the applications 
we've heard about. The economics of the taxpayer are evident in 
terms of the delivery that the commercial remote sensing 
providers have been able to secure, and should ensure that 
there is continued leadership on the part of the U.S. globally 
in terms of technologies for the source.
    Chairman Udall. I would like to come back to that 
leadership role you play in the next round. Congressman Feeney 
has five minutes, and then we'll come back to the second round 
of questions.
    Mr. Feeney. Well, thank you to all of our witnesses. Mr. 
O'Connell, you talked a little bit about foreign competition. 
Can you describe the capabilities some of the foreign 
competition has, which countries, which private sector activity 
or government activity, and what forms of relief do you think 
we need to help our American companies with as we face the 
potential for more foreign competition.
    Mr. O'Connell. Congressman Feeney, thank you for asking the 
question.
    Mr. Feeney. You're welcome.
    Mr. O'Connell. The French--in short, I'll just say France, 
Israel, Korea, Taiwan, India, Russia all have domestic 
programs. None of them are truly commercial, so we're competing 
with our hands tied behind our back with people. France has .7 
meters coming on stream. They're currently using the spider 
model Kevin showed you earlier. It's five meters that they 
artificially turn into 2.5 meters.
    India has one meter. It's wildly inaccurate. Our satellites 
are both highly accurate. I know that ours is true within three 
meters. The Indian satellite, although it has one meter 
imagery, can be inaccurate by 225 meters. So it's not terribly 
good for that. The Israelis have imagery which is pretty and .7 
meters resolution. It's not accurate.
    The Koreans have imagery that's one meter, and although the 
accuracy is not good, they're working on improving it. The 
Taiwanese have roughly one meter accuracy. Their satellite is 
unusual because it always follows the same ground tracks. 
However, all of these nations are trying to compete with us.
    I would say, sir, that we don't need relief. I think that 
the partnership we have is a true partnership. We believe that 
we deliver good imagery to our warfighters, to FEMA. We're not 
looking for a subsidy. If the government continues to buy from 
us at what we believe are highly advantageous rates, then the 
government will not only get the imagery and solutions it 
needs, it will keep the foreign competitors at bay. It will 
continue to have America be the leaders. And as I think all 
three of us have said, it's much better for the foreign 
countries to come here and buy imagery from us than for us to 
have to go buy our imagery from foreign countries.
    Mr. Feeney. Well, you mentioned, for example, Taiwan in 
that list. Surely Taiwan has the capabilities the Chinese do. 
They're just not using it for commercial purposes. Their entire 
space program is under the Defense Department, and it's very 
opaque or secretive.
    Mr. O'Connell. Yes, the Chinese have the formidable 
capability. They're not as highly advanced. America is still 
the best in the world, Jill and I both do a lot of good 
imagery. The foreigners are definitely trying to catch up.
    I would say that the French are highly competitive. The 
mainland Chinese have the most aggressive program in terms of 
volume in satellites. Of course, we're unsure about exact 
details, but they have a very different attitude. If they tried 
and failed, they'll try 10 more times.
    Mr. Feeney. Ms. Smith, anything to add about the foreign 
competition.
    Ms. Smith. No. I think Mr. O'Connell highlighted the 
essence of that competition, except to say that as we think 
about the future of this industry, in some ways the emphasis is 
getting away from, as it were, simply vernacular. We use the 
raw pixels, and to provide better solutions as we heard this 
morning about new ways to disseminate data. It's no longer just 
having the data; it's what you can then do with the pixels to 
then provide value to applications.
    And so the emphasis of the U.S. industry to increasingly 
focus on superior applications, and around utility, including 
dissemination, is an essential part of our defensive response 
and offensive response to foreign competition.
    Mr. Feeney. You heard earlier--this is for all of the 
witnesses. Just briefly, you heard the earlier panel talk about 
problems that could be created for them if Landsat 5 or 7 went 
down and we had a gap. Would it create specific problems for 
what you do in terms of your capabilities.
    Mr. O'Connell. It would create problems for some of the 
people that we consider clients. But we have a satellite called 
OrbView-2 that delivers ocean information that's used by 
researchers around the world. I know that would be a 
significant issue for them.
    We're actually developing a deeper relationship with those 
people because we created a foundation to the scientific 
community to develop new applications. Similar to the extent 
they suffer, we suffer. You'll be happy to hear that the 
University of Florida and lots of schools in Colorado are using 
that imagery. We wanted to develop innovative products, as Ms. 
Smith said. It's very important for America to continue to have 
the cutting edge. So in the terms of the scientific community, 
it doesn't hurt us directly, but hurts us indirectly.
    Mr. Feeney. I may have a question or two on the second 
round. Mr. Chairman.
    Chairman Udall. Let's move to the second round, I'll 
recognize myself again for five minutes. I want to peer at this 
discussion, drill down a bit further on what Congressman Feeney 
brought up. What's the most important factor enabling your 
company to compete and agree in the global remote sensing 
industry? And as a follow-on, what role does the government 
play in promoting a healthy commercial remote sensing industry.
    We covered a little bit of this ground. I want to get this 
on the record, and opportunities that will--that are present 
for us. So we'll start with Jill.
    Ms. Smith. I think there are two core areas where the--how 
Congress plays out and how the U.S. Government manages the 
industry and materially helps ensure that we, as an industry, 
are able to retain leadership. The first is around policies and 
regulations. And I'll come back to that in one second. And 
second is around advocacy.
    And with regard to policy and regulation, the first from 
our perspective is to ensure vigilance around implementation of 
the policies that have already been articulated, have already 
been put in place, are to ensure that we are using commercial 
imagery and commercial companies to the maximum extent possible 
for investing and building out U.S. Government assistance.
    The second wall is ensuring that the licensing regulations 
that are governing our industry don't further impede the 
industry. And where appropriate, and as the markets change, 
enable us to be as competitive as we can be in the industry 
while still, of course, protecting national security.
    With regard to advocacy, we have, today, in place an office 
of space commercialization which is currently under NOAA. There 
is a legislation that has been proposed by the Department of 
Commerce to reinforce and strengthen the role of the office of 
space commercialization, and we would agree that this is a very 
important potential step forward to ensure long-term advocacy.
    Mr. O'Connell. I'd like to echo what Ms. Smith said. I 
think that there are existing policies in place right now that 
are terrific policies. I think that the government has to be 
vigilant to be sure that they're adhered to. The policy 
currently states that the U.S. Government should, to the extent 
possible, use as well as it can for its commercial remote 
sensing needs.
    There are a lot of areas that we can fulfill, as I said 
before. The collection of broad area mapping is something that 
we can do, we think, faster, better and cheaper than the U.S. 
Government, so we would like the government to continue to use 
us for that, and in fact to look at our other areas where we 
could do that.
    Again, we believe that the taxpayer benefits every time 
they buy a pixel from us. We also believe that the current 
regulations have--that have recently been relaxed allow us to 
distribute imagery at a resolution of .5 meter. That's 
important. It came a little late because the French actually 
started distributing--or, I'm sorry, the Israelis were 
distributing imagery at a lower resolution than Americans were 
permitted to for a while.
    So I think the government has to continue to monitor that. 
There's no reason why we should be playing. Right now, on our 
next satellite, we'll image at .41.
    We'll be required to raise that imagery up to .5. That 
doesn't bother us at the moment because nobody's competitive, 
although it doesn't really make that much sense. I think that 
it's important that the--it's important that the U.S. stay the 
leader and not be the follower.
    Chairman Udall. Mr. Little.
    Mr. Little. Yes, very quickly I concur with everything 
they've said. Another thing that just came to mind is the fact 
that, for instance, this is a daunting task in satisfying the 
requirements, et cetera. They spend a lot of money doing a lot 
of things. And my opinion is that they probably shouldn't be 
spending that money to, like, remap the U.S. The risk map that 
FEMA is putting together, and flood plane mapping, et cetera. 
They're asking the Congress for five years, and that can more 
readily be done by the commercial entities that are available, 
and they could spend their efforts and their monies probably a 
little more wisely. Thank you.
    Chairman Udall. I was saying to Congressman Feeney that he 
and I are going to look further into the situation you just 
described because we have limited resources. We have a lot of 
needs. We don't want to sort of duplicate activities. I know 
we're going to have a third round. I'm going to end the second 
round and recognize Mr. Feeney.
    Mr. Feeney. What, Mr. O'Connell, prohibited some of the 
finer capabilities that you have? Is that for security means? I 
mean, what--you know, I honestly don't think anything in this 
environment is secure, but what would be the type of reasoning 
that government agencies would prohibit you from making 
available what your capabilities allow you to?
    Mr. O'Connell. That's a great question, sir. Your own 
question about privacy, yes, it is related to overall security. 
There is a lingering sentiment in some parts of the government 
that there should be no private-sector involvement, and there 
should be no commercial involvement in overhead surveillance.
    As I think Mr. Byers said, the cat is kind of out of the 
bag on that one. Our question on privacy was a very good one, 
and I'd like to kind of talk about that, because I think that 
that's different than what we're talking about here. Mr. Byers 
said that he believed in transparency. I think we all think 
it's good being able to see what's going on in Iran. You have 
to balance that transparency out of our natural desire for 
privacy. We think the government has done a good job so far. 
It's tough. We're all subject to follow all those laws and 
regulations.
    Having said that, when terrorists use dual imagery to 
strike a British camp in Iraq, that was obviously troublesome. 
When disseminating things to places like Google, that we just 
adopt a simple rule. Let's not image active military bases in 
the field. That hasn't been acted on because it's the beginning 
of a tough question. Then you say, well, how about military 
headquarters like the Pentagon? How about hospitals? How about 
schools? People won't stick with simple solutions. So that's 
never gotten anywhere.
    Also, as Mr. Navarro said, it's tough because you have 
American companies. The government can regulate us. But if the 
French and Indians and Israelis, and whoever else--the French 
will sell their imagery. I said it with the French sitting next 
to me, and they're proud of it. So I don't know how we can 
constrain an information flow when America doesn't constrain 
the information.
    Chairman Udall. Ms. Smith.
    Ms. Smith. I have nothing else for that. I think Mr. 
O'Connell covered it very, very well.
    Mr. Feeney. I guess my last question would be with respect 
to the data that you rely on from NOAA and NASA, how much do 
you rely on the data, if at all, from NOAA and NASA, and how 
free are they in terms of responding to the data requests when 
you have it? For all the witnesses.
    Ms. Smith. I think it was Mr. O'Connell who referred 
earlier to fundamentally our job is to provide superior 
solutions for our customers. And there are, indeed, certain 
types of applications or simply availability and capacity 
necessitates that the customer take lower, or I should say, a 
lower resolution imagery from NASA or NOAA or otherwise.
    So we as a company do sometimes put together solutions on 
integration of multiple sources. And so in that sense, to the 
extent to which there were any difficulties getting access to 
that imagery, as Mr. O'Connell said earlier, it would be the 
customers that suffer. We have had no issues with regard to 
access to that imagery at all, and likely that it is available 
to as many users as it is.
    Mr. O'Connell. We actually do use NASA imagery, and some of 
our blended products. As Ms. Smith said, it's getting more and 
more important not just to have pixels, but what do we do with 
pixels. So we've had to work with the development of complex 
products. Our efficient product uses our satellite imagery as a 
base map, and then takes a different resource. That's the 
terrific part. We sell them imagery. So I can see it has all 
been great.
    I would say on NOAA, on the regulatory side, NOAA has been 
a very good overseer. They sometimes get, I think--the pace 
with which the commercial sector operates is daunting, and NOAA 
has risen to the challenge. I might say, I know it's off the 
subject, but as long as you're asking, about what Congress may 
be doing, and that has restricted both of us.
    We're not trying to do--we're not trying to put a ground 
station in China, but we had to send a replacement part to 
Israel for a ground station that was approved 10 years ago. It 
took us nine months to get approval. I'm not sure why that 
works that way.
    Mr. Little. Quickly, NOAA, NASA, et cetera, NOAA on the 
coastal flood areas, NASA on a number of items, we've worked on 
them globally, as I mentioned earlier on the Merrill Pass in 
Alaska program. That was an FAA initiative that was funded by 
NASA, and a very interesting relationship. So they're good 
folks to work with from our standpoint, very innovative.
    NASA's mission is a little different nowadays. As I recall, 
there was a study done a few years ago that suggested that NASA 
should probably get out of the Earth observation business and 
get into the space exploration business where they actually 
belong, and leave the export of Earth observations to 
commercial. Thank you.
    Mr. Feeney. Thanks. I don't have any further questions. 
I'll just say that I sort of instinctively, out of habit, 
support the commercial side. What I call a phone book test, if 
more than two people in the private sector provide a good or 
service, it's probably very unlikely that I would be supportive 
for the government getting involved. So you've got a sort of 
instinctive ally.
    I want to pass to the Chairman again.
    Chairman Udall. Before I ask this final question, I did 
want to take just a moment to acknowledge an advantage of a 
product that each one of your companies provide. Because in 
part the whole hearing was to further educate the public and 
trumpet what you all are doing. And I know Intermap has a 
product, like what we saw on the screen that we use in places 
like Iraq and Afghanistan as a phenomenal tool.
    Mr. O'Connell, I commend to everybody's attention, the 
second half of your testimony. Some of the best things you're 
doing in monitoring wildlife and helping us do what we need to 
do to maintain the populations that not only are important 
because of our interest in wildlife and the thrill and the 
inspiration they provide for us, but they help keep our planet 
healthy.
    And then Ms. Smith, DigitalGlobe, some of you may remember, 
in Boulder County two years ago we were looking for a missing 
Marine. On immediate request on the weekend, your staff 
responded, and to the family and to many of us trying to find 
that Marine. So there's a talent of stories of what you all are 
doing. It's exciting, cutting edge. The jobs you all provide 
pay healthy salaries. It's just--it's inspirational. I, like 
Congressman Feeney, suggest that we default to want to support 
what you all are doing.
    Let me have one final question. Following Dr. Montagu who 
was on the earlier panel, he urged the Federal Government and 
the local and regional government to leverage the tremendous 
purchasing power of the Federal Government in the commercial 
remote sensing data marketplace.
    What's your response to this idea, and are there other 
things that Federal Government can do? And maybe we'll start 
with you, Mr. Little, and move back across.
    Mr. Little. Very much so. We had a situation with the 
wildfires in California where NGA and, actually, more Northcom 
purchased IFSAR data along the coastal areas in California, and 
inclusive of that. That's part of the whole program. We have, 
as I mentioned, about 65 percent of the U.S. collected already, 
very high-resolution terrain.
    One of the things that happened out there was a plan to do 
some C130 drops, water drops. They were trying to do some 
planning in case there were--they had to evacuate hospitals and 
nursing homes, those sorts of things. They had to put Marines 
on the ground, shoes on the ground, boots on the ground, if you 
will.
    In part of the discussion, they also said, what would 
happen, if we provide this data, gave a license to NGA at this 
time, under their customers, could we provide to the end-users 
in California. And we said certainly, as what happened with the 
tsunami incident in Aceh a few years ago when the satellite 
guys made their stuff available. We want to encourage that as 
much as we can. The usage of that is important. So our 
licensing techniques or methods, we license to the Federal 
Government. And through that licensing mechanism, it can be 
licensed ultimately to the end-user.
    I think one of the things that came up on the previous 
panel was it's an education thing as much as anything, because 
the folks at the end-user level don't understand that it's 
available or how it's available or how it's licensed. So I hope 
that answers your question.
    Mr. O'Connell. As Mr. Little said, we do deliver a lot of 
imagery at the State and local governments, currently. Our 
model with NGA is a little different. NGA paid half the cost of 
the next generation satellite we're building and half the cost 
of the satellite that was just launched. When you pay that much 
up front, you get a good discount. That's why the Federal 
Government would get a favorable price from us. We would be 
happy to talk to them about it.
    But a part of the next competition was that we had to 
contemplate we were commercially viable. If you just change it 
now, it changes some of the revenue streams we were looking at. 
We're not objecting to it, because we have this really good 
partnership with NGA. But it's a night and day point where the 
Department of Labor has said that three of the highest growing 
areas of jobs are nanotechnology and biotechnology and 
geospatial sciences.
    It's one of the reasons why some--there's been such 
terrific growth in our offices in Thornton.
    We can only hire all those people, in competition with 
people like Lockheed Martin and ITT who is sitting right here 
if we are making money. So the revenue mix is complicated. We'd 
be happy to look at expanding the model and letting the states 
leverage. I think it's very important that they do use the 
imagery, but I think that it's a complex issue.
    Ms. Smith. Thank you. Several opportunities have been 
identified. I'd also like to add the opportunity for better 
coordination around homeland security. And certainly as an 
industry, I think we feel as if we are underservicing homeland 
security because of the challenge of operating both at a local 
and at a federal level. And therefore we believe there are many 
opportunities to support that.
    Similarly, in terms of ensuring that homeland security acts 
in a way that is consistent with the commercial remote sensing 
policy in terms of looking for commercial resources, commercial 
remote sensing resources, ahead of proprietary U.S. Government 
resources, therein lies an opportunity to ensure that that's 
pushed down, not only the federal level, but also into a local 
level to the benefit of all. Thank you.
    Chairman Udall. Thank you. I did, as I bring the hearing to 
a close, want to acknowledge the presence of Lockheed Martin, 
Ball Aerospace, and ITT who have been here as well. And Mr. 
O'Connell and everybody at the table here knows that they're 
key links in this whole chain.
    I want to thank the two panels of witnesses, citizens of 
Colorado Springs that have joined us, other interested parties. 
And to keep faith with Congressman Feeney, as colleagues of 
mine, if there's no objection, the record will remain open for 
additional statements of Members and for answers to follow-up 
questions the Subcommittee may want to ask other witnesses. And 
without objection, it's so ordered.
    The hearing is now adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              



                   Answers to Post-Hearing Questions
Submitted to Jack G. Byers, Deputy Director and Deputy State Engineer, 
        Colorado Division of Water Resources

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Mark Udall

Q1.  How significant is the issue of training your workforce to use 
remote sensing information and incorporate it into your organization's 
services and operations? What role, if any, should the Federal 
Government play in ensuring that opportunities exist to train workers 
in the use of remote sensing data and information?

Q2.  You testified on the valuable uses of remote sensing data and the 
benefits your organization has gained in return. What are your 
suggestions on ways to disseminate or share these applications with 
other State and local agencies that may be considering the use of 
remote sensing data or that are unaware of the value it may offer?

                   Answers to Post-Hearing Questions
Responses by A. Simon Montagu, Director, Customer Resource and Support, 
        Denver Regional Council of Governments

Questions submitted by Chairman Mark Udall

Q1.  The development of data standards can help facilitate the 
widespread use of remote sensing data and information. Based on your 
experience, how well are mechanisms to coordinate the development of 
data formats and standards among Federal Government agencies and other 
remote sensing data users such as yourselves working? What, if any, 
actions should the Federal Government take to strengthen efforts to 
develop data standards?

A1. My experience with the mechanisms to coordinate the development of 
data formats and standards is limited to observing the activities of 
the Federal Geographic Data Committee (FGDC). I have observed the 
development of various FGDC standards in three different capacities as 
an educator (teaching GIS at Miami University in Ohio), a data 
standards ``consumer,'' and as a member of the professional association 
with direct interest in some of outputs of the FGDC's work.
    Generally speaking, the FGDC coordinates these efforts well, 
allowing for appropriate input and deliberation before publishing the 
final standards. My only critique would be that some of the resultant 
standards are overly complex. However, in fairness to the FGDC, this is 
probably a reflection of the complexity of the subject matter, and the 
broad scope of the various standards themselves, rather than any 
inherent flaw in the FGDC process.

Q2.  How significant is the issue of training your workforce to use 
remote sensing information and incorporate it into your organization's 
services and operations? What role, if any, should the Federal 
Government play in ensuring that opportunities exist to train workers 
in the use of remote sensing data and information?

A2. The geospatial technologies industry as a whole remains an 
important and growing sector of the Colorado economy. This trend is 
mirrored across the Nation. Sustaining this growth will require a 
commitment from all levels of government to support the basic skills 
and knowledge training needed to ensure the industry has the talent it 
requires.
    Fundamental to this is an improved commitment to basic math and 
analytical literacy. All of the geospatial sciences, but especially 
remote sensing, require a solid background in the fundamentals of 
mathematics. My experience teaching in the Geography department at 
Miami University revealed a wide discrepancy in the level of math 
preparedness of students coming into college.
    For this country to remain a leader in the geospatial technologies 
industry, our future workforce must receive a basic grounding in math 
as high school students, rather than play ``catchup'' in college. The 
Federal Government's direct role in this is perhaps limited. However, 
the past history of the aeronautical and engineering sciences suggests 
that Federal Government leadership and goal setting does do a lot to 
promote State and local engagement in broader, national endeavors.

Q3.  You testified on the valuable uses of remote sensing data and the 
benefits your organization has gained in return. What are your 
suggestions on ways to disseminate or share these applications with 
other State and local agencies that may be considering the use of 
remote sensing data or that are unaware of the value it may offer?

A3. Fortunately for DRCOG, the community of Regional Planning 
Commissions/Metropolitan Planning Organizations is relatively small and 
thus ``knowledge transfer'' is relatively easy. Indeed, DRCOG learned a 
great deal from its peers as we put together the Denver Regional Aerial 
Photography Project.
    Additionally, we have as one of our mandates the provision 
information and tools to our local government membership of matters 
that are typically outside the purview of their normal governmental 
operations. This typically includes matters that transcend their 
jurisdictional boundaries, but also includes matters of new technology 
of which they may not be aware. We provide this service through a 
number of avenues, ranging from one-on-one training, informational 
products distributed both in hard copy and electronic format, and 
through custom workshops and training courses. We have used all of 
these formats in recent years to provide DRCOG's member governments 
with information about current and emerging geospatial technologies 
with relevancy to the business of local and regional governance.

                   Answers to Post-Hearing Questions
Submitted to Manuel Navarro, Fire Chief, City of Colorado Springs Fire 
        Department

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Mark Udall

Q1.  The development of data standards can help facilitate the 
widespread use of remote sensing data and information. Based on your 
experience, how well are mechanisms to coordinate the development of 
data formats and standards among Federal Government agencies and other 
remote sensing data users such as yourselves working? What, if any, 
actions should the Federal Government take to strengthen efforts to 
develop data standards?

Q2.  How significant is the issue of training your workforce to use 
remote sensing information and incorporate it into your organization's 
services and operations? What role, if any, should the Federal 
Government play in ensuring that opportunities exist to train workers 
in the use of remote sensing data and information?

Q3.  You testified on the valuable uses of remote sensing data and the 
benefits your organization has gained in return. What are your 
suggestions on ways to disseminate or share these applications with 
other State and local agencies that may be considering the use of 
remote sensing data or that are unaware of the value it may offer?
                   Answers to Post-Hearing Questions
Responses by Frank J. Sapio, Director, Forest Health Technology 
        Enterprise Team (FHTET), U.S. Department of Agriculture

Questions submitted by Chairman Mark Udall

Q1.  How significant is the issue of training your workforce to use 
remote sensing information and incorporate it into your organization's 
services and operations? What role, if any, should the Federal 
Government play in ensuring that opportunities exist to train workers 
in the use of data and information?

A1. The availability of training opportunities has not been an 
impediment. Between vendors and internal cadres of technical experts, 
the agency offers an array of geospatial technology training 
opportunities for natural resource land managers. The Federal 
Government should continue to work in partnership with vendors to 
develop and provide training in the use of data and information 
collected through the application of remote sensing technologies.

Q2.  You testified on the valuable uses of remote sensing data and the 
benefits your organization has gained in return. What are your 
suggestions on ways to disseminate or share these applications with 
other State and local agencies that may be considering the use of 
remote sensing data or are unaware of the value it may offer?

A2. For the State and Private Forestry Forest Health Protection (FHP) 
staff, this issue is very relevant. FHP field staff is trained and able 
to provide technical assistance to State and local partners for use of 
new technology or technical adaptations. This system works well, though 
on technology issues, adoption is sometimes slow even with willing 
State partners. Early stakeholder involvement synergizes the technology 
adoption process. Involving State partners in the design phase of a 
project increases the opportunity for the project's successful 
adaptation and application. A recent example of this type of 
development is the Southern Pine Beetle Hazard Maps Project, where 
State partners in 13 southern states had an integral role in project 
development.
    Our Technology Service Centers such as the Remote Sensing 
Applications Center and the Forest Health Technology Enterprise Team 
both have robust web sites. Reaching our partners through regular, 
disciplined, updates of our web site is crucial in keeping our partners 
aware of the latest developments. Sharing raw and processed data 
through the multiple agency spatial data clearing houses is also a 
crucial part of the strategy.

                   Answers to Post-Hearing Questions
Responses by Kevin Little, Director of Business Development, Intermap 
        Technologies, Inc.

Questions submitted by Chairman Mark Udall

Q1.  The development of data standards can help facilitate the 
widespread use of remote sensing data and information. Are you 
satisfied with the opportunities available to commercial remote sensing 
companies to help coordinate data formats and standards among Federal 
Government agencies, academic institutions, and other remote sensing 
data producers and users? What actions, if any, do you believe would 
strengthen mechanisms to coordinate the development of data standards?

A1. Overall, the Defense and Intelligence communities within the US 
government have done an excellent job over the years in evolving and 
focusing their requirements in out-sourcing their technology needs to 
the commercial community.
    Outsourcing allows these agencies to focus on the complex and 
dynamic mission requirements that drive their organizations and allow 
them to remain flexible in partnering with the commercial industry to 
assist them in satisfying these requirements.
    By out-sourcing these requirements, these agencies leverage the 
funding they receive to maximum benefit. Working with the private 
sector, the agencies can develop a series of minimum requirements for 
data production but do not have to commit resources for in-house 
production of such data. The private sector will make the investment in 
ensuring that these minimum data requirements are met. Further, all 
technological improvements and upgrades in the production of such data 
are borne by the private sector--again preserving agencies funds to 
meet core mission requirements.
    Many federal agencies do not have a similar level of experience the 
Defense and Intelligence communities possess in leveraging that which 
the private sector can offer. There oftentimes is a tendency to utilize 
scarce budget amounts to build entire systems. System development 
requires updates and modifications--all of which can be sustained by 
the private sector. The Defense and Intelligence communities have 
realized they can contract for only the data that their programs 
require without investing in the overall system themselves. This 
approach satisfies the need for accurate, updated and timely data with 
a clear understanding that the data production in the future will 
continue to improve. Typically, when the private sector continues to 
invest in technological upgrades, it can offer the data it produces at 
lower costs because it understands the government will be a market rich 
environment for the data.
    The complexity of vision and mission statement for many civilian 
agencies, combined with an understaffed and underfunded work force, 
makes it more critical than ever to engage the commercial sector. The 
private sector can help these agencies focus on their goals and develop 
the appropriate technologies, solutions and standards to assist them in 
accomplishing their mission.

                   Answers to Post-Hearing Questions
Responses by Matthew M. O'Connell, President and Chief Executive 
        Officer, GeoEye, Inc.

Questions submitted by Chairman Mark Udall

Q1.  The development of data standards can help facilitate the 
widespread use of remote sensing data and information. Are you 
satisfied with the opportunities available to commercial remote sensing 
companies to help coordinate data formats and standards among Federal 
Government agencies, academic institutions, and other remote sensing 
data producers and users? What actions, if any, do you believe would 
strengthen mechanisms to coordinate the development of data standards?

A1. In response to your question for the record regarding data 
standards, there are currently several government specific standards we 
use. While these standards are sufficient for the process and 
dissemination of commercial imagery, we believe that new standards such 
as XML-based metadata could exponentially increase the delivery of 
data. However, the government is very slow to adopt new standards 
simply because so many of its other systems are legacy-based. We 
believe our imagery would be more usable to the Department of Defense 
community if it could be delivered in GeoTIFF/MrSID formats with an XML 
metadata file. This would expedite the speed in which users could 
access and receive the data. Nonetheless, we do not believe industry 
would benefit from any new standards as the government is still 
attempting to evolve its legacy systems to today's technologies.

                   Answers to Post-Hearing Questions
Responses by Jill Smith, President and Chief Executive Officer, 
        DigitalGlobe, Inc.

Questions submitted by Chairman Mark Udall

Q1.  The development of data standards can help facilitate the 
widespread use of remote sensing data and information. Are you 
satisfied with the opportunities available to commercial remote sensing 
companies to help coordinate data formats and standards among Federal 
Government agencies, academic institutions, and other remote sensing 
data producers and users? What actions, if any, do you believe would 
strengthen mechanisms to coordinate the development of data standards?

A1. In response, let me offer that, from DigitalGlobe's perspective, 
there is currently ample opportunity for industry to participate in the 
development of remote sensing data formats and standards.


</pre></body></html>
